<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  REAUTHORIZATION OF THE MAGNUSON-STEVENS 
                   FISHERY CONSERVATION AND MANAGEMENT ACT
=======================================================================


                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 11, 2013

                               __________

                           Serial No. 113-41

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-948                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 11, 2013....................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     4
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bruno, John F., Ph.D., Professor, Department of Biology, 
      University of North Carolina at Chapel Hill................    64
        Prepared statement of....................................    65
    Deem, Jeff, Recreational Fishing Alliance....................    60
        Prepared statement of....................................    61
    Dorsett, Chris, Director, Ecosystem Conservation Programs, 
      Ocean Conservancy..........................................    66
        Prepared statement of....................................    68
    Giacalone, Vito, Policy Director, Northeast Seafood Coalition    53
        Prepared statement of....................................    55
    Hilborn, Dr. Ray, Professor, School of Aquatic and Fishery 
      Sciences, University of Washington, Seattle, Washington....    38
        Prepared statement of....................................    40
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association................................................    47
        Prepared statement of....................................    48
    Rauch, Samuel D. III, Acting Assistant Administrator, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....     6
        Prepared statement of....................................     8
    Robins, Richard B., Jr., Chairman, Mid-Atlantic Fishery 
      Management Council.........................................    17
        Prepared statement of....................................    19
    Sullivan, Patrick J., Ph.D., Department of Natural Resources, 
      Cornell University, and Co-Chair, Committee on Evaluating 
      the Effectiveness of Stock Rebuilding Plans of the 2006 
      Fishery Conservation and Management Reauthorization Act, 
      Ocean Studies Board, The National Academies................    13
        Prepared statement of....................................    14

Additional materials supplied:
    Natural Resources Defense Council report entitled ``Bringing 
      Back the Fish: An Evaluation of U.S. Fisheries Rebuilding 
      Under the Magnuson-Stevens Fishery Conservation and 
      Management Act,'' retained in the Committee's official 
      files, Web link to report..................................    91
                                     



  OVERSIGHT HEARING ON ``THE REAUTHORIZATION OF THE MAGNUSON-STEVENS 
               FISHERY CONSERVATION AND MANAGEMENT ACT.''

                              ----------                              


                     Wednesday, September 11, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:03 a.m., in room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Wittman, Fleming, 
McClintock, Tipton, DeFazio, Pallone, Bordallo, Costa, 
Cardenas, Huffman, Lowenthal, Garcia, and Tierney.
    The Chairman. The Committee will come to order.
    The Chairman notes the presence of a quorum, which under 
rule 3(e) is a couple of Members. The Committee on Natural 
Resources is meeting today to hear testimony on an oversight 
hearing on the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    Under rule 4(f), opening statements are limited to the 
Chairman and the Ranking Member of the Committee. However, I 
ask unanimous consent that if any Member wishes to have a 
statement that he hand the statement to the clerk of Committee 
prior to the close of business today.
    Without objection, so ordered.
    I will now recognize myself for my opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. This is the fourth oversight hearing we have 
held this Congress on the reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act, the primary 
statute governing the harvests of U.S. fisheries. This Act 
governs both the recreational and commercial harvests of 
fisheries in Federal waters, and the Act significantly affects 
many coastal communities. It requires that fishery managers 
balance the biological needs of the fish with the economic 
needs of the fishermen. The Act also requires that fishery 
managers base the management decisions on science.
    Over the last 3 years legitimate questions have been raised 
about whether the data being used to make management decisions 
is sound. Further, many are concerned that the balance between 
fish and fishermen has shifted. At a time when fisheries jobs 
and the economic activity they create are critical to keeping 
our coastal communities alive, it is important that we ensure 
the laws and regulations that govern these activities are not 
unnecessarily rigid.
    Last week the Ocean Studies Board of the National Academies 
of Science released a report titled, ``Evaluating the 
Effectiveness of Fish Stocking Rebuilding Plans in the United 
States.'' This is not the first time the Ocean Studies Board 
has weighed in on fisheries management issues. Congress and 
NOAA have asked the board to study tough issues on a number of 
occasions. The most recent report comes at a perfect time. 
While I don't want to preempt the testimony of the report's 
cochair, I believe the report tracks what we have been hearing 
both during congressional hearings and at our Managing Our 
Nation's Fisheries Conference.
    Generally, the report correctly finds that while the 2006-
2007 amendments were well intentioned, some modifications 
should be considered to give fishery managers additional 
flexibility to deal with the complexities of fisheries. In 
particular, we have heard testimony that the Act's rebuilding 
provisions are too rigid and are causing unnecessary economic 
hardship during rebuilding periods. The Ocean Studies Board 
report examined this aspect of the Act, and today, we will hear 
from Dr. Patrick Sullivan, the cochair of the committee, who 
has spent a lot of time and effort examining the effectiveness 
of the rebuilding provisions and will offer some 
recommendations on whether Congress should consider additional 
flexibility in these provisions.
    Since we last met to discuss the Magnuson-Stevens Act, a 
number of things have occurred, which are not necessarily the 
direct topic of today's hearing but are issues that are on the 
Members' minds and relate to the reauthorization of the Act. 
The first issue relates to the topic of our last hearing on the 
management of the red snapper in the Gulf of Mexico. Last week, 
the State of Louisiana announced it no longer had confidence in 
the Federal recreational data collection program and that it 
would no longer participate in that program.
    I hesitate to ask the National Academy of Science to take 
on another task, but it appears that the recreational data 
collection recommendations that you issued in 2006 have not 
been adequately implemented by NOAA, and perhaps a fresh look 
at the data needs in the Gulf of Mexico is warranted. Seven 
years after Congress told NOAA to create a better recreational 
data collection program, based on the National Academy's 
recommendations, little has changed since 2006. Recreational 
fishermen doubt the data and managers continue to be forced to 
make decisions without adequate or real time data. Management 
cannot happen without sound data, and fishermen must trust the 
science for management measures to be effective.
    And second, at a time when we are asking fishery managers 
to increase the amount and types of data they collect, concerns 
have been raised about how proprietary and sensitive 
information is protected by these managers. This is a delicate 
balancing act and I hope that NOAA will proceed with caution.
    And with that, I will yield back my time and recognize the 
Ranking Member, Mr. DeFazio.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    This is the fourth oversight hearing we have held this Congress on 
the reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act--the primary statute governing the harvest of U.S. 
fisheries.
    This Act governs both the recreational and commercial harvest of 
fisheries in Federal waters and the Act significantly affects many 
coastal communities. It requires that fishery managers balance the 
biological needs of the fish with the economic needs of fishermen. The 
Act also requires that fishery managers base the management decisions 
on science.
    Over the last 3 years, legitimate questions have been raised about 
whether the data being used to make management decisions is sound. 
Further, many are concerned that the balance between fish and fishermen 
has shifted. At a time when fisheries jobs and the economic activity 
they create are critical to keeping our coastal communities alive, it 
is important that we ensure the laws and regulations that govern these 
activities are not unnecessarily rigid.
    Last week, the Ocean Studies Board of the National Academies of 
Sciences released a report titled ``Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States.'' This is not the 
first time the Ocean Studies Board has weighed in on fisheries 
management issues. Congress and NOAA have asked the Board to study 
tough issues on a number of occasions. This most recent report comes at 
a perfect time.
    While I don't want to pre-empt the testimony of the report's co-
chair, I believe the report tracks what we have been hearing both 
during Congressional hearings and at the Managing Our Nations Fisheries 
conference. Generally, the report correctly finds that while the 2006/
2007 amendments were well intentioned, some modifications should be 
considered to give fishery managers additional flexibility to deal with 
the complexities of fisheries.
    In particular, we have heard testimony that the Act's rebuilding 
provisions are too rigid and are causing unnecessary economic hardship 
during rebuilding periods. The Ocean Studies Board report examined this 
aspect of the Act and today we will hear from Dr. Patrick Sullivan, the 
Co-Chair of the committee who has spent a lot of time and effort 
examining the effectiveness of the rebuilding provisions and will offer 
some recommendations on whether Congress should consider additional 
flexibility in those provisions.
    Since we last met to discuss the Magnuson-Stevens Act, a number of 
things have occurred which are not necessarily the direct topic of 
today's hearing, but are issues that are on Members' minds and relate 
to the reauthorization of the Act.
    The first issue relates to the topic of our last hearing on the 
management of red snapper in the Gulf of Mexico. Last week, the State 
of Louisiana announced it no longer had confidence in the Federal 
recreational data collection program and that it would no longer 
participate in that program. I hesitate to ask the National Academies 
of Sciences to take on another task, but it appears that the 
recreational data collection recommendations that you issued in 2006 
have not been adequately implemented by NOAA, and perhaps a fresh look 
at the data collection needs in the Gulf of Mexico is warranted.
    Seven years after Congress told NOAA to create a better 
recreational data collection program, based on the National Academies' 
recommendations, little has changed since 2006: recreational fishermen 
doubt the data and managers continue to be forced to make decisions 
without adequate or real-time data. Management cannot happen without 
sound data and fishermen must trust the science for management measures 
to be effective.
    Second, at a time when we are asking fishery managers to increase 
the amount and types of data they collect, concerns have been raised 
about how proprietary and sensitive information is protected by those 
managers. This is delicate balancing act and I hope NOAA will proceed 
with caution.
    With that, I look forward to hearing from today's witnesses.
                                 ______
                                 

STATEMENT OF PETER A. DeFAZIO A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, I represent about half of the Oregon coast 
and a number of fishing communities. I actually grew up on the 
East Coast and am very familiar with the issues, particularly 
as it relates to Georgia's banks and Cape Cod from my early 
life, so I have a long association with the ocean and ocean 
resources.
    Magnuson-Stevens has made some tremendous progress, but I 
agree with you that the law, as currently written, particularly 
some of the amendments in 2006, have had some unintended 
consequences, and it does need review and potential revision by 
this community. There is a balance to be struck here. No one 
wants to see that we are having a race to catch the last fish 
or to crash a stock that just won't ever come back.
    But, on the other hand, we are dealing with people's lives 
and livelihoods here, and many are multigenerational families 
who have fished. We are dealing with a food of choice for many 
Americans, a renewable sustainable resource. And we have to be 
good stewards of it, but we also have to be cognizant of the 
impacts as we regulate it.
    I share concerns about the data, and we have to find ways 
to better integrate the scientists with those who actually are 
on the water and doing the fishing. I know there are issues 
here in terms of budgetary constraints, but we have to find a 
way to do that better. That will give people more confidence, 
and it may give us some different data sets and give us more 
confidence in the data.
    I want to look at where we set hard targets for recovery. 
If we begin to make progress in recovery, it is kind of ironic; 
on the way down, essentially we don't regulate and you can 
overfish until you get to the point where we have to declare a 
stock depleted and then put in place a 10-year plan. On the way 
up, there is very little flexibility. I would suggest that we 
want to look at these plans and see whether if you reach 
certain points during recovery, that you could then perhaps 
allow a little bit more enhanced fishing and maybe, at some 
point, even say, OK, recovery is going well, what we have done 
is working, but now we are going to take a little longer window 
than 10 years to get there. And we are going to relieve some of 
the pressure in the interim on the economic hardships.
    So my intent here is not to overexploit the resource but my 
intent is that we develop something that works both for the 
resource and for those who are dependent upon it for a living 
and those who prefer it on a dietary basis. It is a large and 
important industry, not only in my district but for the Nation, 
and we have to both use it wisely and husband it for the 
future.
    So, thank you, Mr. Chairman. I don't have all the answers, 
and that is why I am here today.
    [The prepared statement of Mr. DeFazio follows:]

     Statement of The Honorable Peter A. DeFazio, Ranking Member, 
                     Committee on Natural Resources

    During the first 20 years of federal fisheries management under the 
Magnuson-Stevens Act we saw boom and bust cycles, dangerous derby 
fishing, and harvest rates that could sustain neither coastal economies 
nor ocean ecosystems in the long run. By the time we realized that 
there were too many people fishing for too few fish, we had allowed--
and in some cases promoted--massive investments in boats, gear, and 
shoreside infrastructure that sometimes proved to be more than the 
supply of fish could support. Contraction, though painful, was 
inevitable.
    We did learn from this mistake that the only path to expansion of a 
domestic fishery is through rebuilding of depleted stocks. NOAA 
projects that fully rebuilding all of our domestic fisheries could 
generate $31 billion for our economy and provide employment for half a 
million Americans. Even at this early stage, revenue generated from 
stocks subject to rebuilding plans has increased more than 50 percent--
$565 million--since before rebuilding began. This is in large part due 
to the changes to the Magnuson-Stevens Act brought about by bipartisan 
reauthorizations in 1996 and 2006. The decisions to require an end to 
overfishing, establish science-based annual catch limits, set 
rebuilding deadlines, and inject accountability into the management 
process have put us on the brink of achieving the type of fisheries 
restoration success that many thought impossible.
    Unfortunately, the benefits of rebuilding have accrued unevenly 
across fisheries. Some stocks like Pacific whiting and Atlantic sea 
scallop have bounced back and helped fuel local economies. Others like 
Atlantic cod have continued to limp along at levels far below what we 
once saw as an endless bounty. That some of these failures have 
happened in some of our most storied fishing communities, especially in 
New England, has made the situation even more frustrating.
    In its recent report, the National Research Council explores the 
ways in which rebuilding under Magnuson has succeeded, and how it might 
be improved to secure the desired management outcomes at a lower short 
term cost to fishing communities. Their findings will surely spark a 
lively discussion here today, and I look forward to hearing more about 
the repot from Dr. Sullivan. However, I would like to point out a few 
things that caught my eye.
    First, the report points out that the current rebuilding approach 
has generally performed well in identifying overfished stocks, 
decreasing fishing mortality, and increasing stock biomass, leading to 
numerous rebuilding successes. The 1996 and 2006 Magnuson amendments 
required managers to make tough choices, rather than continuing to kick 
the can down the road, and many fisheries are now reaping the benefits. 
For those that have not rebounded, reexamining the rebuilding framework 
is necessary and appropriate, but we should not throw the baby out with 
the bathwater.
    Second, we lack the scientific understanding necessary to account 
for the effects of climate change, food web interactions, habitat 
degradation and other environmental factors on rebuilding fish stocks. 
The report states clearly that better science and more frequent 
assessments can lead to minor adjustments rather than extreme swings in 
allowable harvest levels. We desperately need to develop the tools to 
apply an ecosystem approach to fisheries management.
    Third, the report notes that gradually reducing harvest before a 
stock requires rebuilding is the best way to keep fisheries healthy, 
but restoring stocks which are already severely depleted is more 
challenging and can have adverse economic impacts on fishing 
communities. The report suggests that additional flexibility in 
rebuilding plans could produce the desired results with less economic 
harm, but notes that additional accountability measures and 
precautionary buffers may be necessary in exchange for greater 
flexibility.
    Fisheries management in the United States has made significant 
progress after the reforms to Magnuson in 1996 and 2006, especially in 
the area of rebuilding depleted stocks. However, there is not much 
solace in that for people who have not seen their fisheries rebound. As 
we look toward the next round of Magnuson reauthorization, we must 
ensure that fishing communities can stay viable while the stocks they 
depend upon rebuild, but also that we do not backtrack on the progress 
we've made.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement, and 
I look forward to obviously working on this on the 
reauthorization.
    I want to welcome our first panel. We have Mr. Samuel 
Rauch, who is the Acting Assistant Administrator for fisheries 
for the National Marine Fisheries Service; Dr. Patrick J. 
Sullivan, Cochair of the Committee on Evaluating the 
Effectiveness of Stock Rebuilding Plans of the 2006 Fishery 
Conservation and Management Reauthorization Act.
    You could have had a shorter title for that I would think. 
At any rate, from the Ocean Studies Board.
    And then Mr. Richard Robins, who is the Chairman of the 
Mid-Atlantic Fishery Management Council.
    Welcome to you all.
    You were asked to present a full statement, and that will 
appear in the record, but you notice you have the timing clock 
in front of you. And the way that works, when the green light 
goes on, you have the start of your 5 minutes, and then when 
the yellow light comes on, you have 1 minute to go, and I would 
ask you to try to wrap it up in that timeframe, and when the 
red light goes on, boy, well, anyway, we just won't go there. 
But if you would, keep your oral arguments within the 5 minutes 
so we can have time to have an interchange.
    And so, with that, Mr. Rauch, we will recognize you first. 
You are recognized for 5 minutes.

      STATEMENT OF SAMUEL D. RAUCH III, ACTING ASSISTANT 
ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE, 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Rauch. Thank you. Good morning, Mr. Chairman, Ranking 
Member DeFazio, and members of the Committee. Thank you for the 
opportunity to testify before you today. My name is Samuel 
Rauch, and I am the assistant, Acting Assistant Administrator 
for NOAA's National Marine Fisheries Service.
    Our most recent economic estimates show how economically 
important marine fisheries are. In 2011, U.S. commercial 
fisheries landed 9.9 billion pounds of seafood valued at $5.3 
billion. This represents the highest landings volume since 1997 
and the highest value in nominal terms ever recorded. In 2011, 
the seafood industry generated $129 billion in sales and $37 
billion in income impacts and supported 1.2 million jobs. 
Recreational fishing generated $70 billion in sales impact, $20 
billion in income impacts, and supported 455,000 jobs in 2011. 
That was a 40 percent increase in jobs over 2010.
    This success is a product of hard work and ingenuity by the 
industry, the fishery management councils, and the entire 
Federal fishery management system that is effectively 
rebuilding U.S. fisheries, putting them on a sustainable basis.
    Since its initial passage in 1976, the Magnuson-Stevens Act 
has charted a groundbreaking course for sustainable fisheries. 
Today the law requires rebuilding plans for overfished stocks 
and annual catch limits and accountability measures to prevent 
overfishing. Under the Act, if a stock is determined to be 
overfished, the council has 2 years to develop and implement a 
rebuilding plan. By statute, the period to rebuild a stock may 
not exceed 10 years except in cases where the biology of the 
fish stock and international agreement or other environmental 
conditions dictate otherwise. However, because a stock must be 
rebuilt in a time period that is as short as possible, 
rebuilding cannot extend beyond the 10 years and may be even 
less than the 10 years if it is possible to rebuild in that 
time.
    Of the 43 active rebuilding plans with a target time to 
rebuild, 23 of them are set longer than 10 years. For example, 
the Pacific yelloweye rockfish has a rebuilding timeline of 71 
years, and red snapper in the Gulf of Mexico is 32 years. The 
remaining 20 rebuilding plans are set for 10 years or less. 
Flexibility does exist under the Act to adjust these rebuilding 
plans when a stock is failing to make adequate progress or when 
our understanding of the population dynamics of the stock 
change. In these situations, the council can amend the plan 
with revised conservation measures and, as we said, can amend 
the timeline.
    To successfully rebuild, though, under any of these plans 
we must end overfishing. Annual catch limits are a powerful 
tool to accomplish this. Prior to implementation of annual 
catch limits, a number of rebuilding plans experienced 
difficulty in ending overfishing and achieving the fishing 
mortality rate called for in the plan. As a result, rebuilding 
was delayed and the plans had trouble meeting their targets. 
Since the implementation of ACLs and accountability measures, 
we expect the number of stocks on the overfishing list to 
continue to decrease and to see further declines in the number 
of overfished stocks and to see increases in the number of 
rebuilt stocks, and we are, in fact, seeing the success. The 
number of stocks subject to overfishing was the highest in 2000 
when 48 stocks were on the overfishing list. At present, 28 
stocks are listed as subject to overfishing, and 40 stocks are 
overfished, both all-time lows. Since 2000, 33 stocks have been 
rebuilt.
    Ending overfishing and rebuilding depleted fisheries brings 
significant biological, economic, and social benefit. Of the 26 
rebuilt stocks for which information is available, half of them 
now produce at least 50 percent more revenue than they did when 
they were overfished, but doing so takes time, persistence, and 
sacrifice, and adherence to scientific information.
    While significant progress has been made, we recognize that 
this progress has not come without a cost. Fishermen, fishing 
communities, and the councils have had to make difficult 
decisions, and many areas have had to absorb the cost of 
conservation and investment in order to secure the long-term 
economic and biological sustainability goals. That is why NMFS 
is committed to generating the best fisheries science and 
research in support of the goals of the Magnuson Act.
    In 2011, in response to concerns raised by stakeholders and 
Members of Congress, we supported the 10-year study that you 
are going to hear about from Dr. Sullivan in order to look at 
the rebuilding timeframe. The results of that study are going 
to fit well within our current administrative process to 
revisit the guidelines that we have put forth that are called 
the National Standard 1 Guidelines. These are the guidelines 
that we adopt to implement the statutory goals. We have 
announced and we are in the process of revisiting those, and 
the results of the report are going to feed well into that 
process. As we look to the future, we must also look for 
opportunities to build on the success we are seeing now. We 
need to approach the challenges we are facing in our fisheries 
in a holistic, deliberative, and thoughtful way that includes 
input from the wide range of stakeholders who care deeply about 
these issues. Thank you again for inviting me to testify before 
the Committee today, and I will be happy to answer any 
questions.
    The Chairman. Thank you very much, Mr. Rauch.
    [The prepared statement of Mr. Rauch follows:]

   Statement of Samuel D. Rauch III, Acting Assistant Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

Introduction
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the opportunity to testify before you today. My name is Samuel 
D. Rauch and I am the Acting Assistant Administrator for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS) in the Department of Commerce. NMFS is 
dedicated to the stewardship of living marine resources through 
science-based conservation and management. Much of this work occurs 
under the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act), which sets forth standards for conservation, 
management, and sustainable use of our Nation's fisheries resources.
    Marine fish and fisheries--such as salmon in the Pacific Northwest, 
cod in New England, red snapper in the Gulf of Mexico, and pollock in 
Alaska--have been vital to the prosperity and cultural identity of 
coastal communities in the United States (U.S.). U.S. fisheries play an 
enormous role in the Nation's economy. Commercial fishing supports 
fishermen and fishing communities, and it provides Americans with a 
sustainable, healthy food source. Recreational fishing is an important 
social activity for individuals, families, and communities; and it is a 
critical economic driver of, and contributor to, local and regional 
economies, as well as the national economy. Subsistence fishing 
provides an essential food source, and it is culturally significant for 
many people.
    Our most recent estimates show that the amount landed and the value 
of commercial U.S. wild-caught fisheries was up in 2011 while 
recreational catch remained stable. U.S. commercial fishermen landed 
9.9 billion pounds of seafood valued at $5.3 billion in 2011, which 
reflects an increase of 1.6 billion pounds (20 percent) and $829 
million (18 percent) over 2010 figures. 2011 saw the highest landings 
volume since 1997 and highest value in nominal terms ever recorded.\1\
---------------------------------------------------------------------------
    \1\ See NOAA Fisheries Annual Commercial Fisheries Landings 
Database available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
---------------------------------------------------------------------------
    The seafood industry--harvesters, seafood processors and dealers, 
seafood wholesalers and seafood retailers, including imports and 
multiplier effects--generated $129 billion in sales impacts and $37 
billion in income impacts, and supported 1.2 million jobs in 2011. 
Recreational fishing generated $70 billion in sales impacts, $20 
billion in income impacts, and supported 455,000 jobs in 2011. Jobs 
supported by commercial businesses held steady from the previous year, 
while jobs generated by the recreational fishing industry represented a 
40 percent increase over 2010.\2\
---------------------------------------------------------------------------
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science and Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science-based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Although challenges remain in some fisheries, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen as fish populations grow and catch limits increase.
    My testimony today will focus on the progress we have made, 
together with our partners, in implementing the Magnuson-Stevens Act's 
key domestic provisions, particularly the success of the requirement to 
rebuild overfished fish stocks.
Progress in Ending Overfishing and Rebuilding Fish Stocks Under the 
        Magnuson-Stevens Act
Ending Overfishing and Rebuilding Fisheries
    The federal fishery management system is effectively ending 
overfishing and rebuilding overfished fisheries. We continue to make 
progress toward long-term biological and economic sustainability and 
stability. Since its initial passage in 1976, the Magnuson-Stevens Act 
has charted a groundbreaking course for sustainable fisheries. When 
reauthorized in 2007, the Act gave the eight Regional Fishery 
Management Councils and NMFS a very clear charge and some new tools to 
support improved science and management. We are now seeing the results 
of those tools. In 2012, six stocks were determined to be rebuilt, and 
there were decreases in both the numbers and percentages of fish stocks 
listed as overfished or experiencing overfishing.
    At present, only 28 stocks (10 percent) with a known status are 
listed as subject to overfishing, and 40 stocks (18 percent) are 
overfished--both all-time lows. The number of stocks subject to 
overfishing was highest in 2000, when 48 stocks were on the overfishing 
list. In 2002, 55 stocks were overfished. Since 2000, 33 stocks have 
been rebuilt.\3\ We expect the number of stocks on the overfishing list 
to continue to decrease as a result of management under annual catch 
limits. Ending overfishing allows stocks to increase in abundance, so 
we expect to see further declines in the number of overfished stocks 
and increases in the number of rebuilt stocks.\4\
---------------------------------------------------------------------------
    \3\ The recently-released National Academy of Sciences study notes 
that the most recent assessment for some rebuilt stocks indicates they 
were not overfished at the time they were placed in rebuilding plans. 
However, the best scientific information available at the time 
indicated the stock was overfished, and the rebuilding plan was 
successful in increasing the size of the stock to support higher 
sustainable yields.
    \4\ These statistics were compiled from the quarterly stock status 
reports at: http://www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm.
---------------------------------------------------------------------------
Benefits of Annual Catch Limits
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act is the mandate to implement 
annual catch limits, including measures to ensure accountability and to 
end and prevent overfishing in federally managed fisheries. An annual 
catch limit is an amount of fish that can be caught in a year so that 
overfishing does not occur. Accountability measures are management 
controls to prevent the limits from being exceeded and to correct or 
mitigate overages of the limits if they occur. This is an important 
move away from a management system that could only be corrected by 
going back through the full Council process in order to amend Fishery 
Management Plans--often taking years to accomplish, all while 
overfishing continued.
    Now, when developing a fishery management plan or amendment, the 
Councils must consider, in advance, the actions that will occur if a 
fishery does not meet its performance objectives. As of June 30, 2013, 
we have confirmed that overfishing has ended for 22 (58 percent) of the 
38 domestic U.S. stocks that were subject to overfishing in 2007 when 
the Magnuson-Stevens Act was reauthorized.\5\ Annual catch limits 
designed to prevent overfishing are in place for all stocks that need 
them. Preliminary data show that annual catch limits have been 
effective in limiting catch and preventing overfishing for the majority 
of stocks. Fisheries have successfully stayed within their annual catch 
limit for over 90 percent of the stocks for which we have catch data.
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
Successes and Challenges
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the eight Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develops through a bottom-
up process that includes fishermen, other fishery stakeholders, 
affected states, tribal governments, and the Federal Government. By 
working together with the Councils, states, tribes, and fishermen--
under the standards set in the Magnuson-Stevens Act--we have made great 
strides in ending overfishing, rebuilding stocks, and building a 
sustainable future for our fishing-dependent communities.
    This success has come with the new requirements of the reauthorized 
Magnuson-Stevens Act to end overfishing, implement annual catch limits, 
and rebuild overfished fisheries. Despite being in a national economic 
downturn, the fishing industry as a whole has seen great economic 
gains, both in terms of revenues and landings, particularly in the past 
2 years.
    While significant progress has been made since the last 
reauthorization, we recognize that this progress has not come without 
cost and, even with national successes we are still seeing challenges 
regionally. Fishermen, fishing communities, and the Councils have had 
to make difficult decisions and, in many areas, have had to absorb the 
cost of conservation and investment in long-term economic and 
biological sustainability. In some instances where quotas have been 
cut, stocks are not rebounding as we would have expected, and we are 
working with the Councils, academia, the states, and fishermen to 
examine how environmental factors outside of fishing mortality may be 
influencing the ability of these stocks to rebuild. We need to approach 
these challenges in a holistic, deliberative, and thoughtful way that 
includes input from the wide range of stakeholders who care deeply 
about these issues.
Flexibility Is Inherent in the Act's Rebuilding Requirements
Rebuilding Requirements and Timelines
    Rebuilding plans are required when a stock is determined to be 
overfished. Each stock has a minimum stock size threshold that has been 
established by the Council based on the best scientific information 
available--this represents the size of the stock below which its 
ability to produce maximum sustainable yield is impaired. If a stock 
assessment finds that the biomass is below the stock's minimum stock 
size threshold, the stock is determined to be overfished and the 
Council has two years to develop and implement a rebuilding plan.
    The Magnuson-Stevens Act requires that the period to rebuild a 
stock not exceed 10 years, but it permits a longer time period in 
certain cases where the biology of the fish stock, management measures 
under an international agreement in which the United States 
participates, or other environmental conditions dictate otherwise, 
although this period still must be as short as possible. Current 
rebuilding time periods for stocks with active rebuilding plans range 
from four years to more than 100 years. Of the 43 active rebuilding 
plans with a target time to rebuild, 23 of them (53 percent) are set 
longer than 10 years due to the biology of the stock (slow reproducing, 
long lived species) or environmental conditions. For example, Pacific 
yelloweye rockfish has a rebuilding timeline of 71 years. The remaining 
20 rebuilding plans are set for 10 years or less. Of the 33 stocks 
rebuilt since 2000, 18 stocks were rebuilt within 10 years. Two 
additional stocks in 10-year plans were rebuilt within 12 years.
Rebuilding Successes and Benefits
    Rebuilding fisheries brings significant biological, economic, and 
social benefits, but doing so takes time, persistence, sacrifice, and 
adherence to scientific information. Of 26 rebuilt stocks for which 
information is available, half of them now produce at least 50 percent 
more revenue than they did when they were overfished. Seven stocks have 
current revenue levels that are more than 100 percent higher than the 
lowest revenue point of the overfished stock.
    Atlantic sea scallops provide one example of rebuilding success. In 
the early 1990s, the abundance of Atlantic sea scallops was near record 
lows and the fishing mortality rate was at a record high. Fishery 
managers implemented a number of measures to allow the stock to 
recover, including an innovative area management system. The stock was 
declared rebuilt in 2001. Revenues increased five-fold as the fishery 
rebuilt, from $44 million in 1998 to $353 million in 2011, making New 
Bedford the Nation's top port by value of landings since 2000.
    Another example of rebuilding success can be seen with Bering Sea 
snow crab. In 1999, scientists found that Bering Sea snow crab was 
overfished. In response, managers reduced harvests to a level that 
would allow the stock to rebuild, and the stock was declared rebuilt in 
2011. In the 2011-2012 fishing year, managers were able to increase the 
harvest limit by 64 percent to nearly 90 million pounds. By 2012, 
revenue from the fishery had increased to almost 400 percent of the 
2006 revenue (the low point during the rebuilding period).
Ending Overfishing in a Rebuilding Plan
    Ending overfishing is the first step in rebuilding. Prior to the 
implementation of annual catch limits, a number of rebuilding plans 
experienced difficulty in ending overfishing and achieving the fishing 
mortality rate called for in the plan. As a result, rebuilding was 
delayed. Conversely, stocks where overfishing has ended quickly have 
seen their stock size increase and rebuild more quickly. For example, 
Widow rockfish in the Pacific was declared overfished in 2001. Fishing 
mortality on Widow rockfish was immediately substantially reduced 
resulting in a corresponding increase in stock size. The stock was 
declared rebuilt in 2011, ahead of the rebuilding deadline. The 10-year 
rebuilding timeframe itself does not typically constrain catch for a 
rebuilding stock.
    Most major reductions in allowable catch experienced by fishermen 
when stocks enter rebuilding plans are predominantly from the 
requirement to prevent overfishing--which is now required through 
annual catch limits for all stocks, not just those determined to be 
overfished. When unsustainably large catches have occurred due to high 
levels of overfishing on a depleted stock, large reductions in catch 
will be needed to end overfishing, and the stock must rebuild in 
abundance before catches will increase.
    Because ending overfishing is essential to rebuilding, annual catch 
limits are a powerful tool to address prior problems in achieving 
rebuilding. Nine of the 20 stocks currently in 10-year (or less) 
rebuilding plans had failed to end overfishing as of their last stock 
assessment. Annual catch limits, which are now in place as a mechanism 
to control catch to the level specified in the rebuilding plan, are 
working and we anticipate the next stock assessments for these species 
to confirm that overfishing has ended. With that result, we will begin 
to see stronger rebuilding for these stocks. The next quarterly status 
update (for the period ending September 30, 2013) will show that 
overfishing has ended for five additional stocks in rebuilding plans of 
10 years or less--Gulf of Mexico gag, Gulf of Mexico gray triggerfish, 
Gulf of Mexico greater amberjack, South Atlantic black sea bass, and 
South Atlantic red grouper. In addition, preliminary data on the 
performance of annual catch limits have shown that fisheries have 
successfully stayed within their annual catch limits for at least 78 
percent of the stocks currently in rebuilding plans.
Flexibility in Rebuilding Plans
    The Magnuson-Stevens Act provides flexibility to adjust rebuilding 
plans when a stock is failing to make adequate progress toward 
rebuilding. In these situations, the Councils can amend the rebuilding 
plan with revised conservation and management measures. The Act 
requires that the revised plan be implemented within two years and that 
it end overfishing (if overfishing is occurring) immediately upon 
implementation.
    Rebuilding plans are also adaptable when new scientific information 
indicates changing conditions. For example, the target time to rebuild 
Pacific ocean perch off the Pacific Coast was recently lengthened based 
on information within a new stock assessment. The assessment, conducted 
in 2011, revised our understanding of the Pacific ocean perch stock 
status and productivity and showed that, even in the absence of 
fishing, the time it would take to rebuild the stock would be longer 
than the previously established target time to rebuild. Given this 
information, NMFS worked with the Pacific Fishery Management Council in 
2012 to modify the rebuilding plan and extend the target time for stock 
rebuilding from 2017 to 2020.
    Rebuilding timelines can also be shortened based on new 
information. As one example, the original rebuilding plan for cowcod, a 
Pacific Coast groundfish, was 95 years. The rebuilding time has been 
modified based on updated scientific information, and is currently 67 
years.
Stakeholder Input and Concerns
    The Managing Our Nation's Fisheries 3 conference, held this past 
May in Washington, DC, provided us an exciting opportunity to engage 
with a variety of stakeholders on the Magnuson-Stevens Act, and the 
topic of rebuilding was discussed extensively at the first session on 
Improving Fishery Management Essentials. We heard from conference 
participants about adjustments they would like to see regarding 
rebuilding time requirements. We heard their concerns, and we are 
taking a hard look at the recommendations they provided in the context 
of how we and the Councils do business. We are also engaged in 
conversations with the Councils, constituents, and Congress on the next 
reauthorization of the Magnuson-Stevens Act, and we will look carefully 
at any recommendations regarding rebuilding timeframe flexibility.
National Academy of Sciences Report on Rebuilding
    We've heard concerns from stakeholders that the 10-year rebuilding 
timeline may be arbitrary and too restrictive. In response to these 
concerns and similar concerns expressed by Members of Congress, in 2011 
NOAA commissioned the National Academy of Sciences' National Research 
Council (NRC) to conduct a comprehensive evaluation of success in stock 
rebuilding and identification of changes made to fisheries management 
in response to rebuilding requirements. NOAA asked the NRC to study 
seven topics related to rebuilding to help us and the Councils better 
construct efficient and effective rebuilding plans.
    The NRC rebuilding study was released on September 5, 2013. We are 
thankful for the in-depth and forward-looking review provided by the 
NRC, and at present we are carefully analyzing the report's details. 
The timing of the report fits nicely with our work to revise National 
Standard 1 Guidelines. Since the guidelines were last updated in 2009, 
a number of issues regarding the application of the guidelines have 
been identified by stakeholders and managers, and these issues may 
warrant revisions. An Advanced Notice of Proposed Rulemaking was 
published on May 3, 2012 to solicit public input, and several report 
findings reflect possible revisions to the guidelines similar to those 
currently being considered by NMFS. At this time, NMFS would like to 
acknowledge a few aspects of the report:
        <bullet>  From the NRC's assembly of technical results from all 
        rebuilding plans, we are pleased to see that rebuilding plans 
        are effective at increasing stock abundance, especially when 
        fishing mortality is quickly reduced below overfishing levels.
        <bullet>  The report identifies several challenges with 
        implementation of rebuilding plans that are based upon specific 
        biomass targets and rebuilding timeframes. They note that more 
        flexible rebuilding plans could be based on strict requirements 
        to keep fishing mortality rates at about 75 percent of the 
        overfishing limit.
        <bullet>  The report notes that some rebuilding plans have had 
        large social and economic consequences in order to rebuild to 
        specific biomass levels in fixed time frames but that the 
        economic consequences had rebuilding not occurred are difficult 
        to determine. Continued investments in social and economic data 
        collection and analysis will inform the process of developing 
        future rebuilding plans.
        <bullet>  The report's investigation of ecosystem factors 
        includes a general finding about the complexity of ecosystems 
        and the challenges of making specific forecasts, especially 
        over longer-term time frames. NMFS is keenly interested in 
        increasing the linkage between ecosystem/environmental factors 
        and fish stock assessments and forecasts. The FY 2014 
        President's Budget Request includes a $10 million increase for 
        NOAA to fund research on the impacts of climate on fisheries 
        with a focus on the Northeast groundfish region and NOAA has a 
        variety of activities underway to understand climate impacts on 
        marine ecosystems and increase the use of this information in 
        management of fisheries resources.
Conclusion
    The Magnuson-Stevens Act has galvanized the United States' efforts 
to end overfishing in federally managed fisheries, rebuild stocks, and 
ensure conservation and sustainable use of our marine fisheries. 
Fishery harvests in the United States are scientifically monitored, 
regionally managed, and legally enforced under 10 strict national 
standards of sustainability. But we did not get here overnight. Our 
Nation's journey toward sustainable fisheries has evolved over the 
course of over 35 years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measurable timeframes. Notable among these were the requirements 
for annual catch limits and accountability measures to prevent, respond 
to, and end overfishing.
    We are seeing progress in our effort to end overfishing and rebuild 
stocks. Both the number of stocks subject to overfishing and the number 
of stocks that are overfished are at an all-time low. This progress has 
been due to the collaborative involvement of our U.S. commercial and 
recreational fishing fleets and their commitment to science-based 
management, improving gear technologies, and application of best-
stewardship practices. These rebuilt fish stocks have often resulted in 
improved revenues, helping sustain fishing communities.
    While we are seeing progress and realizing benefits in some 
fisheries, we recognize that challenges remain. Looking ahead, we must 
continue to increase the quality and quantity of scientific data, 
continue progress made to address overfishing and rebuild stocks, and 
better address the difficult transitions that can come with management 
changes leading to more biologically and economically sustainable 
fishery resources. It is also increasingly important that we better 
understand ecosystem and habitat factors, including climate change, and 
incorporate them into our stock assessments and management decisions, 
because resilient ecosystems and habitat form the foundation for robust 
fisheries and robust economies.
    It is important to take time to reflect on where we have been to 
understand where we are. The Magnuson-Stevens Act provides flexibility 
in adapting management plans to the life history differences among 
species and nuances of particular fisheries, as well as to the unique 
regional and operational differences among fisheries and in the fishing 
communities they support. NOAA supports the collaborative and 
transparent process embodied in the Councils, as authorized in the 
Magnuson-Stevens Act, and strongly believes that all viable management 
tools should continue to be available as options for the Councils to 
consider when developing management programs. Together with our 
partners, we continue to explore alternative approaches that will 
produce the best available information to incorporate into management. 
We had productive discussions at the recent Managing Our Nation's 
Fisheries 3 Conference, and we will continue to engage with our 
stakeholders. We are also thankful for having the new National Academy 
of Sciences study on rebuilding and will be reviewing it carefully.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act and future efforts of 
reauthorization. We look forward to the discussions that will take 
place and will work with Congress on efforts to reauthorize the 
Magnuson-Stevens Act.
                                 *_____
                                 
    The Chairman. Dr. Sullivan, you are recognized for 5 
minutes.

STATEMENT OF PATRICK J. SULLIVAN, PH.D., CO-CHAIR, COMMITTEE ON 
 EVALUATING THE EFFECTIVENESS OF STOCK REBUILDING PLANS OF THE 
 2006 FISHERY CONSERVATION AND MANAGEMENT REAUTHORIZATION ACT 
          OCEAN STUDIES BOARD, THE NATIONAL ACADEMIES

    Dr. Sullivan. Great. Thank you. Good morning, Mr. Chairman 
and members of the Committee.
    My name is Patrick Sullivan. I am an Associate Professor in 
the Department of Natural Resources at Cornell University. My 
colleague, Dr. Ana Parma, and I co-chair the Committee on 
Evaluating the Effectiveness of Stock Rebuilding Plans. In 
2010, Senator Olympia Snowe and Representative Barney Frank 
requested NOAA fund a study by the National Academy of 
Sciences. The committee reviewed the technical specifications 
that underlie the current set of federally implemented 
rebuilding plans, the outcomes of those plans in terms of 
trends in fishing mortality and stock size, and changes in 
stock status with respect to fisheries management reference 
points.
    Fish stock rebuilding plans have proven successful in 
reducing fishing pressure on many overfished stocks, and stock 
sizes have generally increased. However, in some cases, 
fisheries have not rebuilt as quickly as the plans projected, 
due to factors such as overestimation of the sizes of the 
stocks and incidental catch by fisheries targeting other 
species. Even when fishing is reduced appropriately for the 
actual size, the rate at which rebuilding occurs will depend on 
ecological and other environmental conditions. Because of all 
of these factors, it is difficult to make accurate predictions 
of the time it will take stocks to rebuild. Therefore, 
rebuilding plans focus more on meeting selected fishing 
mortality targets rather than on adhering to strict schedules 
for achieving rebuilding may be more robust to assessment 
uncertainties, environmental variability, and the effects of 
ecological interactions. Well managed productive fisheries 
provide a livelihood, a nutritious source of food, and 
recreational activity for coastal communities around the 
country. However, if overfishing takes place and stocks 
experience serious declines, the loss of productivity affects 
the fishing industry and the communities that depend on fishing 
and raises concern about the overall health of the associated 
marine ecosystem.
    To meet these provisions, rebuilding plans have required 
substantial reductions in catch for many fisheries, resulting 
in social and economic impacts to fishing communities and 
industry. This report reviews the technical specifications that 
underlie current federally implemented rebuilding plans and the 
outcomes of those plans. The National Marine Fisheries Service 
evaluates the status of U.S. fish stocks to determine which 
stocks are overfished. That is which stocks are too small in 
size to sustain productive fisheries. Once a stock is 
classified as overfished, the appropriate regional Fishery 
Management Council selects and implements the rebuilding plan.
    Rebuilding plans are simple in theory. Annual catch limits 
are set to reduce fishing, which allows the stock to grow and 
recover. However, in order to design a rebuilding plan, 
fisheries managers need to anticipate how the stock may respond 
to different levels of fishing pressure. Currently rebuilding 
plans use a concept called maximum sustainable yield, MSY for 
short, to determine when a stock is overfished and to set 
annual catch limits and rebuilding targets for stock sizes.
    The concept of maximum sustainable yield can be useful in 
establishing population sizes and harvest rates that a 
population can sustain. Rebuilding plans based on MSY have 
proven successful for many stocks. As we mentioned maybe 
earlier already, 85 stocks declared overfished are approaching 
an overfished state between 1997 and 2012. Forty-one are no 
longer classified as overfished. Of these, 11 are rebuilding 
and 30 are rebuilt. However, a further 41 stocks have not yet 
rebuilt and are still classified as overfished.
    Because it is not possible to count every fish in the 
stock, scientists rely on a variety of statistical sampling 
procedures. The accuracy of population estimates and the 
projections depend on this data. The frequency of stock 
assessments can vary widely, both within and among regions from 
stocks that are assessed annually to those that have never been 
assessed. The challenge here, of course, is that climate, 
environmental conditions, and ecosystem interactions have 
significant effects on the rate at which a stock rebuilds. 
Although these factors affect the time it takes for a stock to 
rebuild, it is not currently possible to incorporate them into 
models to improve projections to a degree of accuracy useful 
for management.
    In terms of mixed stocks, when one stock is within a mixed 
stock fishery and declared overfished, reduction in fishing 
required rebuilding plans that affect all the stocks in the 
fishery. This leads to a loss of yield and income. The 
management of mixed stock fisheries is complex and a 
contentious issue, one that needs to be looked at.
    We also outline a number of other things, including 
gradually reducing the catch instead of waiting until 
rebuilding plan kicks in, using fishing mortality reference 
points instead of biomass-based reference points, setting F 
limits below FMSY and also make some comments on data-poor 
stocks. Half of the stocks that the National Marine Fisheries 
Service manages are data poor and are in need of something 
there.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Dr. Sullivan.
    [The prepared statement of Dr. Sullivan follows:]

    Statement of Patrick J. Sullivan, Ph.D., Department of Natural 
 Resources, Cornell University, and Co-Chair, Committee on Evaluating 
    the Effectiveness of Stock Rebuilding Plans of the 2006 Fishery 
 Conservation and Management Reauthorization Act, Ocean Studies Board, 
  Division on Earth and Life Studies, National Research Council, The 
                           National Academies

    Good morning, Mr. Chairman and members of the Committee. My name is 
Patrick Sullivan. I am an Associate Professor in the Department of 
Natural Resources at Cornell University. My colleague Dr. Ana Parma and 
I co-chaired the Committee on Evaluating the Effectiveness of Stock 
Rebuilding Plans of the 2006 Fishery Conservation and Management 
Reauthorization Act.
    In 2010, U.S. Senator Olympia Snowe and U.S. Representative Barney 
Frank requested that NOAA fund a study by the National Academy of 
Sciences' National Research Council regarding the Magnuson-Stevens 
Fishery Conservation and Management Act's rebuilding requirements.
    The committee reviewed the technical specifications that underlie 
the current set of federally-implemented rebuilding plans, the outcomes 
of those plans in terms of trends in fishing mortality and stock size, 
and changes in stock status with respect to fishery management 
reference points.
    Fish stock rebuilding plans have proven successful in reducing 
fishing pressure on many overfished stocks and stock sizes have 
generally increased. However, in some cases fisheries have not rebuilt 
as quickly as the plans projected, due to factors such as 
overestimation of the size of stocks and incidental catch by fisheries 
targeting other species. Even when fishing is reduced appropriately for 
the actual stock size, the rate at which rebuilding occurs will depend 
on ecological and other environmental conditions. Because of all these 
factors, it is difficult to make accurate predictions of the time it 
will take stocks to rebuild. Therefore, rebuilding plans that focus 
more on meeting selected fishing mortality targets than on adhering to 
strict schedules for achieving rebuilding may be more robust to 
assessment uncertainties, environmental variability, and the effect of 
ecological interactions.
    Well-managed, productive fisheries provide a livelihood, a 
nutritious source of food, and recreational activity for coastal 
communities around the country. However, if overfishing takes place and 
stocks experience serious declines, the lost productivity affects the 
fishing industry and communities that depend on fishing, and raises 
concerns about the overall health of the associated marine ecosystem. 
In the United States, the 1976 Magnuson-Stevens Fishery Conservation 
and Management Act was the first piece of major legislation to regulate 
federal fisheries. Although the Act contained language to ``prevent 
overfishing,'' it focused on developing the domestic fishing industry. 
Major declines in the productivity of several important fisheries led 
Congress to amend the Act in 1996. The amendment, the Sustainable 
Fisheries Act, more clearly defined overfishing and required rebuilding 
of overfished stocks within a specified time limit. In 2006, Congress 
made additional mandates for conserving and rebuilding fish stocks and 
strengthening the role of scientific advice in fisheries management. 
The Act now includes regulatory provisions such as ending overfishing 
immediately, annual catch limits and accountability measures.
    To meet these provisions, rebuilding plans have required 
substantial reductions in catch for many fisheries, resulting in social 
and economic impacts to fishing communities and industry. This report 
reviews the technical specifications that underlie current federally-
implemented rebuilding plans, and the outcomes of those plans.
Implementing Rebuilding Plans
    The National Marine Fishery Service evaluates the status of U.S. 
fish stocks to determine which stocks are overfished; that is, which 
stocks are too small in size to sustain continued productive fisheries. 
Once a stock is classified as overfished, the appropriate Regional 
Fishery Management Council selects and implements a rebuilding plan.
    Rebuilding plans are simple in theory; annual catch limits are set 
to reduce fishing, which allows the stock to grow and recover. However, 
in order to design a rebuilding plan, fishery managers need to 
anticipate how the stock may respond to different levels of fishing 
pressure. Currently, rebuilding plans use a concept called Maximum 
Sustainable Yield (MSY) to determine when a stock is overfished, and to 
set annual catch limits and rebuilding targets for stock size.
The Challenges of Rebuilding Plans
    The concept of Maximum Sustainable Yield can be useful in 
establishing population size and harvest rates that a population can 
sustain. Rebuilding plans based on MSY have proven successful for many 
stocks: of the 85 stocks declared overfished or approaching an 
overfished state between 1997 and 2012, 41 are no longer classified as 
overfished (of these, 11 are rebuilding and 30 are rebuilt). However, a 
further 41 stocks have not rebuilt yet, and are still classified as 
overfished. The committee identified several challenges associated with 
current rebuilding plans.
MSY Reference Points
    A major challenge comes from the fact that current rebuilding plans 
use a static metric of MSY, which in theory represents average 
conditions. In reality, ecosystems are dynamic and as a consequence MSY 
varies with factors such as changes in environmental conditions and 
ecological interactions. Generating reliable estimates of MSY depends 
on having extensive information about the biology of the species and 
its abundance in the years before it was overfished. This wealth of 
information is only available for a relatively few stocks, hence there 
is considerable uncertainty in the MSY estimates for most stocks. 
Although the MSY approach has been successful for some fisheries, 
management based on MSY can fall short in addressing ecosystem 
complexity and variability and in accounting for uncertainty in the 
estimates of reference points.
Uncertainty in Stock Assessments
    Because it is not possible to count every individual fish in a 
stock, scientists rely on a variety of sampling and statistical methods 
to estimate abundance. These estimates are used in models to project 
trends in future stock size. The accuracy of the population estimates 
and the projections depends on the quality and amount of data available 
and the ability of models to reproduce the primary determinants of the 
species' population growth. The frequency of stock assessments can vary 
widely, both within and among regions, from stocks that are assessed 
annually to stocks that have never been assessed. As more data are 
collected and new models and assessment methods become available, past 
estimates of the status of fish stocks can change substantially. For 
example, some stocks that were previously classified as overfished (and 
put under rebuilding plans) would not have been considered overfished 
based on the most recent assessments. The inverse may also have 
occurred, with overfished stocks misclassified as not overfished.
    Climate, environmental conditions, and ecosystem interactions can 
have significant effects on the rate at which a stock rebuilds. 
Although these factors affect the time it takes for a stock to rebuild, 
it is not currently possible to incorporate them into models to improve 
projections to a degree of accuracy that is useful for management.
Mixed Stock Fisheries
    Fish do not live in isolation--each stock is part of a community of 
species that live in the same waters. For example, when a fishing net 
is cast into the ocean, it can capture several different fish species. 
This is called a mixed-stock fishery.
    When one stock within a mixed-stock fishery is declared overfished, 
reductions in fishing required by the rebuilding plans affect all the 
stocks in the fishery, leading to a loss of yield and income. For 
example, juvenile red snapper in the Gulf of Mexico are incidentally 
caught during shrimp trawl fishing, driving the red snapper to 
overfished status. Devices were installed in shrimp nets to reduce 
bycatch, but were not sufficient to end overfishing. Subsequent 
rebuilding plans included a shrimp trawl fishing threshold, in addition 
to fishing limits for red snapper.
    The management of mixed-stock fisheries is a complex and 
contentious issue, but the problem will need to be addressed to allow 
more practical guidance on the balance of fisheries harvest across 
stocks, subject to assurances that the less productive species are not 
driven to unacceptably low abundance.
Alternative Management Strategies
    Current rebuilding plans rely on a prescriptive approach, which has 
had demonstrated successes in identifying and rebuilding some fish 
stocks. However, the plans' focus on achieving rebuilding targets 
within set timeframes forces reliance on forecasts and estimates of 
MSY-based reference points, which often carry a high level of 
uncertainty. Rebuilding plans that focus on meeting selected fishing 
mortality targets may be more effective than a plan with an exact time 
period for rebuilding. The report makes several suggestions for 
alternative management strategies for rebuilding fish stocks.
Gradual Reductions in Annual Catch
    Delaying reductions in annual catch until the stock biomass has 
declined to overfished status means that fishery managers must then 
make immediate and substantial decreases in fishing. Alternative 
management actions, such as harvest control rules that promptly but 
gradually reduce fishing as estimated stock size falls would result in 
a lower likelihood of a stock becoming overfished.
Fishing Mortality Reference Points
    Fishing mortality reference points seem to be more robust to 
uncertainty than biomass reference points, both in the context of 
rebuilding and more generally. Estimates of biomass are expected to 
change, and hopefully improve, as stocks rebuild--but predicting these 
changes is difficult as it requires predicting average future 
recruitment of juvenile fish to the adult population. In contrast, 
setting reference points based on fishing mortality requires 
comparatively less information.
Environmental Considerations
    Most fisheries select for the largest fish, and by doing so, reduce 
the average age of the fished population. A rebuilding strategy based 
on maintaining reduced fishing mortality for an extended period--longer 
than the mean generation time of the stock--would help restore the 
stock's age structure (i.e., increase the average age) and would be 
more robust to changing environmental conditions than strategies that 
require rebuilding to pre-specified biomass targets by a given time 
limit.
Setting Fishing Limits Below FMSY
    The Magnuson-Stevens Act specifies that stocks designated as 
overfished must rebuild within a maximum time period (usually 10 
years). This strategy means rebuilding usually occurs quickly once a 
stock is designated overfished. However, if rebuilding is slower on 
average than expected when the plan was adopted--for example, due to 
unfavorable environmental conditions that affect recruitment of 
juveniles--ever more severe controls on fishing must be applied to try 
to keep rebuilding ``on schedule''. These reductions in fishing can 
have significant economic and social impacts to the fishing industry 
and community. Maintaining fishing at some constant level below 
F<INF>MSY</INF> may help achieve rebuilding goals on a schedule that 
accommodates natural variability in stock productivity.
Data-Poor Stocks
    Analytical assessments are not available for many of the stocks 
classified as overfished because there are not enough data and 
information to build the required models and to estimate MSY reference 
points. Without these data, catch limits are difficult to establish. In 
these cases, empirical rebuilding strategies that rely on input 
controls to reduce fishing--for example, reductions in fishing 
operations, or closing fishing areas--may be more effective and 
defensible than strategies based on annual catch limits and biomass 
(B<INF>MSY</INF>) targets.
Socio-Economic Impacts of Rebuilding Plans
    It is clear that reducing fishing to meet rebuilding targets can 
have severe social and economic impacts on fishing communities and the 
fishing industry. However, socio-economic information is not readily 
available to evaluate the broader and long-term impacts of rebuilding 
plans. Retrospective reviews of the socio-economic impacts of 
rebuilding plans would help in refining rebuilding plans and 
objectives, thus improving the consequences of future plans.
    Thank you, Mr. Chairman, for inviting me to testify before the 
Committee today. I am happy to answer any questions you may have.
                                 ______
                                 
    The Chairman. And last and certainly not least, Mr. Richard 
Robins, you are recognized for 5 minutes.

        STATEMENT OF RICHARD B. ROBINS, JR., CHAIRMAN, 
            MID-ATLANTIC FISHERY MANAGEMENT COUNCIL

    Mr. Robins. Good morning, Mr. Chairman, Ranking Member 
DeFazio, and members of the Committee. I am Rick Robins, 
Chairman of the Mid-Atlantic Fishery Management Council. I 
appreciate the opportunity to testify before you today 
regarding the reauthorization of the Magnuson-Stevens Act. My 
testimony today will reflect my own experience in the Mid-
Atlantic, and I will also touch on concerns that have been 
identified by the other seven councils in the U.S.
    The Magnuson-Stevens Act laid the foundation for the U.S. 
to develop one of the strongest and most successful fishery 
management systems in the world. Consequently, any amendments 
to the Act should be limited in their scope. Historically, one 
of the greatest strengths of the system is that it does not 
require us to apply a one-size-fits-all management approach to 
our 446 federally managed stocks and stock complexes and allows 
councils to develop management solutions at a regional level.
    However, over time, amendments have rendered the Act 
increasingly prescriptive and focused more narrowly on 
biological accounting. While some of these changes have been 
necessary to end overfishing in certain fisheries, they have 
limited the ability of the councils to effectively manage data-
poor fisheries; they have resulted in a lack of stability in 
some fisheries; and they have limited our ability to balance 
important social and economic considerations in certain 
circumstances. Successful conservation and management of U.S. 
fisheries should not be defined exclusively in biological 
terms. Rather, the Act should enable the councils to manage 
fisheries for biological, ecological, social, and economic 
success.
    My testimony will focus on areas of the Act where adding 
targeted flexibility would enable more effective management of 
our Nation's fisheries and enhance their stability without 
compromising the integrity of our management system. Although 
my written testimony outlines a much broader range of issues, 
my oral comments today will focus on four issues that have 
relevance nationally, including stock rebuilding, ending 
overfishing, ACLs and AMs in data-poor fisheries, and ecosystem 
considerations.
    With respect to stock rebuilding, councils are charged with 
managing U.S. Fisheries for the greatest overall benefit of the 
Nation. This responsibility is not limited to data-rich stocks 
or stocks that are in great shape. It applies to every fishery 
we manage. Achieving this mandate while rebuilding stocks and 
designing an optimal rebuilding plan requires an effective 
evaluation of tradeoffs. The 10-year maximum rebuilding 
timeline often precludes any meaningful evaluation of tradeoffs 
during rebuilding and marginalizes social and economic 
considerations. Stocks that can be rebuilt in 10 years must be 
rebuilt within 10 years whereas stocks that can be rebuilt 
within 11 years have a maximum rebuilding timeline of 11 years 
plus one mean generation time. This is an inconsistent 
treatment of our fisheries, and this inconsistency can be 
resolved by replacing the 10-year timeline with a new TMAX of 
TMIN plus one generation time.
    Overfished stocks often do not become that way solely as a 
result of excessive fishing effort. Habitat modification, 
pollution, climate change, and other factors beyond the control 
of councils can contribute to stock depletion. The term 
``overfished'' should be replaced with depleted to reflect the 
fact that fishing effort is not the sole cause of stock 
depletion. Once a depleted stock is in a rebuilding plan, the 
council can control fishing mortality on that stock, but 
rebuilding can be affected by other factors that the council 
has very limited ability to either predict or control. The MSA 
and NS1 guidelines both should allow rebuilding dates and rates 
to be adjusted when environmental factors limit rebuilding. In 
some cases, councils have even been required to continue 
rebuilding stocks after a new assessment indicated that the 
stock was never overfished. The MSA should include clear 
criteria for superseding a rebuilding plan in a timely way 
under these circumstances.
    In terms of ending overfishing, the requirement to end 
overfishing immediately has destabilized some U.S. fisheries, 
red snapper being one example. Overfishing is a transient 
condition that can occur on both depleted and healthy stocks 
with different implications. The council should have the 
ability in certain circumstances to eliminate overfishing over 
a multiyear period through phased reduction fishing rates. This 
may be particularly important in situations where stock 
assessments change dramatically.
    Turning to ACLs and AMs and data-poor stocks, the new 
system of ACLs and AMs works very well in fisheries with 
adequate stock assessments. For some data-poor stocks, however, 
it has resulted in a loss of stability and a lack of confidence 
in the quota setting process. ACLs and AMs may not be the best 
tools for managing incidental or small-scale data-poor 
fisheries. In each situation councils should have the 
discretion to determine alternative control mechanisms for 
data-poor stocks.
    With respect to ecosystem considerations, we do need to 
strengthen our management of ecological aspects of our marine 
fisheries. The management of mixed species fisheries may not be 
optimized by applying single stock principles. Stocks in a 
complex vary in abundance over time, and it is unlikely that 
all will be at high abundances at the same time. Managing 
complexes or trophy guilds for system-level optimum yield would 
result in a better approach but may require changes to the 
mixed stock exception in those fisheries. More broadly, though, 
the ecological references and ecosystem considerations in the 
Act would benefit from additional clarity as they relate to the 
management of species interactions, foraged stocks, the 
importance of ecosystem structure and function, and the current 
definition of optimum yield.
    In conclusion, the next reauthorization should build on the 
past success of the Act by making minor improvements in order 
to position our fisheries for sustainable future in terms that 
extend beyond simply preventing overfishing. The Act should 
enable the councils to manage all of our fisheries for the 
greatest overall benefit of the Nation. I sincerely appreciate 
the opportunity to testify and look forward to your questions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much, Mr. Robins, 
for your testimony.
    [The prepared statement of Mr. Robins follows:]

            Statement of Richard B. Robins, Jr., Chairman, 
                Mid-Atlantic Fishery Management Council

    Chairman Hastings, ranking member DeFazio, and members of the 
Committee, thank you for the opportunity to testify before you today 
regarding the Reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act, MSA, or the 
Act). I am Richard B. Robins, Jr. and I serve as the Chairman of the 
Mid-Atlantic Fishery Management Council. The Mid-Atlantic Council has 
primary management authority for 12 species of fish and shellfish in 
federal waters off the coast of North Carolina through New York. In 
2014 I will also serve as the Chairman of the Council Coordination 
Committee (CCC), which comprises the Chairs, Vice-Chairs, and Executive 
Directors of the eight regional councils.
    I appreciate the opportunity to testify before the Committee on 
Natural Resources about the regional councils' perspectives on the 
reauthorization of the MSA. My testimony will reflect my own experience 
in the Mid-Atlantic region. I will also summarize several common themes 
of the concerns that have been identified by the other U.S. regional 
fishery management councils. While these concerns do not represent 
formal positions from the councils, they are relevant to your 
Committee's ongoing reauthorization work. The individual councils and 
the CCC look forward to continued discussions and opportunities to 
provide input into the reauthorization process in the months ahead.
    The United States has one of the strongest federal fishery 
management systems in the world. The Magnuson-Stevens Fishery 
Conservation and Management Act established a framework for sustainable 
fishery management which has contributed to the rebuilding of many 
depleted U.S. fisheries. The underlying goal of the Act is to conserve 
and manage U.S. fisheries for the greatest overall benefit of the 
nation. This same goal is central to the oath of office that every 
appointed Council member takes at the beginning of their term.
    As we reflect on the experience of the 2006 reauthorization and 
look forward to this reauthorization, I think it is important to ensure 
that the Act and its requirements will position the regional fishery 
management councils (RFMCs or councils) to manage fisheries for the 
greatest overall benefit of the nation, across the full spectrum of 
stock assessment characteristics, stock conditions, and dynamic 
environmental conditions.
    One of the greatest strengths of our fishery management system is 
that it does not require us to apply a one-size-fits-all management 
approach to our 446 federally managed stocks and stock complexes. 
Instead, the Act delegates a portion of decision-making authority to 
the individuals on councils who are most familiar with each region's 
fisheries. As such, this allows management plans to be tailored to the 
specific characteristics of each fishery. However, over the past year 
in discussions about reauthorization of the MSA, it has become apparent 
that the councils' need more flexibility to make the decisions that are 
best for each fishery.
    The next reauthorization should build on the past success of the 
Act in order to position our fisheries for a sustainable future in 
terms that extend beyond simply preventing overfishing. Successful 
conservation and management of U.S. fisheries should not be defined 
exclusively in biological terms; rather, the Act should enable the 
councils to manage fisheries for biological, ecological, social, and 
economic success. Changes should be undertaken very carefully and 
should not compromise the integrity or ambition of the U.S. fishery 
management standards. My testimony today will outline several critical 
areas where small, targeted changes in the Act can have a major impact 
without jeopardizing the sustainability of our nation's fisheries.
Rebuilding Requirements
Rebuilding Timeframes
Provide the councils flexibility to consider a range of rebuilding 
        plans and timeframes.
    The councils recognize that a short rebuilding time period may be 
desirable because healthy stocks provide higher catch levels than 
stocks that are overfished, thus providing greater long-term socio-
economic benefits. However, there are always tradeoffs between 
biological, social, and economic outcomes, and the councils need 
flexibility to evaluate the tradeoffs associated with a wider range of 
timelines. Rebuilding requirements could be made more flexible by 
allowing councils to rebuild stocks to their biomass targets as quickly 
as practicable and in a manner that protects an overfished stock from 
further decline. This would allow the councils to tailor each 
rebuilding plan to the life history of the stock, the socioeconomic 
characteristics of the fishery, and the statistical characteristics of 
the data used to inform management decisions.
Replace the 10-year rebuilding target with biologically-derived maximum 
        rebuilding times for all species.
    The current 10-year rebuilding timeframe results in inconsistent 
management approaches depending on the life history of the stock. For 
example, a stock that is expected to rebuild in slightly less than 10 
years in the absence of fishing mortality could require much more 
restrictive management than a stock that is expected to rebuild in 
slightly more than ten years. This results from the fact that the 
maximum rebuilding timeframe (T<INF>MAX</INF>) for a stock that cannot 
be rebuilt within 10 years is the minimum time that it would take to 
rebuild the stock in the absence of fishing plus one mean generation 
time.
    In the Mid-Atlantic, the rebuilding plan for the spiny dogfish 
fishery fell within the 10-year rebuilding timeframe. As a result, the 
fishery, which was landing over 60 million pounds annually in the mid-
1990's, changed abruptly to an ``exit-fishery'' mode for one year 
before a 600-pound trip limit was implemented in the fishery. This 
effectively eliminated directed fishing in federal waters.
    In some cases, including spiny dogfish, the requirement to rebuild 
stocks within a fixed 10-year time frame precludes the councils from 
effectively considering social, economic, and ecological tradeoffs. As 
a result, some of our rebuilding successes have been successful in 
biological terms but have resulted in Pyrrhic victories that have come 
at unnecessarily high short-term and cumulative costs to our fishing 
communities. Amending the Act to replace the arbitrary 10-year 
rebuilding requirement with a biologically derived metric for 
T<INF>MAX</INF> (e.g., T<INF>MIN</INF> plus one mean generation time) 
would result in more consistent management for all fisheries and would 
give the councils flexibility to minimize the adverse economic impacts 
of rebuilding.
Address inherent uncertainties related to environmental, ecological, 
        and anthropogenic factors and other conditions that can affect 
        a fishery's rebuilding progress.
    Overfished stocks, as defined by the current Act, often do not 
become that way solely as a result of excessive fishing effort. 
Environmental factors and changing stock assessment methodology can 
also play a significant role in the status determination of a fishery. 
The Act should be amended to use the term ``depleted'' instead of 
``overfished'' to reflect the fact that a fishery's status is typically 
influenced by multiple factors.
    Rebuilding requirements should also accommodate variability in 
environmental conditions once a stock is being managed under a 
rebuilding plan. The councils have limited ability to predict, and no 
ability to control, many of the factors other than fishing mortality 
that affect the rebuilding process. For example, Pribilof blue king 
crab, managed by the North Pacific Fishery Management Council, has 
failed to rebuild even in the absence of fishing pressure. The Act 
should be amended to allow the councils to manage contingencies when 
stock rebuilding is precluded by environmental factors.
    As a result of these uncertainties, the New England Council has 
recommended focusing on ending overfishing and controlling fishing 
mortality during stock rebuilding, rather than focusing on fixed 
rebuilding timelines.
Include clear guidance for responding to changes in stock status 
        associated with updated stock assessments.
    The Act requires that management decisions be based on the best 
available data. In some instances, such as Widow rockfish, managed by 
the Pacific Fishery Management Council, the councils have been required 
to continue rebuilding to a biomass target after new stock assessments 
indicate that the stock was never overfished. Rebuilding plans should 
not be this inflexible, and councils should be able to set Annual Catch 
Limits (ACLs) derived from their Scientific and Statistical Committee's 
(SSC) catch recommendations based on current stock assessment results.
Economic Impacts of Rebuilding
Prioritize the minimization of adverse economic impacts in the 
        development of rebuilding plans.
    It is difficult to separate economic impacts due to poor stock 
conditions in some regions from the impacts of statutory requirements, 
but it is apparent that rebuilding a depleted fishery can have severe 
and long-lasting adverse impacts on fishing communities. By nature of 
reducing total catch, all rebuilding plans contribute to negative 
short-term economic impacts. However, the councils are optimally 
positioned to develop strategies that will mitigate some of the social 
and economic consequences of rebuilding without jeopardizing the 
ability of a stock to rebuild to its biomass target.
Rebuilding Data-Poor Stocks
Provide distinct provisions for rebuilding data-poor stocks.
    Despite ongoing efforts to improve stock assessments and catch 
estimates, data-poor stocks continue to pose a range of challenges for 
the councils. Congress strengthened the Act by placing a greater 
emphasis on science-based decision-making through the 1996 and 2006 
amendments, but for some of our fisheries, councils simply do not have 
the information necessary to support this process. This becomes 
particularly clear when rebuilding data-poor fisheries. Given the 
highly uncertain nature of these fisheries, it does not make sense to 
use the same set of requirements for data-poor and data-rich species. 
Stock rebuilding targets and schedules for data-poor species may imply 
a level of assessment certainty that does not exist. The Act should be 
amended to include clearer guidance on the determination of an 
overfished or depleted status for a data-poor stock and on the 
development of a rebuilding plan for that stock.
Other Issues
Mixed-Species Fisheries
Include distinct provisions for managing and rebuilding multi-species 
        complexes.
    Single-species moratoria are impractical, unrealistic and result in 
unnecessary impacts on healthy stocks in a multi-species complex. 
Implementing measures to immediately end overfishing on a single 
component stock of a complex may unnecessarily adversely impact other 
species in the complex. South Atlantic red snapper and Southern New 
England/Mid-Atlantic winter flounder are examples of fisheries that 
were closed due to the single-species rebuilding requirements of the 
Act, despite the fact that these species are components in mixed stocks 
and fisheries. In the South Atlantic region, moratoria on 4 stocks have 
precluded new assessments on those stocks because the harvest moratoria 
eliminated the only available data source for those species.
    Mixed-species fisheries cannot be adequately managed by applying 
single-stock principles. Stocks in a complex will vary in abundance 
over time, and it is unlikely that all will be at high abundances at 
the same time. Rather than expecting all stocks in a multi-species 
complex to be at Maximum Sustainable Yield (MSY) levels simultaneously, 
a desirable fishery yield should be specified for an overall complex 
allowing individual stocks more normal variability.
ACLs/AMs and Overfishing Determinations
    Annual Catch Limits (ACLs) and Accountability Measures (AMs) have 
the potential to be powerfully effective management tools, but their 
utility depends on the quality of the data used to assess stock size 
and set appropriate catch limits.
Allow ACL/AM exemptions for a broader range of fisheries.
    Many fisheries are appropriately managed with ACLs (quotas) but 
there are instances when ACLs are not the optimal management strategy 
and there are no clear benefits achieved by establishing them. A first 
step in this direction would be for Congress to maintain the overall 
language for ACLs but to give the councils limited discretion to apply 
ACLs where practicable.
    Councils should have the ability to decide when implementing ACLs 
for data poor stocks may not be appropriate based on current management 
and monitoring programs. For example, ACLs may not be the best 
management strategy for small-scale, subsistence fisheries in the 
Western Pacific region. Another difficulty with the ACL requirements is 
that many species are considered incidental or rarely encountered 
components of actively managed target species. For large multi-species 
targeted fisheries, the mandate to establish ACLs for incidental 
species can lead to closures that cause unnecessary economic losses 
relative to the harvest of the targeted species and result in minimal 
biological gain for either the targeted or incidental species. In other 
instances, it may be very important to control incidental fishing 
mortality on a stock in a mixed fishery and the councils should have 
the ability to distinguish between and among these situations in order 
to achieve their management objectives.
Extend the timeline for ending overfishing in non-overfished stocks.
    Overfishing should be managed as a transient condition (i.e., a 
rate) that can occur on both overfished stocks and stocks that are not 
overfished. Temporary or short-term overfishing on a non-overfished 
stock, which can often be corrected in a relatively short period of 
time, does not jeopardize the long-term ability of a stock to achieve 
MSY or Optimum Yield (OY) on a continuing basis. By comparison, an 
overfished stock is the result of years of overfishing or environmental 
changes that can typically only be corrected over a longer time period.
    The current requirement to end overfishing immediately, regardless 
of whether the fishery is actually overfished, has likely caused undue 
and severe economic impacts in U.S. fisheries. Providing for a multi-
year reduction in fishing rates to eliminate transient overfishing 
conditions, particularly in cases where the stock is healthy, would 
enhance regulatory stability.
For long-lived species, consider basing the overfishing limit on 
        recruitment overfishing instead of MSY.
    In the context of rebuilding long lived species, such as South 
Atlantic red snapper, some councils have suggested that recruitment 
overfishing and growth overfishing pose different risks to the long-
term health of the stock and should be treated differently. In cases 
such as South Atlantic Red snapper, some transient growth overfishing 
could be tolerated during stock rebuilding without jeopardizing the 
stock's ability to recover. As a result, the South Atlantic has 
suggested that the limit of exploitation (the OFL) should be based on 
recruitment overfishing rather than MSY for this species. Basing OFL on 
recruitment overfishing could provide a more meaningful standard if 
overfishing must be eliminated immediately. The fishing public can 
understand the need to fish at or below a rate that allows a population 
to replace itself. However, problems occur when their fisheries are 
forced to endure the very low exploitation rates that are often 
necessary to achieve MSY on a long-lived, slow growing stock.
Include provisions which allow councils to end overfishing over a 
        multi-year period to avoid severe social and economic impacts.
    The requirement of the Act to end overfishing immediately has 
destabilized some U.S. fisheries. The Red snapper fishery and New 
England groundfish are examples of fisheries that have been 
dramatically impacted by this requirement. Quotas must ultimately be 
aligned with stock assessments, so some adverse outcomes are 
unavoidable in certain fisheries that may have experienced chronic 
overfishing and overcapacity. However, specific flexibility to 
eliminate overfishing under certain circumstances over a multi-year 
period would allow the councils to substantially mitigate short-term 
social and economic dislocation in our managed fisheries. Examples of 
stocks that were rebuilt prior under these types of approaches prior to 
the 2006 reauthorization include King mackerel and Spanish mackerel in 
the South Atlantic, which were rebuilt within a generation time and 
still allowed a viable fishery to operate.
Include specific provisions for setting ACLs or AMs for data-poor 
        stocks.
    The new system of ACLs and AMs has worked well in fisheries that 
have moderate to high levels of data and stock assessments upon which 
to establish an appropriate ACL, but such a prescriptive approach of 
often challenging in data-poor fisheries. These fisheries often lack 
the catch data or life history information (e.g., age and growth, size 
at reproductive maturity, and reproductive potential) that are needed 
to manage effectively with ACLs and AMs. Octopus in the North Pacific, 
black sea bass in the Mid-Atlantic, and reef fish in the Caribbean are 
examples of data-poor stocks that have been difficult to manage under 
the new ACL requirements. The councils need some limited flexibility to 
more effectively manage small scale, incidental, or data-poor fisheries 
that may be managed more effectively using management tools other than 
ACLs and AMs. Councils should have more discretion in setting ACLs for 
data-poor stocks. This discretion could be established by making the 
SSC catch advice on data-poor stocks advisory rather than binding, if 
certain conditions are met.
Include provisions for addressing dramatic changes in the perception of 
        stock status.
    The requirement to end overfishing immediately would benefit from a 
narrowly-defined exception when there is a dramatic change in the 
perception of stock status. Gulf of Maine Cod is the most recent 
example of a fishery that was dramatically impacted by the results of a 
new stock assessment. Changes to the Act or to the National Standard 1 
guidelines could provide for a tempered management response in cases 
where there is both a significant change in the perceived status of a 
stock as well as considerable uncertainty in the assessment.
Consider ACL/AM provisions for transboundary stocks that are not 
        subject to international treaties or transboundary resource 
        sharing agreements.
    In cases where a transboundary stock is not subject to an 
international resource sharing agreement, such as Atlantic mackerel, 
U.S. fisheries may be disadvantaged by the ACL/AM requirements. In the 
mackerel example, the Mid-Atlantic Council is required to account for 
projected Canadian catch when it sets the U.S. ACL. If the anticipated 
Canadian catch approaches the overall Acceptable Biological Catch (ABC) 
for the stock, the U.S. fishery could be closed. Unfortunately, there 
is little incentive for other nations to enter into our more 
restrictive management framework, and U.S. councils should have more 
flexibility in these situations when setting ACLs in U.S. waters.
Fishery Data and Funding
Ensure that science-based requirements of the Act are adequately 
        funded.
    The 2006 ACL requirements have increased the demand for assessment 
products from the regional science centers. As previously described, 
the effectiveness of the regional councils is integrally linked with 
the availability of quality fishery data at adequate frequencies. In 
particular, additional scientific resources are needed to bring data-
poor stocks up to an adequate assessment level.
Expand cooperative research programs and establish dedicated sources of 
        long-term funding.
    Cooperative research programs provide a means to improve the 
accuracy of stock assessments while engaging stakeholders in the 
research process. Despite the importance of these programs, many of 
them face inadequate or uncertain funding from year to year. The Mid-
Atlantic Council has funded the Northeast Area Monitoring and 
Assessment Program (NEAMAP) through its Research Set-Aside (RSA) 
program for the past 6 years, but the allocation of these funds solely 
to NEAMAP prevents us from funding other projects that address our 
annual research priorities. NEAMAP has become a core monitoring program 
in the Mid-Atlantic and its funding should be secured through the next 
reauthorization, using Saltonstall-Kennedy funds or other dedicated 
funding sources to ensure its future. The reauthorization should 
include provisions for funding of cooperative research programs around 
the country.
Include explicit authority for the funding of monitoring and observer 
        programs.
    The councils depend on having effective monitoring and reporting 
systems in place to help inform catch and bycatch estimates and to 
detect potential problems in a fishery as early as possible. Not only 
do these programs require adequate funding to operate, but they require 
consistent funding from one year to the next. Given the critical nature 
of these programs, an amendment to the Act should include specific 
provisions securing long-term funding for necessary monitoring and 
reporting programs. Amendment 5 to the New England Fishery Management 
Council's herring management plan included innovative cost-sharing 
mechanisms to support observer coverage that were disapproved by NMFS. 
Councils should have a broader range of options for funding observer 
coverage to ensure that U.S. fisheries are adequately monitored, 
including fisheries that are not managed under Limited Access Privilege 
Programs (LAPPs). The reauthorization should include cost-sharing 
options for observer coverage.
Ensure that all mandates are sufficiently funded.
    Congress should avoid adding any new unfunded mandates and should 
ensure that appropriate funds are available for the councils to meet 
the existing requirements of the Act. Continued investment in stock 
assessment capacity is of paramount concern in this reauthorization 
process.
Social and Economic Stability
Allow the councils greater flexibility to consider social and economic 
        factors in the development of management measures.
    Although the councils have always incorporated socioeconomic 
information into their decision-making processes, the use of such 
information has been limited largely to describing the likely impacts 
of potentially restrictive management measures on revenues or 
participation, rather than being used to improve participants' 
socioeconomic well-being. The Act should be amended to include specific 
social and economic objectives that would encourage proactive analysis 
of socioeconomic impacts.
Establish and fund a national seafood certification for U.S. fisheries 
        managed under MSA.
    The U.S. has one of the strongest fishery management programs in 
the world, and several councils have voted to support establishing a 
U.S. fisheries sustainability certification in the next reauthorization 
This issue deserves to be addressed--U.S. fishermen fishing under 
today's Magnuson Act should be standing tall among their international 
peers. In a market transformed by globalization, the sustainability of 
U.S. fisheries needs to be affirmed, and U.S. fishermen and processors 
should be able to identify and label their products as fish that were 
harvested responsibly and sustainably under the gold standards of the 
Magnuson-Stevens Act. A public affirmation of the core strengths of the 
U.S. management system would be an important step to facilitate 
education, awareness, and marketing for the benefit of U.S. fisheries.
Data Confidentiality
Revise data confidentiality requirements to facilitate informed 
        decision making.
    Several councils have experienced significant problems associated 
with the issue of data confidentiality. In some cases in the South 
Atlantic, it is preventing the Council from being able to conduct 
accurate stock assessments. In other case, it prevents councils from 
making informed management decisions. Mid-Atlantic tilefish allocations 
were made without the benefit of knowing what the allocations would be 
within each tier due to the confidentiality provisions, and New England 
has encountered similar obstacles. In some cases, such as the Mid-
Atlantic's effort to protect deep-sea corals, the best available 
information is coming directly from fishermen, and the councils should 
be able to use this voluntarily supplied data as long as it is 
presented without direct attribution to individuals.
Referendum Requirements
Clarify referendum requirements.
    The Gulf Council indicates that Section 407 would benefit from 
revisions to streamline and clarify the referendum requirements for Red 
snapper Individual Fishery Quota (IFQ) program and provide a consistent 
set of requirements for referenda across Gulf of Mexico IFQ programs.
Safety at Sea
Allow the U.S. Coast Guard to access data from Vessel Monitoring 
        Systems (VMS) for search and rescue efforts.
    Section 402(b)(1)(H) states that fisheries information submitted to 
the Secretary can only be shared with the Coast Guard in support of 
fisheries enforcement and homeland and national security missions. 
Safety at sea is a concern of great national importance and the Act 
should be amended to allow the U.S. Coast Guard to access VMS data for 
search and rescue efforts.
Governance and Representation
Allow Council liaisons in the Northeast Region to vote and make 
        motions.
    It was clear from our Council's port meetings in southern New 
England that fishermen in those states desire some form of 
representation on the Mid-Atlantic Council. Similarly, the Mid-Atlantic 
lands over $200 million of sea scallops annually, and our 
representation is limited to participation on the New England Scallop 
Oversight Committee.
    This issue is expected to be exacerbated by ongoing and substantial 
shifts in fisheries populations in response to changing ocean 
temperatures. I submit that vesting the liaisons of both councils with 
motion-making and voting rights in this reauthorization would resolve 
this issue in the interest of both councils.
Recreational and Subsistence Fisheries Management
Revise ACL/AM requirements to accommodate catch estimate uncertainty in 
        recreational fisheries.
    The 2006 reauthorization required ACLs and AMs for commercial and 
recreational fisheries. The implementation of recreational AMs, 
including paybacks for overages, has been difficult in some regions. 
The Mid-Atlantic Council recently completed an Omnibus Amendment that 
involved a comprehensive review and overhaul of our recreational AMs. 
Our recommendations were designed to enhance stability of recreational 
fisheries by improving alignment of our management strategies with the 
statistical characteristics of the recreational catch estimates. 
Councils should not be required to manage their recreational fisheries 
beyond the limitations of their available catch data, and the Act 
should support recreational AMs that are reasonable relative to the 
data.
Add explicit definitions of recreational and subsistence fisheries.
    The Western Pacific Fishery Management Council recently endorsed 
the following definitions recommended by its SSC:
    Recreational fishing--Fishing undertaken for sport and pleasure, in 
which the fish harvested, in whole or in part, do not enter commerce or 
enter commerce through sale or barter or trade.
    Subsistence fishing--Fishing undertaken by members of a fishing 
community in waters customarily fished by that community in which fish 
harvested are used for the purposes of direct consumption or 
distribution in the community through sharing in ways that contribute 
to food security and cultural sustainability of the fishing community. 
For this purpose, the term ``sharing in the community'' shall be 
defined regionally by the RFMCs.
State Waters' Catch
Promote consistency in the management of interjurisdictional fisheries.
    Managing state waters' catch poses unique challenges around the 
country under the new ACL requirements. In the Mid-Atlantic region, 
most fisheries that have significant state waters' catch components are 
managed jointly with the ASMFC. The challenge in these plans is the 
fact that the enabling legislation for the ASMFC, the Atlantic Coastal 
Fisheries Conservation and Management Act, does not have the same 
requirements, standards, or provisions for review. However, in recent 
years, the ASMFC and the Mid-Atlantic Council have been able to reach 
consensus on quotas and associated management measures through our 
joint meetings.
    Similar challenges exist in other regions, and the councils should 
not be forced to disadvantage their federal fisheries if management in 
state waters results in an ACL overage. Effective state involvement is 
essential to successful interjurisdictional management, and resources 
should be made available to the councils and the states to achieve 
coordinated management outcomes.
Ecosystem-Based Fishery Management
Address possible conflicts between requirements of the MSA and the 
        implementation of ecosystem-based management.
    The Mid-Atlantic Council has taken several significant steps toward 
a more ecosystem-based approach to fisheries management since the last 
reauthorization. Our Council is pursuing an incremental, evolutionary 
strategy to incorporate species interactions, environmental conditions, 
and habitat associations into our management decisions. The process 
should ultimately enhance the ecological sustainability of our managed 
fisheries, but it may be necessary to fish some species at levels above 
MSY and other species well below MSY in order to achieve ecosystem 
level objectives. The act should be clear on these issues and the 
ecological objectives in the Act as they relate to the definition of 
OY.
    I sincerely appreciate the opportunity to testify before your 
committee, and I look forward to your questions.
                                 ______
                                 
    The Chairman. As a programming note, we are going to have a 
ceremony at 11 a.m., which is a half hour from now. It is not 4 
p.m. as that clock says back there. I don't know what happened, 
so we anticipate with the number of Members here, we will 
probably go through the questioning period of this panel and 
probably, depending on the time, will probably break right 
after that, so just to keep Members apprised.
    I will recognize myself, and I just have a couple 
questions, and it is a question to all of you. In all of your 
testimony, you somewhat alluded to this, but I just want to ask 
this question for the record. We will start with you, Dr. 
Sullivan, and go down the line.
    Do you believe that the current Magnuson-Stevens Act works? 
Yes or no?
    Dr. Sullivan. Yes, I think it is doing a good job.
    The Chairman. Mr. Rauch?
    Mr. Rauch. Yes, I think the economic numbers represented 
indicate that it is working nationally.
    The Chairman. OK. Mr. Robins?
    Mr. Robins. Yes, sir, I think it is the strongest system in 
the world, and I think it can be improved.
    The Chairman. I thought you said that in your opening 
comments, so I just wanted to reiterate here.
    Another question. Do you support, then, a change in the 
Magnuson-Stevens Act to allow councils more flexibility in 
rebuilding overfished fisheries or ``overdepleted.'' Might be a 
pretty good word?
    Again, Dr. Sullivan, we will start with you.
    Dr. Sullivan. If the flexibility is strategic, yes.
    The Chairman. You say it is a key part?
    Dr. Sullivan. If it is strategic.
    The Chairman. If it is strategic, OK. Yes. Mr. Rauch?
    Mr. Rauch. The Administration has not taken a position on 
whether or not the Act should be changed. We are looking 
through our own regulatory processes to see if we can use the 
regulations to increase some of the flexibility inherent in the 
Act, and we are certainly open to discussing the issue about 
whether tests should be changed with this Committee, but we 
have not taken a formal position yet.
    The Chairman. Mr. Robins?
    Mr. Robins. Yes, sir, I think the discontinuity at the 10-
year mark in the rebuilding requirements need to be resolved. I 
think some very carefully targeted flexibility would facilitate 
better decision making and a better and more full evaluation of 
social and economic tradeoff associated with different 
rebuilding options.
    The Chairman. This kind of follows on that question. Then I 
will just ask Dr. Sullivan and Mr. Robins. Would both of you 
believe that you can make some modifications without, in your 
mind, jeopardizing what the success of the Magnuson-Stevens Act 
has been? You believe that we can make those modifications? We 
will start with you, Dr. Sullivan.
    Dr. Sullivan. Yes, I would say so. In fact, in our report, 
I think we outline some things that are easy to do and then 
there are some other things a little bit harder to do that 
would take longer term.
    The Chairman. OK, Mr. Robins?
    Mr. Robins. Yes, I believe they could, and in my opinion, 
you don't want to take the ambition out of the Act. I mean, I 
don't think we should set aside stock rebuilding as an 
objective. On the contrary, it should remain an objective, but 
the way we go about it I think should more fully incorporate 
the evaluation of the social, economic, ecological, biological 
aspects in the decisionmaking process, and I think some degree 
of flexibility is needed to better incorporate those things.
    The Chairman. And the last question that I want to have 
again for the record, and I mentioned this in my opening 
statement about the--I won't say controversy or discussion 
about the rebuilding stocks. Do you believe that we should make 
modifications in the rebuilding provisions within the Act? Dr. 
Sullivan?
    Dr. Sullivan. Yes, I think we should. I think the focus on 
fishing mortality as opposed to biomass is a key one.
    The Chairman. OK.
    Mr. Rauch?
    Mr. Rauch. We have not taken a position on that, but I do 
believe that as we said there are a number of regulatory 
changes that may be useful to take, and we would certainly 
welcome that discussion about whether or not the statute should 
be amended.
    The Chairman. Mr. Robins?
    Mr. Robins. Yes, I believe the maximum timeline could be 
modified, and I think that change is fairly evident as an 
opportunity. What is less clear I think is what sort of control 
rules you might put in place during stock rebuilding if you are 
going to focus more on the rebuilding rates rather than the 
targets. I think at the outset of a rebuilding plan you still 
have to have targets for the stock size, but it seems that 
there could be more flexibility to deal with environmental 
contingencies and the biological characteristics of the stock 
as you go forward. Where we have had a lot of problems has been 
when you are 5 or 6 years into a plan and suddenly the 
performance departs from what was projected, and then you have 
to crank down or ratchet down fishing mortality. I think there 
ought to be more opportunity as environmental conditions change 
or in response to the biological forms of the stock to 
reevaluate the fishing rates and the schedule by which you are 
rebuilding the stock.
    The Chairman. Dr. Sullivan, just to follow up, I think you, 
when I asked you about the flexibility in the rebuilding, you 
said strategically as part of your response, just elaborate on 
that for a moment if you would.
    Dr. Sullivan. Yes, I wouldn't throw the baby out with the 
bath water. I mean, I think there is a lot of good things in 
the plan, and I think the report suggests a couple different 
things that might be adjusted, so focusing on rates rather than 
on biomass I think is an important one, and I think a lot of 
those things might allow one to avoid the problems. Ten-year 
plan may be some issues associated with that. I think there 
could be some minor adjustments that could be helpful there.
    The Chairman. OK. If you want to add more to that or if 
that is part of your report, then obviously, we will have that 
as part of the record. Thank you very much.
    I recognize the distinguished Ranking Member, Mr. DeFazio.
    Mr. DeFazio. At this point, Mr. Chairman, I would yield to 
Mr. Pallone.
    The Chairman. I will recognize Mr. Pallone then.
    Mr. Pallone. Thank you, Mr. Chairman.
    I have a question initially for Dr. Sullivan. As many on 
this Committee know, since the 2006 amendments to the Magnuson-
Stevens Act were adopted, I have been advocating for 
flexibility to be incorporated into the Act, and I have called 
the 10-year rebuilding timeframe too rigid and arbitrary.
    So, Dr. Sullivan, your report states, and I quote, that the 
requirement to rebuild within 10 years if biologically possible 
eliminates certain management options from consideration that 
could lead to greater social and economic benefits while still 
supporting stock recovery in the long run.
    So I just had two questions. First, could you explain what 
the report means when it says ``if biologically possible'' and 
then also if you could describe to what extent you found that 
the current rebuilding timeframe, if at all, allows fisheries 
managers to adjust if it becomes clear that a stock cannot be 
rebuilt in 10 years or if rebuilding in that timeframe means 
severe social and economic damage to coastal communities?
    Dr. Sullivan. I will give that a try. It is quite a 
question. So in terms of biological, obviously, there are other 
constraints besides fishing on whether stocks can recover, so 
climate is one and recruitment and so forth are another. So, 
even though we might do all in our capacity to, let's say, 
reduce fishing or do other kinds of ameliorating actions, it 
may still not be biologically possible for the stock to 
recover.
    Your second question was----
    Mr. Pallone. Well, basically if you describe to what extent 
you found that the current rebuilding timeframe, if at all, 
allows fisheries managers to adjust if it becomes clear that a 
stock can't be rebuilt in 10 years or if rebuilding in that 
timeframe means severe social and economic damage to coastal 
communities.
    Dr. Sullivan. Right. So, currently there are some 
provisions that allow that, which is good. Part of the things 
that we outline in the report suggest that there may be ways to 
avoid having to do rebuilding altogether if we can. Not in all 
circumstances, and certainly if we can reduce fishing rates to 
a point where we avoid having to do a rebuilding plan, that is 
really good. Certainly some areas of the country are doing that 
already; other areas not so much. And what happens is when you 
kick into the rebuilding phase, suddenly, really draconian 
actions need to take place.
    More broadly, in terms of economics, currently the plan is 
focused on biology, which I think is probably a good thing, but 
there are some economic options that could be looked at to give 
alternative mechanisms for allowing rebuilding other than, 
let's say, a fixed schedule. So that is where that comes in.
    Mr. Pallone. All right, thank you so much. Let me ask Rick 
Robins, as the Chairman of the Mid-Atlantic Council, do you 
agree with the NRC report's findings that the 10-year timeframe 
eliminates your ability to pursue management measures that will 
support the health and rebuilding of stocks while also leading 
to greater social and economic benefits? And then I guess if 
Congress were to add--well, why don't you answer that and then 
I will go to the flexibility issue.
    Mr. Robins. Thank you. I believe it does limit our ability 
to consider an adequate range of options. If we have a stock, 
for example, that can be rebuilt within 9 years, there is 
really no contrast among the options there, and so eliminating 
that I think would allow for maybe a broader consideration of 
those other factors, and then again there is a discontinuity of 
the 10-year mark that is highlighted by the report. I think 
that can be fairly easily resolved.
    Mr. Pallone. OK. So if Congress were to add flexibility 
into the law, which is obviously what I advocate, are there 
problems created by the 10-year rebuilding requirement that you 
would be better equipped to address?
    Mr. Robins. I think the 10-year rebuilding requirement 
should be superseded by a better set of metrics. So we had 
discussed this before, I think, through the Managing Our 
Nation's Fisheries discussion, and that is also referenced in 
the report, but the idea of changing the maximum rebuilding 
timeline to what is essentially the minimum rebuilding timeline 
plus a mean generation would at least better consider the 
biological characteristics than what we have now.
    Mr. Pallone. OK, thanks so much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    I recognize the gentleman from Louisiana, Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    In listening to your testimony today from the panel, I hear 
a consensus that the Magnuson-Stevens Act is good, it is 
working, but that it tends to be a bit too centralized, maybe 
too calcified, lacks some of the more dynamic parameters 
necessary for measurement and maybe upon which to take action, 
and certainly that is illustrated by a question I am going to 
ask here.
    Fishermen in the Gulf are getting whiplash from all of the 
changes in stocks and seasons. The latest we hear is that NOAA 
is approving a 14-day fall season for recreational fishermen. 
This is certainly welcome, but it goes back to two basic 
questions: How many fish are out there, and how many are being 
caught? NOAA has been consistently failing to answer those 
questions. Earlier this year, NOAA revised their quota from 8.5 
million pounds to 13 million pounds. Now, NOAA is claiming that 
recreational fishermen have exceeded their quota significantly, 
all thanks to the estimates provided by NOAA's new model.
    So, Mr. Rauch, management of gulf and red snapper this year 
has been a disaster for all Gulf States, with each State having 
different needs and fishing patterns. Do you have a plan that 
would properly manage recreational fishing of red snapper in 
the Gulf of Mexico?
    Mr. Rauch. Thank you for the question. I think the answer 
to that question is as complex as the question. The Gulf 
Council is currently working on a plan that would support 
regional management, which would allow the States a degree of 
flexibility within an overall Federal construct to meet their 
individual State needs, and we are very supportive of that plan 
being developed. The Gulf Council is scheduled to discuss this 
in October, and if they take final action in October, it is 
possible we could put such a plan into place for next year. I 
completely agree with the opening premise that the fishery is 
being hampered by a lack of stability. We collectively need to 
find a way to provide, at least on the recreational side, 
better certainty as to the seasons and the catch so that we are 
not constantly in a position where the fishermen don't know how 
many days they are going to fish or when they are going to 
fish. Particularly with the charter fishery, you need advance 
notice so you can plan and advocate your trip. So I think that 
we all believe in the same goal.
    Dr. Fleming. And if I could add to that, when you talk to 
the charter fishermen, you are talking about as much as 6- or 
12-month advance notice in terms of booking hotels. I mean, 
this of course is a seasonal annual type of business, and you 
can't go by a 2-week notice or a 1-month notice. You may open 
it up, but you have no customers to go out there for 
recreational fishing. So we definitely need transparency, 
continuity, and plenty of advance notice.
    Mr. Rauch. I agree, and that is our shared goal. I think 
the States also have that goal. We need to get a more stable 
management regime in place. I am very hopeful that the council 
will take final action on this regional plan.
    Dr. Fleming. Well, let me ask you this question because I 
am going to run out of time. If you would describe how NOAA 
goes about measuring the stocks in the landings.
    Mr. Rauch. So the way that we measure the stocks for red 
snapper in general is we work with the States to come up with 
an assessment technology both in terms of sampling design and 
in terms of how you deal with the answer. So it is a 
collaborative effort. On the recreational side, the biggest 
issue here has been on the recreational side, estimating the 
recreational catch. We have had a lot of difficulty doing that. 
Recreational catch is much harder to estimate than commercial 
catch. Congress in its last reauthorization required us to 
revise the way that we did that. We are in the process of doing 
so. That continues to be a work in progress as we continue to 
discover biases that were inherent in the prior old sampling 
regime.
    Dr. Fleming. So are you open, then, to some of the 
suggestions here today that we go after other approaches or 
additional parameters and more flexibility on a regional basis?
    Mr. Rauch. I think we are certainly open to more 
flexibility in the interest of trying to provide a stable 
fishing opportunity. We have focused on overfishing for a long 
time. Now that overfishing is largely solved, we need to start 
focusing on getting the economic opportunity, the economic 
development out of that, and there is a lot of ways to do that, 
and I am happy to work on ways, whether that is more 
flexibility, more data collection, any of those opportunities. 
I think that is where we need to focus next.
    Dr. Fleming. Thank you.
    I yield back.
    The Chairman. I thank the gentleman, and his time has 
expired and I recognize the Ranking Member, Mr. DeFazio.
    Mr. DeFazio. Mr. Rauch, could you tell me, how could we get 
better data? I mean, we have sort of a set of scientific data, 
we have a set of experiential data from those who fish, but 
they often don't seem to be integrated optimally. How could we 
do that?
    Mr. Rauch. On one hand, the data collection is a budget 
issue. If you have----
    Mr. DeFazio. It is what?
    Mr. Rauch. It is a budget issue. If you have more ship 
time, you have more scientists, you have more surveys, you can 
get better data. Both the Administration and Congress has 
supported, even through declining budget cycles more stock 
assessments. So every year Congress has approved and the 
Administration has asked for more funds for stock assessments. 
That helps with the better data. We are also looking at better 
data platforms. One of the biggest concerns right now is the 
ability to link environmental parameters, such as changing 
temperature and acidification in the ocean to fish response. We 
believe that in the Northeast, that is one of the factors that 
is impacting the cod fishery up there, and it is very difficult 
to get a handle on with changing environmental parameters, how 
are the fish going to respond, so we are working with our other 
partners at NOAA and in academia to try to get those better 
connections, and we are looking at better sampling technologies 
so that maybe we don't have to go out and catch every fish, can 
we look at unmanned underwater vehicles, sonar techniques and 
other kinds of things to better get a sense as to how many fish 
are out there. It is a difficult question, there are not quick 
answers, but we are working on all those fronts to get better 
data.
    Mr. DeFazio. OK. In the Pacific Northwest, testimony that 
we will get later from Mr. Moore, and I would just ask this 
panel about it, it goes to Mr. Pallone's points about 
flexibility, our Ninth Circuit Court made a judgment saying 
that the time period must be as short as possible, although the 
agency may take into account the status and biology of the 
overfished species and the needs of the fishing community. It 
seems to me that the interpretation of the court, if accurate, 
makes this very inflexible. Must be as short as possible, and 
it gives an example of one species where it could have been 
rebuilt in the same year by estimates, but a few months later, 
and therefore, because of the court decision, we were bound to 
go for the as short as possible option, which significantly 
constrained fishing that could have gone forward and had 
declared recovery the same year. Wouldn't you admit that does 
need a little bit of perhaps statutory change?
    Mr. Rauch. Well, the government lost that court decision.
    Mr. DeFazio. What is that?
    Mr. Rauch. The government lost that court decision, so we 
were advocating for a broader, more flexible approach to 
interpreting that language.
    Mr. DeFazio. OK. So, But earlier when you were asked I 
believe by the Chairman, I mean, you said the Administration 
didn't have a position on statutory changes. It seems that we 
are now pointing toward a needed statutory change because your 
own opinion has been found wanting by a court.
    Mr. Rauch. As I indicated, we did not take a position on 
statutory changes. I will say that provision has been very 
difficult to apply. It is very hard to determine. The standard 
is, as soon as possible, taking into account these things. The 
Ninth Circuit seems to suggest that one way to do that is to 
have a bicatch-only fishery. I know that the testimony from Mr. 
Moore suggests that you allow just a few fish over the level 
that would have devastating commercial community impacts. I 
don't think we want to manage that close to the edge, nor do I 
think realistically we can manage that close to the edge. Our 
data is not sufficient to just get over the level of community 
impacts. So it has been difficult to address. We have addressed 
it. I am not prepared to say that it should be a statutory 
change, but I will agree with you that it is a difficult 
provision to implement.
    Mr. DeFazio. OK. So how about as short as practicable?
    Mr. Rauch. That would provide more flexibility.
    Mr. DeFazio. That is as close as I am going to get to 
support I think. Just one other quick question. In the National 
Academy of Sciences study, they did come up with a couple of 
examples where stocks were placed in overfished status, and 
then it turned out that they weren't, but they do go on to say, 
Well, then they became even more abundant, and I think that 
goes back to the data issue. Yes?
    Mr. Rauch. Yes, I think that it does indicate that 
fisheries science is good, in the U.S., it is the best in the 
world, but there are still a lot of uncertainties, particularly 
when you have environmental parameters like temperature change 
in the ocean or acidification in the ocean, which we have 
trouble as fishery managers predicting and controlling. So many 
times we find out that there was a different impact on the 
fishery than what we thought. I do think that that argues for 
us being as flexible as we can to try to recognize that when we 
set biological targets 10 years ago, today our understanding 
may be completely different as to what is the appropriate 
target.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The chair recognizes the gentleman from Colorado, Mr. 
Tipton.
    Mr. Tipton. I have no questions, Mr. Chairman.
    The Chairman. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chair, and my thanks to our 
panel today.
    I want to ask Mr. Rauch about one species, one of the many 
species that are addressed by the Magnuson-Stevens Act, and 
that is sharks. We have a Federal Shark Conservation Act 
separately that permits removal of shark fins at sea. 
California and many other States, as you know, have passed 
State laws that prohibit the sale and trade of detached shark 
fins. We believe, the State of California believes, that its 
law is complementary to Magnuson-Stevens and to Federal law. 
There has been some litigation recently on that and the Ninth 
Circuit recently reaffirmed, but there is no conflict between 
California's shark fin ban and the Magnuson-Stevens Act. And 
yet your agency has previously rolled out a draft regulation 
that would assert Federal preemption of all State shark fin 
bans, including States like Illinois that don't even have shark 
fisheries, so very hard to imagine that there could really be a 
conflict there. I know that you have said that the Federal 
position is under reconsideration, that you are taking comment. 
We now have a Ninth Circuit ruling rejecting the Federal 
preemption argument. Can you give me an update on where that 
stands, please?
    Mr. Rauch. Yes, thank you for the question. The Magnuson-
Stevens Act does assert statutorily exclusive Federal authority 
over fishing and sovereign rights to fishing but does allow the 
States to regulate under certain limited circumstances, and the 
way that we interpret that is as long as there is not a direct 
conflict, those can work, and so it is a factual question with 
any of the 11 jurisdictions that have restrictions on 
possession of a type of fish product whether there is an actual 
conflict. We are also required by an Executive Order before we 
take final action in a rule to consult with those States to try 
to avoid it because nobody, neither the Federal Government nor 
the State government, wants to be debating this issue in court, 
and we would much rather have an interpretation where we are 
consistent and trying to achieve the same objectives. So I have 
been in discussions personally and with the NOAA general 
counsel, with the State of California Attorney General's 
offices, and with the Attorney Generals' Offices for 10 of the 
other 11 jurisdictions. I have yet to reach out to Illinois. 
Our goal is to try to find an interpretation in which we would 
determine that there is no need to raise any preemption 
arguments, and I am hopeful with California that, although 
those discussions are still preliminary, that we will end up 
with such a case.
    The statute does not assert that it preempts all of those 
State laws. It asserts that preemption is a possibility, and it 
is a factual discussion, and so what I would like to do is 
assuming that I can find a scenario in which we can say that 
the United States is not concerned about preemption issues with 
any of these States, we could put that as guidance in the 
regulation so that we could avoid this situation in the future. 
I am hopeful that we will find a resolution which would allow 
both the State laws and the Federal laws to be looked at 
compatibly, and we are still working on that.
    Mr. Huffman. I appreciate that very much, and I will thank 
you for your answer.
    The Chairman. Does the gentleman yield back his time? The 
gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today. Rick, I 
want to begin with you. You and I have talked a lot about data-
poor stocks and the challenges that they face for our fisheries 
managers. Tell me, in your perspective and looking at Magnuson-
Stevens reauthorization, how through the reauthorization can we 
help improve the quality of science and address these data-poor 
stocks? Can you give us a little more on your perspective on 
that?
    Mr. Robins. Certainly, Mr. Wittman. I think first and 
foremost the goal should be to move these data-poor stocks into 
a situation where they have an adequate quality stock 
assessments, and doing that in our region I think can be done 
strategically, but I think, in the long run, we need to do that 
by enhancing cooperative research. We have some species that 
are data poor because they are model resistant, and so you have 
to get out of some of these multispecies surveys and do some 
specific work to resolve some of those outstanding scientific 
questions, so first and foremost I think we have to do that, 
and one of the data needs in our region in the Mid-Atlantic, at 
least, is with an E-map survey, because we have been funding 
that very tenuously with our research set-aside funds, and that 
has become a critical and ongoing piece of the monitoring 
program in our region. It complements the work of the Bigelow 
in the Northeast, and that is something I think we need to 
secure for the future.
    But with respect to the reauthorization, as we look at the 
management of data-poor stocks, I think the councils do need 
more discretion in the management of those, in other words 
determining when ACLs and AMs are the most effective strategy 
for dealing with a data-poor stock, whether it is small scale 
or incidental. There are certain situations where ACLs are 
being imposed on data-poor stocks, and there is simply not 
enough data to support establishing an effective ACL or an 
appropriate ACL, and so you see as a result of that a lack of 
confidence I think in the management process within those 
fisheries, and just because they are small scale doesn't mean 
they are not important. They may be very important to Pacific 
communities. So this is an important area to consider through 
the reauthorization.
    Mr. Wittman. I am going to pick up on your comment on stock 
assessments, and obviously, those being used to set ACLs and 
AMs. Give me your perspective. You talk a little bit about the 
lack of data and science affecting that. Tell me, give me an 
example of how that would negatively affect the element of not 
having a proper stock assessment, and then how does that ripple 
down the chain as far as decisionmaking with management 
decisions?
    Mr. Robins. Well, the way the process works, the data 
usually go through the Northeast Fisheries Science Center in 
our region at least. They will go to a regional science center. 
They then come to the staff. You may have a plan development 
team that considers the data. The staff evaluates it. They make 
a quota recommendation through that process. That goes to the 
scientific and statistical committee. Now if you come through 
that process and you don't have an adequate stock assessment, 
then the SSC is left with a situation where they may be just 
evaluating historical catch. And frankly, some of our fisheries 
have catch history data that are quite lacking, and that varies 
around the country, but there is some fisheries that have very 
poor historical data, even on catch. Now that is changing, and 
now I think we are all moving toward the point that we have 
much better catch data, at least on our commercial fisheries, 
and obviously, there are ongoing reforms MRIP to ensure that we 
have better recreational catch data in the future, but when the 
SSC is left in those positions, often times they are making 
decisions on an ad hoc basis, and the result is unpredictable, 
and that can contribute to a loss of stability in those data-
poor fisheries.
    Mr. Wittman. I think that is a great point about the lack 
of catch data there or the richness of the catch data. Let me 
ask you this: There is a lot of discussion about how do we do 
all we can to collect that data, and obviously, there is other 
points of data out there to collect, especially with fishermen. 
Can you give me your perspective on what the current MSA may 
limit you as far as being able to gather that data from 
fishermen? And then what should we consider in the current 
reauthorization to maybe expand that and make sure we are 
including all the different sources of data, whether it is 
fishermen or other institutions or other elements that are 
critical to make sure we do the proper stock assessments to 
make the proper decisions?
    Mr. Robins. Well, there are a couple points there, and one 
would be the fact that there are some provisions with respect 
to data confidentiality that pose some problems around the 
country. For example, if we wanted to go collect voluntarily 
supplied data from fishermen and then use that in management 
decisions, that may in fact be the best available data. For 
example, in our deep sea coral amendment, we are considering 
how to get that data that fishermen want to provide into the 
process, but data confidentiality concerns come up, and so that 
is one issue. The other, though, would be to more explicitly 
seek to bring in voluntary sources of data, so, for example, 
with recreational fishermen, a lot of them want to participate 
in providing recreational catch data, but there is not a 
mechanism fully for incorporating that into the Federal 
management process. There are a few State programs around the 
country that collect voluntary angler data, and self-selecting 
groups like that can have statistical limitations, but I think 
there are clearly opportunities to do more to collect data in 
that type of way that could be used to perhaps benchmark or 
ground truth some of the recreational catch estimates that we 
have.
    Mr. Wittman. Very good. Thank you, Mr. Chairman, I yield 
back.
    The Chairman. I thank the gentleman. I made an announcement 
earlier that because of the ceremony at 11 a.m. that we would 
break, but because of the interest of Members here in the issue 
at hand, I have decided that we will just keep going, and 
obviously, Members if they want to go they can.
    The Chair recognizes the gentleman from California, Mr. 
Cardenas.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    Just very, very quickly. When it comes to this Act, when 
invasive species, is that a different environment of law that 
interjects with this one or does this actually take that into 
account primarily as well, not just overfishing, et cetera, and 
reduction of species, but invasive species tend to have a 
tremendous detrimental impact, don't they, in certain areas?
    Mr. Rauch. Yes, sir. I will take that question. The Act 
does not refer to invasive species, per se. We do know that as 
the Academy study indicating, we need to take into account more 
of the ecosystem considerations. When you are determining both 
in management regime and the stock status and what is going to 
happen, invasive species are one of the kinds of things that 
might limit a stock productivity. We have historically thought 
that there was a very linear relationship. If you cut fishing, 
the fish populations will grow, but now there are a number of 
environmental factors, and invasive species being one, but the 
Act does not directly talk about invasive species as--it is not 
mentioned in the Act.
    Mr. Cardenas. Thank you. I yield back my time.
    The Chairman. The gentleman yields back his time.
    The gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    My previous district included the Klamath River. When I was 
first invited up there to take a look at it, the Administration 
is pushing to tear down four perfectly good hydroelectric dams 
because of what they describe as a catastrophic decline of the 
salmon population on the Klamath, and I said, Well, that's 
terrible, how many are left. Well, just a few hundred. I said, 
That is awful, why doesn't somebody build a fish hatchery? 
Well, it turns out somebody did build a fish hatchery at the 
Iron Gate Dam. It produces 5 million salmon smolts every year; 
17,000 return annually as fully grown adults to spawn. The 
problem is we don't include them in the population counts, and 
then to add insult to insanity, when they tear down the Iron 
Gate Dam, the Iron Gate Fish Hatchery goes with it, then you do 
have a catastrophic problem. Do you count hatchery fish in your 
population counts?
    Mr. Rauch. Thank you for the question. This is a question 
related to the Endangered Species Act and not the Magnuson-
Stevens Act, so----
    Mr. McClintock. No, I understand, but my point is that fish 
hatcheries, appear to me, to play an absolutely central role in 
assuring abundant populations of all species, including those 
regulated under Magnuson-Stevens.
    Mr. Rauch. So, for Magnuson-Stevens Act purposes, when we 
assess the overall number of salmon in the Pacific Ocean, much 
of what is harvested commercially are hatchery caught or 
hatchery bred salmon.
    Mr. McClintock. Yes.
    Mr. Rauch. And so for Magnuson-Stevens Act purposes, there 
is not a distinction when we are looking at our targets, our 
volatile targets between hatchery and wild fish.
    Mr. McClintock. OK.
    Mr. Rauch. There is a distinction when we are talking about 
the Endangered Species Act and what is the population we are 
trying to preserve for the Endangered Species Act. The 
Endangered Species Act discusses that populations must be 
populations that are supported in the wild, and the 
interpretation that we have long held with the fishery service 
is that means that they are in the wild for the majority of 
their life cycles, and that means they need to be born in the 
wild.
    So, for the stocks that have had hatchery parents that are 
born in the wild, those are considered part of the population, 
but we do not often consider hatchery fish the same fish as a 
wild fish.
    Mr. McClintock. Which is silly, of course, as one biologist 
pointed out, the principle there. The only difference between a 
hatchery fish and a fish born in the wild is the difference 
between a baby born at home and a baby born at the hospital. 
All right. And the same forces of natural selection act on both 
hatchery and wild born fish, but the principal thrust of my 
question with respect to Magnuson-Stevens is what are we doing 
to promote hatchery production? Again, to me, this seems to be 
the key to assuring abundant populations of those that are 
regulated under Magnuson-Stevens.
    Dr. Sullivan. If I may respond to that. So, I think you 
raise an important point, and there is a kind of tension that 
exists in the field between hatchery raised and natural 
systems, and I think one of the goals behind looking at the 
natural system is trying to work in balance with the ecosystem, 
as opposed to replacing the ecosystem. So if we might look at 
rice patties going in, just take out the ecosystem and you put 
in your own.
    Mr. McClintock. No, no----
    Dr. Sullivan. In many ways, hatchery is sort of like that.
    Mr. McClintock. That would require draining the ocean, 
which is--as Will Rogers once pointed out, is a difficult 
problem doing that sort of detail, and he wasn't a detail man.
    Dr. Sullivan. Yes.
    Mr. McClintock. Nobody is suggesting draining the ocean. 
What we are suggesting is supplementing the populations with 
hatchery born fish to assure abundant populations, and from 
what I am hearing if by you talking around the question is you 
are not doing anything on hatchery.
    Dr. Sullivan. No, there are issues with hatchery----
    Mr. McClintock. What are you doing?
    Dr. Sullivan [continuing]. In terms of genetics, for 
example. Fish tend to be pretty uniform genetically and that 
makes them susceptible to a lot of what like our agricultural 
products are likely to be susceptible to.
    Mr. McClintock. Well, again, you are not answering the 
question. What are you doing to promote hatchery production of 
fish?
    Dr. Sullivan. I am not.
    Mr. McClintock. Then the answer I seem to be getting from 
you is damn near nothing.
    Mr. Rauch. Well, the Federal Government does support 
hatchery programs for fish stocks around the country. What the 
idea is that the hatchery fish can be done. The National Marine 
Fisheries Service does not have a hatchery program within 
itself, but the Interior Department runs one. Many States run 
hatchery programs that we support.
    Mr. McClintock. And quite successfully as well.
    Mr. Rauch. I would agree.
    Mr. McClintock. Mr. Chairman, if we do decide to 
reauthorize this Act, I would hope that a principal component 
of the reformed act would be the promotion of hatchery 
production of all the species regulated by the Act.
    I yield back.
    The Chairman. The gentleman yields back his time.
    I want to thank all of the members of the first panel here. 
As happens frequently, sometimes another issue comes up with a 
Member, and they will let you know or ask you to elaborate on a 
question. That may or may not happen. If that happens, I hope 
you would respond in a very timely manner.
    So, with that, I want to dismiss the first panel and while 
that dismissal is happening, ask the staff to prepare for the 
second panel.
    OK. I want to thank the second panel for joining us. By way 
of introduction, we have Dr. Ray Hilborn, Professor of the 
University of Washington School of Aquatic and Fishery Sciences 
and went to the university that beat Boise State badly the 
first round, I might add. There is nobody from Idaho here, so 
nobody cares, I guess.
    We have Mr. Rod Moore, Executive Director of the West Coast 
Seafood Processors Association. Mr. Vito Giacalone, Policy 
Director of the Northeast Seafood Coalition. Mr. Jeff Deem, 
Recreational Fishing Alliance. Dr. John Bruno, Professor of the 
Department of Biology at the University of North Carolina at 
Chapel Hill. And Mr. Chris Dorsett, Ecosystem Conservation 
Programs with the Ocean Conservancy.
    I think you were all in the audience when I mentioned how 
the timing lights work. Your full statement will appear in the 
record, but I would ask you to keep your oral argument within 
the 5-minute window, and the way that works, for instance, when 
the green light goes, you are doing very well, and when the 
yellow light comes on, that means you have 30 seconds remaining 
and I hope you would wrap it up before the red light comes, and 
I will try to be flexible, but we do want to keep this as much 
on time as we can.
    So, with that, Dr. Hilborn, you are recognized for 5 
minutes.

    STATEMENT OF DR. RAY HILBORN, PROFESSOR, UNIVERSITY OF 
       WASHINGTON, SCHOOL OF AQUATIC AND FISHERY SCIENCES

    Dr. Hilborn. Thank you very much, Mr. Chairman, Ranking 
Member and other members. If I could have the next slide 
please.
    I would like to basically talk about evaluation of how well 
we are doing, and the gist of my presentation is that we have 
defined U.S. fisheries management a success almost solely in 
terms of rebuilding overfished stocks, and to some extent, I 
believe we have lost sight of the intentions of the Act, in my 
testimony, I go into this more in my written testimony in more 
detail.
    But basically, I think it is pretty clear from the Act that 
we want to assure benefits from employment, food supply, and 
revenue. In order to do that, we have to maintain the 
biological health of the fish resources, and there is certainly 
a concern 20 years ago that overfishing was a major threat to 
the sustainability of our resources.
    Next slide, please.
    But I would note that, at present, the only report to 
Congress is on overfishing, and stopping overfishing is merely 
a means to an end, and no, it does not systematically report 
how well we are doing on delivering benefits to the United 
States, in particular, what is impeding us from producing more 
benefits.
    Next slide, please.
    Since 2007, an international group of scientists has formed 
a data base on the status of fish stocks, including the data 
from NOAA, and that group has produced 27 scientific papers, 
including 10 in science, nature, and the proceedings of the 
National Academy of Sciences.
    Next slide, please.
    Just as one way we visualize these, and I notice that the 
NRC panel has used this as well, is to have the biological 
stock size on the X axis--that is how many fish we have--and 
how hard we are fishing on the Y axis. And the target to 
produce maximum food and employment benefits is what is 
generally called maximum sustained yield, so think of that as 
the target. I am sure there is quite a few sportsmen here on 
the panel.
    Next slide, please
    In the U.S., we define regions in this space as fully 
exploited, underexploited, overfished and then a combination of 
overfished and overfishing, the upper left-hand corner where we 
don't want to be.
    Next slide, please.
    If we think about trying to achieve jobs and food benefits, 
we think about where we would like to see a grouping of our 
shots, and if we could just--the next slide, then the next 
slide. And that would be--if our objective was to produce jobs 
and revenue and food, we would expect to see a clustering of 
our fish stocks around there.
    The next slide, please.
    This is the current status of U.S. West Coast stocks. That 
big cross hairs is that target of maximum sustainable yield. 
The size of the dots is the long-term potential sustainable 
yield from the stocks, so you will see there are some big 
stocks. There are some small stocks. And I have drawn solid 
lines at the point where that is sort of the median between--
and what you see is that we are fishing much, much lower on 
average than would produce maximum sustained yield. And many 
stocks are hardly being fished at all. In fact, we only harvest 
1 percent of the groundfish on the West Coast.
    Next slide, please
    If we look at all regions of the U.S., we see a similar 
picture now. The colors represent where they are from, and we 
see that the big stocks are almost uniformly underfished and 
that the stocks of concern, primarily from New England, are in 
the upper left-hand corner.
    Next slide, please.
    So, if we say, what happened? If we rebuilt all stocks to 
their maximum sustainable yield, we would increase our yield 1 
to 3 percent, but if we fully utilize the underutilized 
species, we could increase yield by 30 to 50 percent. So, the 
key point is that the biggest threat to producing the maximum 
sustainable jobs and food from the United States is not 
overfishing anymore. It may have been 20 years ago. Now, it is 
underutilization.
    Next slide, please.
    One of the issues that comes up is these environmental 
changes in fish production. This is an example of Icelandic 
cod, where the X axis is the stock size and what you see is 
there is very little relationship between the production of the 
stock, that is how much it biologic produces, and its 
abundance.
    Next slide, please.
    But if we look over time, this stock exhibited a dramatic 
decline in productivity.
    Next slide, please.
    In a paper published in the proceedings of the National 
Academy, we showed that 69 percent of the stocks that we have 
data on showed these jumps in productivity.
    Next slide.
    What this means is that rebuilding targets to biomass 
targets are very problematic, and I am going to have to 
definitely hurry up.
    Next slide.
    We have solved the overfishing problem. Rebuilding targets 
cannot be met if we have regime shifts, and I am going to have 
stop right there.
    Thanks very much.
    The Chairman. Dr. Hilborn that was done very, very well, 
but your full statement, of course, is part of the record, and 
that is the important part.
    [The prepared statement of Dr. Hilborn follows:]

  Statement of Ray Hilborn, Professor, School of Aquatic and Fishery 
        Sciences, University of Washington, Seattle, Washington

Introduction
    Good morning and I want to thank the members and staff for the 
opportunity to address this committee. My name is Ray Hilborn, I am a 
Professor of Fisheries and Aquatic Sciences at the University of 
Washington. I have been studying fisheries management for over 40 
years, both in the U.S. and in a number of other countries and 
international commissions. This has resulted in 250 peer reviewed 
journal articles, and several books including most recently 
``Overfishing: what everyone needs to know'' published by Oxford 
University Press.
    I am not representing any group, although I do receive research 
funding from a wide range of foundations, NGOs, and commercial and 
recreational interest groups, the National Science Foundation and NOAA.
    I am not here to argue for specific changes to the Magnuson-Stevens 
Act, rather to provide background on our growing knowledge of how fish 
populations behave, and how U.S. fisheries are performing.
What are our objectives?
    The text of the Act begins with ``To provide for the conservation 
and management of the fisheries, and for other purposes'', but then 
becomes more specific by stating that rebuilding fish stocks, ensuring 
conservation and protecting essential habitat are all intentions of the 
act. Also, the Act makes it clear that one objective is to provide for 
``the development of fisheries which are underutilized or not utilized 
. . . to assure that our citizens benefit from the employment, food 
supply and revenue which could be generated thereby.''
    In short, the objective of the Act appears to be to provide for 
sustainable employment, food supply, recreational opportunity and 
revenue, and to achieve that, conservation of fish stocks and habitats 
is essential. The two specifically targeted actions are to rebuild 
overexploited stocks and develop fisheries on underutilized species. 
Yet, as I will show below, while we have reduced overfishing, one 
consequence has been far more underutilized fish stocks and we seem to 
have lost sight of the actual goals of employment, food supply, 
recreational opportunity and revenue.
    In its annual report to Congress, NOAA reports on the status of our 
fisheries regarding the biological status and whether the stocks are 
assessed. The biological status is reported as both the number of 
stocks that are overfished (are at low enough abundance to reduce 
sustainable yield), and the number of stocks that are subject to 
overfishing (fished at a rate harder than would produce long term 
maximum sustainable yield). There is no systematic scorecard of the 
fisheries contribution to employment, food supply, recreational 
opportunity or revenue with reference to the potential contribution, or 
is there any evaluation of underutilization. While measuring these no 
doubt requires specific assumptions, there appears to be a tacit 
assumption among policy makers that if we prevent overfishing, we will 
produce something like maximum food production, employment, 
recreational opportunity and revenue, or at least that the greatest 
threat to these objectives is overfishing.
    The Magnuson-Stevens Act has been quite effective at reducing 
overfishing so that the proportion of stocks estimated to be 
overfished, which the Act defines as fish stocks at lower abundance 
levels due to environmental factors, fishing pressure, or other 
factors, has declined from 38 percent in 2000 to 19 percent in 2012, 
and the proportion subject to overfishing declined from 33 percent in 
1999 to 10 percent in 2012. The decline in the number of fish stocks 
subject to overfishing has largely been accomplished by major 
reductions in fishing pressure off the west coast, east coast and Gulf 
of Mexico. Alaskan fisheries were never subject to major overfishing 
and there has been no need to reduce fishing pressure there. Fishing 
pressure has declined dramatically from previous peaks; a 40 percent 
decline in the East Coast a 48 percent decline in the Southeast and 
Gulf of Mexico and a 75 percent decline on the West Coast. Across all 
U.S. fisheries where assessments are available, the exploitation rate 
is about 40 percent of what would produce maximum sustainable yield. 
U.S. fisheries management is now extremely conservative and while 
almost all attention seems to be focused on the few stocks where 
overfishing is occurring, we seem to be ignoring the fact that 
exploitation rates are now, on average, so low.
The Status of Stocks
    The status of fish stocks can be summarized by plots that compare 
the biomass of the stock to the level that would produce maximum 
sustainable yield (called BMSY) on the X axis, and the fishing pressure 
compared to the level that would produce maximum sustainable yield 
(called FMSY) on the Y axis. Figure 1 is such a plot for US west coast 
stocks status as reported in NMFS stock assessments.
[GRAPHIC] [TIFF OMITTED] T2948.001

    .epsEach point on the graph represents one fish stock and the size 
of the point is proportional to the potential maximum sustainable yield 
for the stock if the stock was fully rebuilt. The thick cross-hairs 
represent the traditional target of maximum sustainable yield. In the 
U.S. terminology any F greater than 1.0 on the Y axis would be 
classified as ``overfishing'' and any biomass less than 0.5 on the X 
axis would be classified as ``overfished.'' The thin black lines are 
the median values of the x and y axes, showing that, on average U.S. 
west coast stocks are exploited at about 40% of the level that would 
produce maximum sustainable yield and biomass is, on average, about 
130% of the biomass that would produce maximum sustainable yield. If 
our management objective is to produce maximum sustainable yield we are 
missing the target by quite a bit, hitting well below and to the right 
of the target.
    If we combine all U.S. fisheries in a single plot we see a 
generally similar pattern in Figure 2, with blue representing the West 
Coast, green Alaska, yellow the Gulf of Mexico and S.E. Atlantic, and 
red the mid-Atlantic and New England. We see the most overfished stocks 
in the northeast.
[GRAPHIC] [TIFF OMITTED] T2948.002

    .epsOn average, the biomass of U.S. fish stocks is above the level 
that would produce maximum sustainable yield and fishing pressure is 
much lower than would produce maximum sustainable yield. Also, the 
overfished stocks are generally small stocks, while the large stocks 
are typically fished very lightly.
Behavior of Fish Stocks
    The modern theory of fisheries management developed in the early 
20th century and by the 1950s the basic principles had been well 
established around the general theory that holding a stock at or near a 
specific biomass, often called BMSY or the biomass that produces 
maximum sustainable yield, was optimal. This theory and approach was 
written into national regulations around the world, including the 
original Magnuson Act, and international agreements like the Law of the 
Sea.
    In this theory, the average sustainable yield depends upon the 
biomass of the stock, and sustainable yield is maximized at an 
intermediate stock level, usually 35-50 percent of what it would be in 
the absence of fishing. Environmental variability is acknowledged as a 
form of year to year noise, good years and bad years come randomly.
    This view of the world has dominated our management strategies, 
including setting target biomass and harvest rates, and in the stock 
rebuilding requirements. The theory asserts that if stock biomass 
controls productivity, then reducing fishing pressure on stocks at low 
abundance allows biomass to rebuild, and stock productivity will 
increase as the biomass increases.
    In the last two decades, the evidence has become strong that this 
view of the world is incorrect, and most fish stocks experience 
sustained periods of good times and bad times. This is often called 
productivity regime shifts. In a paper published in 2013 a group of us 
showed that for 230 fish stocks where we had long term data, 69 percent 
showed such regime shifts, and only 18 percent of fish stocks appeared 
to conform to the simple theory that biomass determines productivity. 
The remaining 13 percent of stocks showed no relationship between 
biomass and productivity or temporal regime shifts. We found that 
increases in productivity were slightly more common than declines.
    If regime shifts, which are natural environmental fluctuations, are 
driving productivity, then reducing fishing pressure will increase the 
abundance of the stock, but productivity (and subsequent sustainable 
yield) will not increase until the regime changes. Rebuilding to former 
biomass may indeed be impossible unless productivity changes, 
regardless of reductions in fishing.
    Figures 3 and 4 illustrate the relationship between fish stock 
abundance and productivity for cod in Iceland (figure 3), and the 
temporal pattern in productivity (Figure 4). It appears that there was 
a major drop in productivity for this cod stock in the mid 1980s (as 
there was for most cod in the Western Atlantic), and for the present 
Iceland must simply live with a less productive cod stock.
    Accepting that regime shifts are common does not mean we do not 
need to regulate fisheries. We must always be careful not to harvest 
more than the production, and when regime shifts move systems from high 
to low productivity, the yield must decline.
[GRAPHIC] [TIFF OMITTED] T2948.003

.eps[GRAPHIC] [TIFF OMITTED] T2948.004

.epsLost Yield, Jobs, Recreational Opportunity and Revenue
    U.S. fisheries management has been successful at largely stopping 
overfishing and reducing the number of overfished stocks--but since 
stopping overfishing is a means to an end, not an end itself, we must 
ask how is the U.S. doing at producing food, jobs, recreational 
opportunity and revenue?
    We can calculate the lost food production by comparing the long 
term yield under current fishing pressure with the long term yield 
under the fishing pressure that would produce maximum sustainable 
yield. We lose food production (and potential jobs, recreational 
opportunity and revenue) in two ways, by fishing too hard or fishing 
too little, and the Magnuson-Stevens Act makes specific reference to 
both of these in its objectives. U.S. stocks for which we have 
assessments have a potential sustainable yield of a little over 7 
million tons per year. Under current fishing pressure the stocks that 
are subject to overfishing (22 percent of stocks) would lose, on 
average, 44 percent of their potential yield, but because these are 
generally small stocks it only constitutes 1-3 percent of the potential 
yield of U.S. fisheries combined. Thus overfishing has almost no impact 
on the long term yield of U.S. fish stocks. In contrast, 77 percent of 
stocks are ``underfished,'' that is, fished at rates less than would 
produce maximum sustainable yield. These stocks on average lose 55 
percent of their potential yield, and because these are the larger fish 
stocks in the U.S. we are losing 30-48 percent of U.S. potential yield 
by underfishing. Further, 95 percent of this lost yield comes from 
stocks that are at or above the level that produces maximum sustainable 
yield. So we are losing almost all of our yield from underfishing 
abundant productive stocks.
We Lose 1-3 Percent of U.S. Potential Yield by Fishing too Hard, 30-48 
        Percent of Potential Yield by Fishing too Little
    The major threat to sustainable jobs, food, recreational 
opportunity and revenue from U.S. marine fisheries is no longer 
overfishing, but underfishing. However, many groups, particularly some 
e-NGOs, are still actively pushing for less fishing pressure by giving 
a high priority to maintaining fish stocks at high abundance. Perhaps 
it is time for Congress to explicitly state the extent to which we wish 
to forego food, jobs, recreational opportunity and revenue in order to 
have more fish in the ocean either because of their intrinsic value, or 
as food for marine birds and mammals.
    Why is fishing pressure so low? This is a question we are actively 
investigating but there are a number of explanations. In some cases 
this is due to lack of markets, but increasingly the low fishing 
pressure results from the layers of precautionary regulation that have 
been imposed to prevent overfishing.
    We do know that if our national objective were to maximize the 
profitability of fisheries, our management targets would be less 
fishing pressure than that which produces maximum sustainable yield, 
and if we could calculate lost profit under current U.S. fishing 
pressure, the loss from economic overfishing would likely be higher, 
and the loss from economic underfishing would be lower.
    So perhaps Regional Fisheries Management Councils have explicitly 
reduced fishing pressure to increase profitability. Some stocks are 
underexploited because of lack of markets. Others are underexploited 
because they are subject to rebuilding plans. Many stocks are caught up 
in mixed stock fisheries, where healthy stocks (Georges Bank haddock) 
cannot be fully exploited because they are caught in conjunction with 
rebuilding stocks (Georges Bank cod). Finally, much of the under-
exploitation comes from the layers of precaution built into the system. 
The fact that any stock which is fished at rates above FMSY is called 
``subject to overfishing'' means that we are intrinsically aiming to 
fall below FMSY. The consequence of that is we are losing a significant 
fraction of our potential yield, jobs, recreational opportunity and 
revenue.
    Some would argue that the current low fishing pressure is necessary 
to rebuild overfished stocks and once all stocks are rebuilt fishing 
pressure can rise again. Under the current management system this will 
never happen because some stocks are always going to be depleted due to 
natural fluctuations and climate change, and, as we add annual catch 
limits for more minor species in a mixed stock fishery, the problem 
will only get worse.
    In summary, U.S. fisheries policy is currently very conservative, 
and if our objectives are jobs, food, recreational opportunity and 
revenue then we should focus national legislation and management 
guidelines on fully exploiting the underutilized species and place less 
emphasis on assuring that nothing is overfished.
Layers of Independent Legislation
    Federal fisheries are subject to a wide range of legislation 
including the Magnuson-Stevens Act, the Marine Mammal Protection Act, 
the Endangered Species Act and the National Environmental Policy Act. 
Each of these imposes independent requirements that result in a set of 
uncoordinated regulations whose net outcome may result in a combination 
of lower economic benefits to the nation, and poorer conservation 
benefits than a coordinated management system. There is no doubt that 
there are trade-offs between utilization and preservation, but the 
current set of regulatory mandates is putting us in a position that is 
far from the best set of trade-offs. I address some specific 
recommendations in the section below on ecosystem based management.
The 10 Year Rebuilding Requirement
    One of the most influential layers of regulation is the 10-year 
rebuilding requirement. This has the result of often ratcheting catches 
down as the 10 year time comes closer even though the stock size may be 
increasing. So long as it is not rebuilding on a timetable that will 
hit the 10-year mark, catches must be further reduced to try to make 
the timeline. Thus we can find decreasing allowable catches even though 
fish stock abundance is increasing.
    The 10-year timeline was largely predicated on two assumptions, (1) 
that the greatest threat to benefits from the nation's fisheries is 
overfishing, and (2) that there are tipping points and stocks that are 
overfished are in danger of not being able to recover if pushed too 
low. Our research has shown both of these assumptions to be false. As I 
showed earlier there is little loss of benefits to U.S. from 
overfishing, and our research also shows no evidence for tipping 
points. If fishing pressure is reduced stocks will recover, and the 10-
year timeline will definitely speed the recovery, but it is not 
necessary for recovery to occur.
Annual Catch Limits for all Species
    A looming crisis is coming with requirements to set annual catch 
limits on all stocks. At present the management system does assessments 
and provides management plans for the great majority of stocks that 
contribute to the benefits to U.S. society, but there are many stocks 
that are caught in U.S. fisheries to some degree that are not a 
significant contribution to these benefits. We simply do not have the 
money and resources to collect scientific data, perform stock 
assessments, and manage all of these stocks. Current requirements to 
greatly expand the number of stocks that are assessed is resulting in 
highly conservative ``low information'' approaches that will combine 
with other measures such as the 10-year rebuilding requirement to make 
the management system even more precautionary than it is now and 
further reduce benefits to the nation from fisheries. I suggest that we 
focus federal management on the fish stocks that are important to the 
nation's food, jobs and income and not subject the hundreds of small 
stocks to the same process, relying on other legislation such as the 
Endangered Species Act to protect them.
Integrating With Ecosystem Based Management
    In my view, ecosystem based management has two major categories of 
actions. First is rather straightforward elimination or major reduction 
of by-catch, reducing fishing pressure to sustainable levels, and 
protection of sensitive habitats. The councils have done a good job of 
solving these problems. The second element is the underlying trade-off 
between utilization and preservation. This trade-off exists and 
different groups within society have different preferences on where 
along the range of possible trade-offs we should be. A current topic 
for such debate is in reduction of fisheries for forage fish. 
Preservation oriented NGO's would like to see fishing for forage fish 
significantly reduced or eliminated in order to provide more food for 
other species.
    Science can provide estimates of the trade-offs between utilization 
and conservation, but it cannot provide policy guidance on what level 
of trade-off we should accept. Policy makers such as Congress or the 
Fishery Management Councils need to provide this guidance, and at 
present Congress has provided it only with respect to some species 
through the ESA and MMPA.
The Importance of Predictability for Recreational and Commercial 
        Fisheries
    Recreational and commercial fishing are both economic activities 
that provide jobs, income and profit to the nation, but also 
satisfaction and enjoyment to individuals engaged in these activities. 
As in most economic activities stability is desirable, sudden changes 
in regulations disrupts commercial supply and demand, and is highly 
disruptive for recreational fishing when seasons are abruptly closed 
and fishing opportunities are highly variable from year to year. Given 
natural variability and uncertainty in our management system, constancy 
of commercial and recreational opportunity is not possible.
    Any harvest strategy effectively assigns some of the intrinsic 
variability to the harvest, and some of it to the stock abundance. As 
it happens the typical harvest strategy used to achieve biomass based 
reference points effectively assigns most of the variability to 
harvest, and attempts to reduce variability in biomass. Other policies, 
specifically using exploitation rate reference points, would shift more 
of the variability from harvest to stock biomass. Such policies 
typically provide for more social and economic benefit while not 
threatening conservation and sustainability goals.
Conclusions
    U.S. citizens should be proud of our record of fisheries 
management, it is unrivaled for rebuilding of fish stocks, transparency 
of management, and quality of the science that goes into it. NOAA 
should be congratulated on the job it has done. However, there has been 
a loss of focus on what we are trying to achieve, and sustainable jobs, 
recreational opportunity, and income seem to have been lost in the 
focus on overfishing as the threat to fisheries benefits. The 
reauthorization of the Magnuson-Stevens act is a time where the 
management system can be fine-tuned to maintain our current healthy 
fish stocks, but dramatically increase the benefits the citizens of the 
U.S. receive from those stocks.
                                 ______
                                 
    Mr. DeFazio. Mr. Chairman, I would ask unanimous consent, 
the gentleman from Massachusetts, Mr. Tierney, be allowed to 
sit on the dais and participate in the hearing.
    The Chairman. Without objection, so ordered, and I will 
recognize Mr. Tierney in a moment, but first, we will go to Mr. 
Rod Moore, who is the Executive Director of the West Coast 
Seafood Processors Association.
    Mr. Moore, you are recognized.

          STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Mr. Chairman, members of the 
Committee. I am not sure I can be as fast and glib as Ray, but 
I will try.
    Just to get into the meat of this. From the Pacific Council 
area, we are dealing with four fishery management plans. We 
have over 100 species of fish in our groundfish plan alone. We 
deal with four State agencies, tribal fishery managers, 
National Marine Fishery Service, the National Ocean Sanctuary 
Program, five international or bilateral management measures, 
offshore hydropower or hydropower and rivers, offshore energy, 
the Endangered Species Act, the Administrative Procedures Act, 
the National Environmental Policy Act, and whole bunches of 
marine mammals eating some of those endangered species.
    We need flexibility in order to be able to balance all of 
these things out, sustain our fish stocks and provide a living 
to people in our West Coast communities and provide food for 
the community.
    The biggest issue in terms of rebuilding that affects us is 
something that Mr. DeFazio alluded to earlier, and I appreciate 
him giving my testimony for me. The way the Act is worded in 
conjunction with a Ninth Circuit court case, which we were part 
of sort of in defense of NMFS, the court essentially says you 
have to rebuild in as short a time as possible no matter what, 
and that has led to absurdities where, for example, looking at 
our rebuilding plan for canary rockfish, we could have rebuilt 
those rockfish or had a harvest level allowing for rebuilding 
that would rebuild them in January of a particular year or 
allow a slightly larger harvest level and allow them to rebuild 
in December of that same year. Under the court case, we had to 
rebuild them in January. Same is true of darkblotched rockfish 
that particular year.
    You know, leaving aside whether our science is even capable 
of telling us whether we can rebuild in January versus 
December, the practical effect of it was significant 
restriction on sport, commercial, tribal fisheries, not because 
we are targeting canary rockfish--in fact, we try to take steps 
to avoid our overfished species--but rather those species act 
as a choke on the system.
    Just to give you an example, last year, looking at the 
groundfish trawl landings, of the amount of groundfish that was 
available to the trawl fleet, we were able to harvest only 29 
percent. That is a pretty dismal number, and that means a 
significant loss again to our communities, to our fishermen. 
You start translating that onto the sport side, you had some 
significant losses there as well.
    So, there is a real need for some flexibility in the Act. 
The same is true with the annual catch limits. We support catch 
limits. Our council has had catch limits in effect long before 
they were required by the Magnuson-Stevens Act. The problem is 
now, we have to do catch limits every year. We have a 2-year 
management plan for rockfish, or for groundfish. It doesn't 
matter that we have a 2-year plan. We have to set annual catch 
limits.
    So, even if we were able to juggle some of the numbers 
during the year to take in account market conditions, weather 
conditions, environmental factors, so forth and so on, we have 
to stay with what is going on each and every year. So, in 
conclusion, my time is running out. I hope the Committee will 
take a look at the rest of the issues that are listed in our 
testimony. We appreciate you looking at all of these issues and 
moving forward, and we stand ready to help and assist you in 
your reauthorization of the Act.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Moore.
    [The prepared statement of Mr. Moore follows:]

              Statement of Rod Moore, Executive Director, 
               West Coast Seafood Processors Association

    Mr. Chairman, Members of the Committee, my name is Rod Moore and I 
serve as the Executive Director of the West Coast Seafood Processors 
Association (WCSPA). Our Association represents shore-based seafood 
processing companies and associated businesses that are primarily 
located in Oregon, Washington, and California. Collectively, our 
members handle the majority of Pacific groundfish landed on the west 
coast, along with significant amounts of Pacific sardines, albacore 
tuna, and Pacific salmon--all species managed under the Magnuson-
Stevens Fishery Conservation and Management Act (MSFCMA). In addition, 
our members process the majority of the Pacific shrimp and much of the 
Dungeness crab landed in west coast states, species that are managed 
under state authority. Our members range from literal mom and pop 
operations to some of the largest seafood companies in the United 
States and employ thousands of workers in harvesting, processing, 
transporting, and distributing seafood across the country and 
throughout the world.
    The Pacific Fishery Management Council has four fishery management 
plans in place that generally regulate the fisheries that occur in 
federal waters: Coastal Pelagic Species (primarily sardines, anchovies, 
squid, and mackerel); Pacific Salmon; Highly Migratory Species 
(albacore and other tunas, most pelagic sharks); and Pacific Groundfish 
(including Pacific whiting or hake). However as we all know, neither 
fish nor those who attempt to catch them all live in discrete 
jurisdictional areas. Thus for many fishery management actions, there 
is significant involvement with state fish and wildlife agencies, 
tribal fishery managers (several coastal tribes have judicially 
recognized tribal fishing rights that extend into portions of the 
exclusive economic zone), international fishery management 
organizations, and bilateral entities. We have five extensive National 
Marine Sanctuaries off our coast, which requires interaction with 
NOAA's National Ocean Service. While there is very little ocean hydro-
carbon extraction other than in some California state waters, we have a 
developing marine hydrokinetic energy (wind, wave, and current) 
industry that potentially can compete with fish harvesters for space in 
the ocean. Our anadromous species are affected by competing claims to 
water rights and the need to balance fishing, farming, power, flood 
control, and navigation issues on our major rivers. We have several 
different ESA-listed species--marine, anadromous, and amphibious--to 
avoid. And we have several hundred thousand marine mammals to contend 
with, including those that are happily devouring some of the afore-
mentioned ESA-listed species.
    Add to this mix the requirements of the National Environmental 
Policy Act, the Administrative Procedures Act, and several federal 
court rulings and you can see why fisheries management on the west 
coast is challenging, to say the least.
    That is also why it is essential that the MSFCMA provide our 
fisheries managers with the maximum amount of flexibility consistent 
with sound science and reasonably prudent conservation.
Flexibility in Rebuilding
    First and foremost on the need for flexibility in the Pacific 
Council area is a revision of section 304(e)(4) of the MSFCMA. Since 
enactment of this section in 1997, ten species have been designated as 
overfished under the Pacific Groundfish Fishery Management Plan. Three 
of those species fell within the 10-year rebuilding requirement and the 
rest have been exceptions due to the biology of the species. Two of the 
short-lived and one of the long-lived species have been fully rebuilt; 
the rest continue to act as ``choke'' species that hamper the harvest 
of abundant fish stocks.
    Aside from the arbitrary time frame allowed for rebuilding under 
normal circumstances--10 years is not any magic number given the vast 
differences in habitat, life history, and environmental conditions for 
fish stocks around the nation--our biggest problem results from a 9th 
Circuit Court opinion on how the language in this section is to be 
applied. Ruling on a case contesting the harvest levels set for the 
2002 groundfish fishery, the court said the following:
        ``Section 1854 contains two significant mandates that constrain 
        the Agency's options in adopting a rebuilding plan for an 
        overfished species. First, the time period must be ``as short 
        as possible,'' although the Agency may take into account the 
        status and biology of the overfished species and the needs of 
        fishing communities.''
    The practical effect of this ruling is that in setting catch levels 
for overfished species we must start with an assumption of zero fishing 
and incrementally add harvest amounts until we reach the point that is 
one step above economic devastation for fishing communities. This has 
led to absurdities where the Council has been forced to choose lower 
harvest limits even though analysis provided by its Scientific and 
Statistical Committee shows that a higher limit would allow rebuilding 
in the same year, albeit a few months later than the lower limit. In 
two cases involving harvest levels for 2013--canary rockfish and 
darkblotched rockfish--this was a difference of 30 metric tons, a 
considerable disparity for species that are managed along the entire 
coast and must be shared by commercial, sport, and tribal fishermen. To 
put this in context, 30 metric tons of Canary Rockfish is 75% of the 
entire groundfish trawl allocation for that species for 2013. While the 
direct landed value of those fish is not significant, the indirect 
value is enormous: having more incidental species available would 
provide additional opportunity for commercial, sport and tribal 
harvesters to access abundant stocks of fish that currently go 
unharvested due to the choke species effect.
    One way to resolve this issue would be to modify the existing 
language in section 304(e)(4)(i) to require rebuilding in a time period 
that is ``as short as practicable.'' The intent of this change is not 
to allow fisheries managers unfettered permission to set harvest levels 
wherever they choose; rather, it lets them exercise some reasonable 
judgment so they could--for example--allow a fish stock to be rebuilt 
in December rather than January, which were the choices available for 
canary rockfish harvest this year.
    A second problem exists with NMFS' interpretation of the MSFCMA. 
Under the National Standard 1 guidelines, a stock is considered 
overfished if it is below its minimum stock size threshold (MSST). Once 
designated as overfished, a rebuilding plan must be put in place and 
that rebuilding plan must remain in effect until the stock reaches a 
level equivalent to maximum sustainable yield (MSY). Essentially, you 
assume a direct correlation between the level of harvest and stock 
size. While this sounds great in theory, in fact there are a whole lot 
of things that influence stock growth, including our inability to 
accurately measure stock size.
    The National Standard 1 guidelines also suggest that a Council put 
in place a system to establish and if necessary reduce harvest levels 
when a stock is someplace between MSST and MSY. This is generally known 
as a control rule and it is designed to correct for stock size 
reductions when a stock declines for whatever reason. However, while we 
are told to use the control rule if a stock is on the way down, we are 
not allowed to use that same control rule once a stock dips below MSST 
and is designated as overfished, even if it rebuilds to a point between 
MSST and MSY where normally it would fall under that control rule.
    Ironically, NMFS essentially ignores this disconnect when they are 
reporting to Congress on status of stocks. For a Council and its 
constituent fishermen, a stock is overfished once it dips below MSST 
and stays overfished (and subject to a rebuilding plan) until it hits 
MSY. For NMFS, once a stock gets above MSST, it is no longer 
overfished, it is ``rebuilding.'' While this sounds great in the media 
bites, it doesn't help the fisherman or processor who is trying to make 
a living.
    Again, if we had the flexibility to switch from a rebuilding plan 
to an established, scientifically recommended and legally approved 
control rule, we could provide some relief.
    A third problem resides with the arbitrary 10 year maximum 
rebuilding time for species that don't meet certain exceptions. In the 
Pacific Council region, this has not been an overwhelming problem yet 
as most of our overfished species are long lived and do meet the 
exceptions. However, we cannot in good conscience support continued 
reliance on a number that was picked to apply nationally because some 
scientists theorized that was how long it would take George's Bank cod 
stocks to rebuild. And as you may have noticed, their theories were 
wrong.
    Let me conclude my remarks on this aspect of the MSFCMA by 
emphasizing that we are not advocating an end to efforts to rebuild 
stocks nor do we suggest that catch limits on overfished--or even 
healthy--stocks be set as high as anyone wants. All we are suggesting 
is that there be some practical application of the rules and that our 
fisheries managers have the flexibility they need to deal with unique 
circumstances.
Flexibility in Annual Catch Limits
    We think catch limits are an excellent idea; in fact we have used 
them long before they were required under the MSFCMA. While we may 
argue about what the level of allowable catch might be at any given 
time, the concept is a good one, keeping in mind that there are some 
very short lived species where setting a limit makes little sense if 
you have other rules in place to adequately protect stock productivity.
    Where we believe flexibility would help is in the concept of 
``annual'' catch limits. As required by law, a catch limit must be set 
for each fishing year (however that period is defined in a fishery 
management plan). If you have a biennial plan, you still must establish 
a catch limit for each of the two years, no exceptions. We believe some 
latitude should be provided so you could have a multiple year period in 
which an overall limit would be set but annual harvest could fluctuate 
based on fishing conditions, market conditions, weather, water 
temperature, and any of the multitudes of other variables that affect 
harvest. Obviously, such a multi-year program would require rigorous 
scientific analysis, sufficient survey or other data gathering 
capabilities, and robust stock assessments. However, if the proper 
scientific constraints are in place, we see no reason to specify that 
harvest levels must be set each and every year.
Overfished vs. Overfishing
    Under section 3(34), these two terms are given the same definition. 
In reality, they are not the same thing and the responses to each of 
them should be different. Further, the inappropriate use of these terms 
unfairly maligns the commercial, sport, and tribal fishing sectors, 
especially when reported in the media.
    ``Overfishing'' refers to how hard you are fishing. If you are 
overfishing, you are catching fish faster than stocks can replenish 
themselves. ``Overfished'' refers to how many fish you have in a stock 
relative to a number that can sustain that stock and may bear no 
relationship to the level or rate of harvest. For example, a stock 
might be subject to minimal or even zero fishing yet still become 
overfished due to predation, disease, changes in water temperature, or 
lowered ocean productivity. Yet when the public is told that a stock is 
overfished, it's the fisherman who gets the blame.
    We recommend the MSFCMA be amended to provide separate and 
appropriate definitions for these two terms. Further, we suggest a more 
accurate term such as ``depleted'' be adopted to replace ``overfished'' 
as was recently recommended in a paper presented by Dr. Andre Punt of 
the University of Washington at the ``Managing Our Nation's Fisheries'' 
conference.
Relationship Between the MSFCMA and Other Laws
    One of the biggest procedural headaches we face in the Pacific 
Council area is the dual and mainly redundant requirement to comply 
with the process requirements of the National Environmental Policy Act 
(NEPA) while simultaneously ensuring that the proper scientific 
analysis and public transparency required by the MSFCMA are followed.
    How bad is the problem? While this hearing is being convened, the 
Pacific Council is starting its September meeting. At that meeting, the 
Council will begin the formal decision-making process for harvest 
levels and associated management measures for Pacific groundfish that 
will go into effect in 2015 and 2016. They will be using the most up-
to-date stock assessments available, which means at best looking at 
data collected through 2012. In other words, by the end of 2016 we will 
be managing our fisheries--in the best case scenario--based on 4-year-
old data. For those species where a current stock assessment is not 
available, the basic data will be even older.
    Obviously, if we had all the money and people we needed, our data 
collection and analysis would be up-to-the minute on every one of the 
100+ species currently covered by the Pacific groundfish fishery 
management plan. Nevertheless, it shouldn't take 15 months to put in 
place regulations for a fishery, no matter how good or bad our data may 
be. Unfortunately, the reason it takes so long is that we are required 
to meet the processes and timelines of both the MSFCMA and NEPA.
    To offer another example of how bureaucratically silly this gets, 
several years ago the Council--with the full support of both the 
fishing community and environmental groups--wanted to establish a depth 
based management line that would expand a closed area in order to 
protect a sensitive stock of fish. The line would have gone into effect 
in the middle of a fishing year. The MSFCMA said we could do that, and 
in fact it encourages such conservation measures. Our fishery 
management plan said we could do it. But the lawyers said we couldn't. 
Why? Because we had not appropriately analyzed the possibility of 
establishing that precise depth line in the environmental impact 
statement that accompanied the regulations that went into effect at the 
beginning of the fishing year. We could establish a deeper line 
offering less protection. We could establish a shallower line to 
protect far more water than needed and result in adverse impacts to 
commercial and recreational fishing. But we couldn't establish the line 
that would work and would make sense.
    While we have now fixed that particular problem--the committee 
would no doubt be amazed at the number of depth lines that have been 
excruciatingly analyzed under NEPA--the underlying problem remains and 
needs to be fixed.
    The MSFCMA provides for rigorous scientific analysis and 
documentation of decisions. Councils--both at their own meetings and 
through their required advisory committees--provide significant 
opportunities for public comment. Council material is readily available 
to the public and Council meetings are recorded and often live web-
cast. Post-Council regulatory actions by NMFS are guided by the 
Administrative Procedures Act and provide for even more public 
participation. The Councils, their advisors, the public, and NMFS have 
a full set of economic and environmental data available before 
decisions are made, with trade-offs fully recognized. These are the 
same things that are required by NEPA.
    In 2006, when Congress last amended the MSFCMA, an environmental 
review process provision was added under section 304 to conform 
timelines and procedures under NEPA and the MSFCMA. Seven years later, 
no effective process has been put in place. It's past time to fix the 
problem so we can go about conserving and managing fish stocks, not 
worrying about paperwork.
    A second problem we have in the Pacific Council area regarding the 
relationship to other laws is the lack of clarity and disputed 
jurisdiction between the MSFCMA fishery management system and the 
National Marine Sanctuaries Act (NMSA).
    As mentioned above, we have five National Marine Sanctuaries off 
the west coast. At issue is who controls fishing within those 
sanctuaries and under what process. As currently interpreted by NOAA--
which is the overarching agency for both NMFS and the National Marine 
Sanctuary program--a Sanctuary that wishes to do something involving 
fishing will first invite the Council to develop regulations. If the 
Council doesn't do so, can't do so quickly enough because of the 
lengthy Council decision-making process established to ensure public 
participation and exacerbated by NEPA requirements, or simply does 
something the Sanctuary doesn't like, then the Sanctuary can go ahead 
and do what it wants as long as it is consistent with the NMSA and the 
Sanctuary's own designation documents.
    To date--other than in one egregious case involving the Channel 
Islands National Marine Sanctuary where some brilliant legal mind 
decided the Council had jurisdiction over the ocean floor and possibly 
the surface of the ocean, but not the water column itself--we have 
maintained a somewhat uneasy truce with the Sanctuary program. However, 
many in the commercial, sport, and tribal fishing sectors would like to 
see the law amended to make clear that when it comes to regulations 
affecting fishing--including the establishment of closed areas--the 
MSFCMA process will be the one used. We hope the committee will 
strongly consider this as they move forward with a reauthorization 
bill.
Sustainability
    Many of us in the seafood industry are becoming increasingly 
concerned that the only seafood products considered ``sustainable'' by 
federal agencies are those certified as such by private companies and 
non-governmental organizations who maintain their own criteria and 
often their own political agendas. A recent example is the decision by 
the National Park Service to require its vendors to only provide and 
serve seafood which carries a certification label from the Marine 
Stewardship Council or is approved by the Monterey Bay Aquarium's 
Seafood Watch program. It is ironic that visitors to Crater Lakes 
National Park in Oregon will be unable to eat trawl-caught Oregon 
rockfish because those fish meet neither criterion even though they are 
subject to rigorous management under the MSFCMA.
    We suggest that the MSFCMA be amended to define sustainable seafood 
as any fish--or product produced therefrom--that has been legally 
harvested by a vessel of the United States under a fishery management 
plan approved under the MSFMCA, under an equivalent state law or 
regulation, or under an international agreement to which the United 
States is a party and which establishes conservation and management 
measures equivalent to those required by the MSFCMA. Further, the 
Secretary of Commerce should be given the authority to design and make 
available a label which may be used without charge to identify 
sustainable seafood.
Dungeness Crab Fishery
    Finally, I need to make mention of a provision of the MSFCMA that 
affects only the three Pacific coast states and which needs renewal. 
Section 306 note provides specific limited authority for the states of 
Washington, Oregon, and California to manage the Dungeness crab fishery 
in both their respective state waters and adjoining federal waters. 
This section was enacted in its original form in 1996 and slightly 
amended and renewed in 2006. It is currently set to expire in 2016.
    Our Pacific coast Dungeness crab fishery is a major success story, 
in no small part due to the cooperative management that is enabled by 
the provisions of this section. While there are--and always will be--
occasional minor disputes among fishermen and even state agencies, the 
resource overall is in good shape, the industry overall is economically 
healthy, we have excellent opportunities for sport harvest, and we have 
provisions for meeting treaty obligations to the four Washington State 
coastal tribes who have legally acknowledged fishing rights.
    At the last meeting of the Tri-State Dungeness Crab Committee 
earlier this year--the umbrella committee set up through the Pacific 
States Marine Fisheries Commission to coordinate crab research and 
management--there was unanimous support among crab fishermen, crab 
processors, and state fish and wildlife agencies for renewal of this 
section of the law. I expect similar support will be expressed when the 
full Marine Fisheries Commission meets later this month. We join all of 
those groups in asking that you extend this section indefinitely or at 
a minimum for another 10 years.
    Mr. Chairman, this concludes my testimony. We look forward to 
working with you, committee members, and committee staff in developing 
a thoughtful set of amendments to the MSFCMA that will provide our 
fisheries managers with the flexibility that they need to provide both 
fisheries harvest and appropriate science-based conservation of our 
fish stocks. I would be happy to answer any questions.
                                 ______
                                 
    The Chairman. And for purposes of introduction, I recognize 
the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you very much, Chairman Hastings, and 
Ranking Member DeFazio, for giving me the courtesy and this 
opportunity to participate in this important hearing and to 
introduce Vito Giacalone. He is a good friend and a Policy 
Director of the Northeast Seafood Coalition, which is located 
in Gloucester, Massachusetts, part of our district. And Vito 
was a third generation Gloucester fisherman and a founding 
board member of the Northeast Seafood Coalition. He is an 
active member of the community, and he also serves as the 
Executive Director of the Gloucester Fishing Community 
Preservation Fund.
    Alongside fishermen and their families in Gloucester, he 
has witnessed firsthand the devastating effect that regulatory 
decisions have had on the community and the industry in the 
last few years.
    As Vito will discuss, I am sure, in further detail, the 
Northeast multispecies groundfish fishery has suffered 
tremendously in the last several years, in no small part due to 
the inflexibility that has been built into the system designed 
to regulate an incredibly complex fishery. Fishermen in 
Gloucester and throughout New England are struggling to make 
ends meet following tremendous cuts in the groundfish stocks 
for this fishing year. Today's situation was foreseen by many, 
including the Secretary of Commerce, who declared the region's 
commercial fishery a disaster nearly 1 year ago.
    Vito has worked tirelessly with Federal and State lawmakers 
to ensure the voices of fishermen are heard. He has been 
testifying before other Congressional Committees as well and he 
has been raising awareness through very effective advocacy. 
Through his work on the Northeast Seafood Coalition, he has 
played a critical role in developing solutions to pretty 
complex fishery problems. I have been working with my 
colleagues and with Vito and with other members of the 
community to ensure that fishermen and their family get the 
support that they need.
    However, the current situation didn't have to transpire, 
and I believe that it can be avoided in the future. As Vito can 
attest, fishermen, above all others, have a vested interest in 
ensuring that the stocks remain at healthy levels. It is my 
hope that this hearing will make clear that the current rigid 
and often arbitrary regulations must be reconsidered and that 
the social and economic impact of fisheries management will be 
given equal attention to conservation measures.
    I want to thank Vito for all the work that he has done in 
the fishing industry and for the fishermen in New England and 
for joining us here today, and I look forward to his testimony 
and that of the other members of the panel.
    Again, thank you for your courtesy.
    The Chairman. Very good. You forgot to mention he is from 
an Irish family.
    Mr. Tierney. I was going to leave that to him.
    The Chairman. Mr. Giacalone, you are recognized for 5 
minutes.

STATEMENT OF VITO GIACALONE, POLICY DIRECTOR, NORTHEAST SEAFOOD 
                           COALITION

    Mr. Giacalone. Thank you, Mr. Chairman, distinguished 
members of the Committee. Thank you for this opportunity to 
share my thoughts on the reauthorization of the Magnuson-
Stevens Act. As an active fisherman and a policy director for 
the Northeast Seafood Coalition, I have been deeply involved in 
the process to implement key provisions to the Act as they 
relate to the Northeast Multispecies Fishery. The bottom line, 
Mr. Chairman, is that the current statute is not working for 
the Northeast Multispecies Fishery. The agency's narrow 
interpretation of the statute has made this worse, but 
fundamentally, the basic management strategy set forth in the 
statute places demands on science that far exceed its capacity 
in the case of Northeast groundfish.
    Mr. Chairman, we greatly appreciate the recommendations 
presented by Mr. Sullivan on behalf of the National Research 
Council Committee. In many ways, it feels like our fishery is 
the poster child for their findings and recommendations.
    Georges Bank and Gulf of Maine ecosystems are highly 
dynamic and perhaps less stable an environment than was 
contemplated in the statute or reflected in the agency's 
interpretations and implementation. As noted repeatedly in the 
NRC report and stated throughout my written testimony, stock 
recruitment, individual growth, and natural mortality are 
biological parameters over which man has no control that are 
highly susceptible to environmental and ecological conditions.
    As the NRC noted in their report, quote, ``While the 
Committee attributes some of the variable of mixed performance 
of rebuilding plants to scientific uncertainty, this should not 
be interpreted as a criticism of the science. It often reflects 
a mismatch between policymakers' expectations for scientific 
precision and the inherent limits of science because of data 
limitations and the complex dynamics of ecosystems,'' unquote.
    A timeframe-based rebuilding strategy depends on relative 
stability and thus predictability of population parameters that 
cannot be controlled. In our fishery, none of that stability or 
predictability exists; therefore, it should not be expected 
that each assessment is reflective of the actual level of 
change occurring in nature, yet we have nothing in place 
currently that allows managers the flexibility to buffer 
management responses in either direction to account for the 
known volatility and assessment results.
    We also have nothing in place that adequately buffers the 
severe social and economic cost of being wrong. The most 
profound cost of accepting assessment results that are known to 
be volatile and rife with uncertainties is the instability 
suffered by small businesses in the fishery.
    If we are to succeed in managing these stocks to achieve a 
sustainable resource and a sustainable fishery, then we will 
need fundamental revisions of the Act as part of a longer-term 
strategy. In our view, section 304(e)(4), rebuilding policy, 
should be expanded to provide the councils with such authority 
to implement alternative rebuilding strategies, such as an F-
based strategy. Although it may not be necessary or desirable 
to use an F-based strategy to rebuild and prevent overfishing a 
stock in all cases, it certainly may be the only realistic 
alternative for some stocks and fisheries. Let's add that tool 
to the toolbox.
    One such F-based strategy is to set ACLs at or below the 
fishing mortality that which will achieve MSY, known as FMSY. 
This strategy will, by definition, prevent overfishing and 
will, over time, on average, achieve BMSY, which is a fully 
rebuilt stock. Prudent management would be to allow managers 
the opportunity to smooth volatility inherent in individual 
stock assessments by providing them with the statutory tools 
that can buffer management responses in both directions.
    In my opinion, and from my experience, this would protect 
fish stocks from abrupt increases in ACLs that may later be 
found to be incorrect, while providing fishing businesses with 
the stability of more sensible and controlled downward 
management response mechanism. In doing so, we will provide 
some insurance against the cost of being wrong.
    The critical point is the need for stability and so there 
is good cause to provide the council with the flexibility to 
implement alternative management strategies that are not 
entirely founded on traditional stock assessments. Instead, 
authority should be provided in the statute and/or the National 
Standard 1 guidelines to assess the performance of stock's 
biomass over history in response to various catch levels to 
identify a so-called sweet spot where catch levels can be 
maintained at relatively stable levels over time. In such case, 
conservation gains would be achieved by forfeiting spikes in 
ACLs and thus provide a conservation offset for avoiding 
reductions in catch limits.
    Finally, Mr. Chairman, you specifically asked in your 
letter and invitation that I provide examples of instances 
where the interpretation of the Act may have created undue 
hardship and whether changes to the Act should be considered to 
address these concerns. I provided one such example in my 
written testimony and would be happy to answer any questions 
you or members of the Committee may have regarding our efforts 
to use interim measures on the authority for Gulf of Maine cod.
    Mr. Chairman, distinguished members of this Committee, I 
would be remiss not to remind you of the immediate reality. All 
of the long-term policy improvements in the world are not going 
to matter much if there aren't many people left standing when 
they are implemented. We are in the midst of a crisis that 
needs immediate attention. Nothing short of an appropriation 
for disaster relief will rebuild the bridge sufficient to 
sustain the New England fishing industry. Thank you for this 
opportunity to address you directly. I am happy to answer any 
questions.
    The Chairman. Thank you very much, Mr. Giacalone, for your 
testimony.
    [The prepared statement of Mr. Giacalone follows:]

          Statement of Vito Giacalone, Gloucester Fisherman, 
            and Policy Director, Northeast Seafood Coalition

Introduction:
    Mr. Chairman, distinguished Members of the Committee, thank you for 
the opportunity to testify at this important hearing. I am Vito 
Giacalone. I am a third generation fishermen from Gloucester 
Massachusetts and I serve as the Policy Director for the Northeast 
Seafood Coalition (NSC).
    Approximately 361 small fishing businesses and shoreside 
enterprises are members of the NSC. Our fishermen belong to 12 NSC-
sponsored sectors which account for approximately 67 percent of the 
groundfish allocations. NSC has been a leading voice in groundfish 
management policy since its founding in 2002.
Problem:
    The current statute does not work for the Northeast (NE) multi-
species (groundfish) fishery.
    The agency's narrow interpretation of the statute has made this 
worse; but fundamentally, the basic management strategy set forth in 
the statute places demands on science that far exceed its capacity in 
the case of NE groundfish. I believe this is due in part to the 
inherent and perhaps increasing instability in the physical and 
biological elements of the ecosystems in which our fisheries operate.
    As noted repeatedly in the recently released National Research 
Council's (NRC) Committee on Evaluating the Effectiveness of Stock 
Rebuilding Plans of the 2006 Fishery Conservation and Management 
Reauthorization Act:
        ``While the Committee attributes some of the variable or mixed 
        performance of rebuilding plans to scientific uncertainty, this 
        should not be interpreted as a criticism of the science. It 
        often reflects a mismatch between policy makers' expectations 
        for scientific precision and the inherent limits of science 
        because of data limitations and the complex dynamics of 
        ecosystems.''
    Rapidly changing water temperatures and other aspects of the 
physical oceanography in our region are now driving a highly dynamic 
biological environment. Everything from primary plankton productivity 
to species distributions and interactions are affected at all trophic 
levels. We are seeing dramatic changes. But, we've seen them before and 
we've seen our stocks follow cycles that clearly have nothing to do 
with fishing mortality. It's a very dynamic place.
    With respect to the Gulf of Maine (GOM) and Georges Bank (GB) 
ecosystems I am familiar with, it appears that recruitment, individual 
growth and the natural mortality rate play a far greater role in 
determining the future status of a groundfish stock than our regulation 
of the fishing mortality rate. These three biological parameters (over 
which man has no control) are highly susceptible to environmental and 
ecological conditions. And so it follows, the less stable environmental 
and ecological conditions are, the less stable recruitment, growth and 
natural mortality will be.
    These known and highly variable conditions also affect system 
carrying capacity, facilitate regime shifts associated with inter-stock 
complex competitions within that variable carrying capacity, and in the 
case of our multi-species complex, intra-complex competitions. Yet, 
none of these realities are reflected adequately in the current single 
stock management strategy currently required by the Act.
    The NRC report notes:
        ``In nature, growth, maturity, and natural mortality are 
        influenced by interactions with other species that may be 
        competitors, predators, or prey.''
    The GB and GOM marine ecosystems are highly dynamic and perhaps 
less stable an environment than was contemplated in statute or 
reflected in the agency's interpretations and implementation.
    And, with this instability comes unpredictability. In our case, 
we're talking profound unpredictability. Some managers and scientists 
like to dismiss this as mere `uncertainty'. In truth, it's hard cold 
unpredictability.
    But, the current statute is founded on predictability. It depends 
on the ability of science to predict future levels of recruitment, 
growth and natural mortality, and, worse, to predict exactly when those 
levels will occur.
    And, then, it requires managers and industry to commit to plans to 
control fishing mortality spanning specific timeframes that are 
entirely disconnected from the natural conditions that actually drive 
these dominant population parameters.
    For the NE groundfish complex I am now convinced it cannot be done.
    Given the dynamics and complexity of the GOM and GB ecosystems and 
environment, I'm not sure why we ever thought that this management 
strategy might work--that we could ever predict with sufficient 
precision how NE groundfish populations would behave in discrete 
timeframes when we can predict and control so little of what matters.
    So, why does the current statute appear to work relatively well in 
some other fisheries and not ours?
    It is surely not because we have failed to develop and abide by a 
responsible management regime. Our fishery operates under what is 
considered by some as the most progressive style of fishery management 
including hard total allowable catches (TACs) and a catch share system 
implemented in 2010.
    In the past decade we have not once exceeded our annual TACs but 
instead have substantially under-harvested the annual catch limits for 
most stocks.
    Yet with each stock assessment the scientists report back to us 
retrospectively that their predictions of biomass and fishing mortality 
rates were indeed incorrect. Often, substantially so--suddenly 
discovering overfishing long after the fact.
    Perhaps other fisheries operate in a physical and biological 
environment that is relatively more stable--or they target species that 
are less susceptible to environmental and ecological dynamics. If so, 
it would make the population dynamics of those fish stocks more 
predictable over time.
    All I can say for sure is that for our fishery, it simply hasn't 
worked. And that is a problem.
Solutions:
    About one year ago the Commerce Department declared a ``commercial 
fishery failure'' for our fishery--the Northeast Multispecies Fishery 
pursuant to the Magnuson-Stevens Act (MSA) and the Interjurisdictional 
Fisheries Act.
    This was 2 years after a declaration was first requested by 
Massachusetts Governor Patrick (November 2010). More recently, all of 
the NE Governors made this request.
    The disaster declaration finally came during the 2012 fishing year 
for which catch limits had already been drastically reduced for stocks 
that are the core of the economic engine that runs this fishery and our 
communities.
    That preceded the additional and even greater reductions in this 
fishing year 2013 which included a 61 percent reduction in GB cod and a 
78 percent reduction in GOM cod catch limits, for example.
    It's been a veritable ``perfect storm'' of circumstances the effect 
of which on our fishermen--their businesses, families and communities--
has been nothing less than catastrophic.
    Many fishermen are not only facing the loss of their profession and 
the source of their income, they are also facing the loss of their 
homes which have been mortgaged to support their businesses.
    This scientific unpredictability and dramatic swings in perceived 
stock abundance have completely confounded fishery management and every 
aspect of our fishing industry and community. We are perilously close 
to losing the oldest fishery in America which was at the core of our 
colonial economy four centuries ago and is still at the core of our 
communities today.
    There are--or were--both short and long term solutions.
1. Short Term Mitigation
    What we needed when these declines began to escalate was a 
relatively short term bridge to mitigate their impacts and keep the 
fishery afloat until longer term strategies could be put into place 
and/or the biological situation changed.
    And so, in advance of the FY 2012 season and during the time the 
Commerce Department was considering the fishery disaster declaration, 
NSC was already working on developing management strategies based on 
what we felt were inherent flexibilities built into the statute by 
Congress to enable fishery managers to mitigate the impacts of this 
very kind of situation.
    Among the most important of these was the application of Magnuson-
Stevens Act (MSA) section 304(e)(6) authority to implement interim 
measures on a temporary basis to reduce overfishing rather than end it 
immediately.
    The intent was to soften the landing from such drastic swings in 
estimated abundance from one stock assessment to another. In fact, the 
2008 stock assessment for GOM cod indicated that the stock was well 
above the MSST and would likely be fully rebuilt well before the final 
year of the rebuilding plan. Three years later, the 2011 assessment 
indicated the stock was nowhere near the levels previously estimated 
and that in fact, the new perception of stock status was determined to 
be far below MSST and biologically incapable of rebuilding by the 
rebuilding plan deadline of 2014.
    Which assessment was correct? Perhaps neither, but the reality is 
that under the current interpretation and implementation of the 
Magnuson-Stevens Reauthorization Act (MSRA) the most recent assessment 
is considered ``best available'' and the management response has been 
catastrophic for the industry and dependent communities.
    The GOM cod stock is a prime example of why the current MSA and 
management implementation is untenable to sustaining fish and fishing 
communities simultaneously. This cod stock has been managed and 
monitored closely for nearly two decades. The fishery has managed 
within the recommended TACs since the inception of the rebuilding 
program which was revised in 2004. In 2010 the fishery converted to a 
full possession, catch share program that was monitored both at sea (up 
to 38 percent) and dockside (50 percent) and fishing mortality rates 
set far below Frebuild on GOM cod because the control rule of 75 
percent of Fmsy was nearly 30 percent lower than Frebuild due to the 
optimistic 2008 assessment. The policy in place under the National 
Standard 1 Guidelines directs managers to use Frebuild or 75 percent of 
Fmsy, whichever is lower.
    Imagine the disruption that has occurred in the Northeast region 
when seemingly out of the blue, after nearly a decade of strictly 
adhering to catch limits and being told that the stock was about to be 
fully rebuilt in only the 8 year of a 10 year rebuilding period, the 
fishery is presented with the 2011 assessment results that has 
prescribed 90 percent reductions over just the last 2 fishing years.
    Just as no fish stock should be subjected to a 90 percent increase 
in fishing pressure simply because our most recent scientific 
``perception'' of a stock seems to warrant such increased pressure, no 
fishing business or dependent fishery infrastructure should be 
subjected to abrupt and steep reductions in catch levels to the 
magnitude presented to our fishery over the years.
    This volatility is inherent in the assessment methodologies given 
the limitations of scientific resources and knowledge we have today.
    The volatility present in the scientific recommendations is 
typically not reflective of the actual level of change occurring in 
nature, yet we have nothing in place currently that allows managers the 
flexibility to buffer management responses, in either direction, to 
account for the known volatility in assessment results. We also have 
nothing in place that adequately buffers the severe social and economic 
costs of being wrong. The most profound costs of accepting assessment 
results that are known to be volatile and rife with uncertainties is 
the instability suffered by small businesses in our fishery.
    In the case of GOM cod, the sudden drop off of catch advice and 
stark differences in the two assessments placed the vast majority of 
fishery participants in serious financial peril. We needed a bridge--
some stability.
    I should note Mr. Chairman that perhaps our primary goal above 
all--and maybe for us it is only a dream--is stability. For our fishing 
businesses to succeed, we need a stable fishery management regime. An 
interim measure would help provide this stability.
    NSC developed and presented to the New England Fishery Management 
Council (Council) and NMFS leadership an analysis that indicated this 
interim measures authority could be applied to GOM cod in Fishing Year 
2012--the most important stock in the Gulf of Maine.
    Although unprecedented in U.S. fisheries management, both the 
Council and NMFS accepted and approved this approach which enabled a 
catch that reduced overfishing but which could help avoid a collapse of 
the Gulf of Maine fishery.
    This action provided the crucial beginnings of a bridge and 
stability for 1 year. It was a major achievement of collaboration and 
cooperation among the agency leadership, the Council and the industry. 
Being that it was an NSC initiative, we were very pleased.
    After that things went downhill.
    Although the statute, specifically MSA section 304(e)(3), clearly 
contemplates a 2-year process for the Councils to prepare and implement 
rebuilding plans--and although a coherent, logical interpretation of 
MSA sections 304(e)(6) and 305(c)(3) is to provide authority for the 
Councils to request (and for the agency to approve) a separate, 
sequential interim measure for the second year of that 2 year process--
the agency refused to approve the Council's request for this authority.
    It made no sense. Essentially, the agency said that it was OK to 
build a bridge half way across the harbor but then we had to jump to 
our deaths instead of finishing the bridge. This for a fishery they had 
just declared as a disaster.
    To add insult to injury, the agency refused to provide us with 
their legal rationale--their interpretation of the statute--by 
asserting attorney client privilege as a means to avoid a serious 
explanation or accountability for their decision.
    Given the magnitude of the consequences, we still find both their 
rejection of the Council's request and the refusal to share their legal 
justification simply incredible.
    Mr. Chairman, you specifically asked in your letter of invitation 
that I provide examples of ``instances where the interpretation of the 
Act may have created undue hardship and whether changes to the Act 
should be considered to address these concerns''.
    This is precisely one such an example. And, while it is probably 
too late now for the affected fishermen, it may be worth clarifying in 
legislation that a second, sequential interim measure can be 
implemented under MSA 305(c)(3) for the purpose of implementing the MSA 
section 304(e)(6) authority should this be needed in the future.
    In addition, and perhaps more far reaching would be for Congress to 
expressly prohibit the agency from hiding behind attorney client 
privilege when disapproving a Council request for interim measures--or 
any other Council action for that matter. It had been our understanding 
that Congress had already made clear its intent for the agency to fully 
explain the legal basis for disapproving a Council action under the MSA 
(see section 304(a)(3)). Maybe this needs further clarification.
    Mr. Chairman, the GOM cod situation provides a perfect example of 
how existing flexibility in the statute was not used by the agency to 
the great detriment of our industry.
    However, the fact remains that our fishery disaster is the product 
of steeply reduced Annual Catch Limits (ACL) on a long list of stocks 
affecting every component of the NE fishery. Due to the stringent 
qualification requirements of Section 304(e), only GOM cod met the 
criteria to be eligible for interim measures to temporarily reduce 
rather than end overfishing immediately. For our fishery, GB yellowtail 
flounder received a 90 percent and four other key stocks received ACL 
reductions in excess of 50 percent. Currently, there exists no 
flexibility in the Act to address the severe costs of allowing 
management responses to mirror assessment results instantaneously.
    Prudent management would be to allow managers the opportunity to 
smooth the volatility inherent in individual stock assessments by 
providing them with statutory tools that can buffer management 
responses in both directions. In my opinion and from my experience, 
this would protect fish stocks from abrupt increases in ACL that may 
later be found to be incorrect, while providing fishing businesses with 
the stability of a more sensible and controlled downward management 
response mechanism. In doing so, we will provide some insurance against 
the costs of being wrong.
    If we are to succeed in managing these stocks to achieve a 
sustainable resource and a sustainable fishery then we will need 
fundamental revisions of the Act as part of a longer term strategy.
2. Long Term Strategies
    The fishery management community and policy makers have long 
expressed the need for additional tools in the tool box to give the 
Councils the ability to tailor their management strategies to the 
peculiar realities of their region and fisheries. However, with respect 
to a rebuilding strategy, the statute today only provides one tool in 
the toolbox. This sole strategy is based on trying to do whatever 
necessary to rebuild a stock to a pre-determined biomass within a 
specified timeframe.
    However, a timeframe-based rebuilding strategy depends on relative 
stability and, thus, predictability of population parameters including 
recruitment, growth and natural mortality that cannot be controlled. In 
our fishery, none of that stability or predictability exists. As stable 
as other ecosystems and as predictable as other stocks may be, ours are 
not. While a timeframe-based rebuilding strategy has worked for many 
stocks across the nation, it simply has not worked for our fishery. We 
do not think that strategy should be eliminated from the statute as 
some have suggested, but we do think Congress should provide additional 
authority for the Council to implement alternative strategies for 
achieving the fundamental goals of preventing overfishing and 
rebuilding overfished stocks.
    One such strategy is to set ACLs at or below the fishing mortality 
rate that will achieve MSY (Fmsy). This strategy will, by definition, 
prevent overfishing and will over time on average achieve Bmsy--a 
rebuilt stock. But, it will achieve that rebuilding according to the 
timeframe and to a biomass that reflects the prevailing ecological and 
environmental conditions. Man cannot dictate those conditions and so 
cannot reliably predict much less dictate when a stock will rebuild, 
particularly when there is great instability in those conditions.
    In our view, section 304(e)(4) rebuilding policy should be expanded 
to provide the Council with such authority to implement alternative 
rebuilding strategies--perhaps if and when certain conditions or 
circumstances exist. It may not be necessary or desirable to use an F-
based strategy to rebuild and prevent overfishing a stock in all cases, 
but it certainly maybe the only realistic alternative for some stocks 
and fisheries. Let's add that tool to the toolbox.
    Another alternative interpretation or desirable modification of the 
statute might be to allow for multi-year evaluations of ``overfishing'' 
and perhaps even the ``overfished'' threshold as those terms are 
defined in section 3(34) of the Act. Could a 3-year rolling average of 
the fishing mortality rate replace the current one-year approach for 
evaluating whether overfishing is occurring? Would that approach 
``jeopardize the capacity of a fishery to produce MSY on a continuing 
basis''? This may be a very important source of flexibility that 
already exists in the Act but for the Agency's interpretation now set 
forth in the National Standard 1 Guidelines.
    Similarly, is it always necessary and desirable to trigger a full-
blown rebuilding plan response when a stock biomass falls below the 
overfished threshold in one single year? Would a multi-year evaluation 
of stock biomass ``jeopardize'' the fishery?
    Such multi-year evaluations coupled with a moderated management 
response to stock performance would go a long way towards achieving the 
``holy grail'' for NE groundfish--stability. These were among the 
concepts NSC included in its comments on the National Standard 1 
Guidelines revision now under consideration by the Agency.
    Further to this need for stability, there is good cause to provide 
the Council with the flexibility to implement alternative management 
strategies that are not entirely founded on traditional stock 
assessments. Such assessments are often based on statistical models 
that can provide reliable estimates of relative abundance and a trend 
in the status of a stock, but can be very poor in supporting specific, 
point-in-time quantitative estimates of abundance and the resulting 
setting of catch limits. This is precisely our experience for many 
critical NE groundfish stocks.
    Instead, authority should be provided in the statute (and/or the 
National Standard 1 Guidelines) to assess the performance of a stock's 
biomass over history in response to various catch levels to identify a 
so-called ``sweet spot'' where catch levels can be maintained at 
relatively stable levels over time. In such case, conservation gains 
would be achieved by sacrificing catch levels associated with dramatic 
highs in stock abundance and thus provide a conservation ``offset'' for 
avoiding severe reductions in catch limits when the stock biomass 
swings to a low level. Again, our experience with such seminal stocks 
as GOM cod and GB yellowtail flounder would have been much different 
had the Council utilized such an approach.
Summary:
    Mr. Chairman, we believe there are existing flexibilities in the 
statute that could be taken advantage of including through the revision 
of the National Standard 1 Guidelines. We also believe there are other 
sources of flexibility that need to be incorporated into the statute 
through your reauthorization process. We are certainly committed to 
working with you, the Committee and your staff to pursue long term 
alternative management strategies that are consistent with and 
responsive to what may be the unique realities of NE groundfish stocks 
and ecosystem. We want to see NE groundfish management work, but we 
can't see how under the current statutory framework.
    Having said that, our immediate reality is that all of the long 
term policy improvements in the world aren't going to matter much if 
there aren't any of us still standing when they are implemented. We are 
in the midst of a crisis that needs immediate attention.
    And so, while I realize this is outside of the scope of this 
Committee's jurisdiction, I must ask all of the Members of the 
Committee and the full House for their support of measures such as 
those included in the Senate FY 2014 appropriations to provide 
fisheries disaster assistance funding.
    To say that the future of our fishery is in your hands is an 
understatement. We need disaster assistance. It's the last hope for a 
bridge for the future of our fishery.
                                 ______
                                 
    The Chairman. I recognize Mr. Jeff Deem, who is with the 
Recreational Fishing Alliance. The gentleman is recognized for 
5 minutes.

                    STATEMENT OF JEFF DEEM, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Deem. Good morning, Mr. Chairman, and members of the 
Committee. Thank you for the opportunity to present this 
testimony on the need for flexibility and the reauthorization 
of the MSA. I am Jeff Deem, and although I have the honor of 
being one of Virginia's representatives on the Mid-Atlantic 
Fishery Management Council and on serving on various State 
level committees, I am here today to speak on behalf of the 
Recreational Fishing Alliance.
    We have been informed of the National Research Council's 
criticism of specific rebuilding time periods. I think that is 
very timely, and quite frankly, an understatement because our 
oceans are changing, especially in the Mid-Atlantic, in ways 
that we will not really understand for many years to come. Any 
attempt to set specific rebuilding time periods in the near 
future will be based on our current knowledgeof the ocean, 
which may have little to do with the ocean we are creating.
    I believe three of the most pressing examples of pending 
changes are, increasing ocean temperature. Whether this is 
caused by mankind or not, the fact is that fishermen and 
scientists are also telling us that the ocean temperatures are 
rising, and we are seeing the northerly movement of some 
species as they apparently search for cooler water 
temperatures. What effect this relocation will have on the 
status of any particular stock is unclear.
    Ocean acidification: Although global warming may ignite 
some vigorous debates, it is difficult to deny mankind's 
responsibility for the increasing carbon dioxide in the 
atmosphere and the resulting increase in ocean acidification. 
Although there are some studies under way, we are just 
beginning to analyze what effects these will have on any 
particular species' spawning, recruitment, reproductive 
capability or even the abundance of the species they rely on 
for forage.
    Offshore energy: The Bureau of Ocean Energy Management is 
projecting the installation of 20 gigawatts of wind turbines by 
2020 and 54 gigawatts by 2030. At 7 megawatts per turbine, that 
is 1,400 turbines by 2020 and 7,700 by 2030. We add to that oil 
and gas platforms, liquified natural gas terminals, piping, 
cabling, construction and support traffic, we are talking about 
significant physical changes in the ocean environment. We do 
not have the experience to know all of the questions these 
changes will raise, much less the answers.
    I have included five other substantial changes that are 
coming to our oceans in my written testimony for your 
consideration. These address protected species, ecosystem 
management, species we don't manage, invasive species, and then 
natural cycles of the fish stocks.
    One more point about flexibility, if I may. I believe the 
rigid timelines in the 1996 reauthorization resulted in the 
loss of hundreds, if not thousands, of jobs. It would have been 
far worse without the critical extension that Congress granted 
with the summer flounder fisheries. This flexibility not only 
kept people working but provided time for the science to 
improve. The original target stock size, excuse me, for this 
fishery set in 1996 was 338 million pounds. The numerous 
benchmark assessments performed over the 13-year period 
resulted in a determination that the stock could only support 
42 percent of the original stock target. As we witnessed, the 
science improved, but it is irresponsible to assume it is 
accurate enough to justify the socioeconomic damage that can be 
inflicted through mandatory deadlines.
    In closing, in the near future, now more than ever before, 
it appears that there will be far too many variables for us to 
make the finite long-term projections about what will or will 
not happen to any particular species. I would ask that you 
consider regulations which focus on turning around any fishery 
that is in decline and monitoring its progress. We need the 
flexibility to address whatever issues arise that impede that 
progress, whether the issues be one of those I have listed or 
one of the many this new ocean has yet to reveal. I have no 
doubt there will be many surprises in the midst of these 
changes. Thank you for your time and effort. If I can be of 
further assistance, please do not hesitate to ask.
    The Chairman. Thank you, Mr. Deem, for your testimony.
    [The prepared statement of Mr. Deem follows:]

 Statement of Jeff Deem, on Behalf of the Recreational Fishing Alliance

Introduction
    Good morning Mr. Chairman and Members of the Committee.
    Thank you for the opportunity to present testimony this morning on 
the need for flexibility in the re-authorization of the Magnuson-
Stevens Fishery Conservation and Management Act. I am Jeff Deem and 
although I have the honor of being one of Virginia's representatives on 
the Mid Atlantic Fisheries Management Council and various state level 
committees, I am here to speak on behalf of the Recreational Fishing 
Alliance. In these capacities, I have a responsibility to represent 
fishermen from my state while working to achieve balance between 
conservation goals mandated by the Magnuson Act and the needs of the 
fishing community.
    The premise that balance can be achieved between these two needs is 
reasonable and should be a defining principle of successful fisheries 
management. Yet, during my tenure on the Council, I have seen the 
implementation of some MSA mandates cause significant socioeconomic 
harm on the recreational fishing community while producing no 
conservation benefit. An example can been illustrated through the 
application of accountability measures and annual catch limits on the 
recreational fishing sector. The application of these management tools 
demands a timely, accurate and reliable data collection program. Even 
with improvements to MRFSS and the partial roll out of MRIP, no program 
currently exists which can responsibly or fairly enforce the 
accountability measures and annual catch limits on recreational 
anglers.
    Management objectives must be in line with the limitations of the 
data collection at the time and when there is a disconnect, the impacts 
on the recreational sector can be severe, i.e., red snapper, black sea 
bass, etc. That said, the Council just recently took action to address 
this shortcoming with the passage of the Omnibus Recreational 
Accountability Measure Amendment which will allow recreational catch 
limits to be evaluated in 3-year periods to account for the limitations 
of MRIP which is primarily designed to capture and estimate trends of 
recreational catch and harvest. Recreational fishing seasons will no 
longer be cut short through emergency action based on projected 
landings derived from preliminary estimates. Also, the amendment would 
take into account the status of the stock when applying accountability 
measures to the recreational sector. These are measures that will 
ultimately improve the management of recreational fisheries under 
Council jurisdiction and move federal management more toward achieving 
the balance mentioned above. It is my hope that the members of the 
Committee look to this recent action by the Mid Atlantic Fishery 
Management Council as you develop reauthorization priorities in the 
coming months and use this example to draft pragmatic revisions to 
sections in MSA that deal with the application of annual catch limits 
and accountability measures on the recreational fishing community.
    I believe it is critical that flexibility be part of the 
reauthorized MSA because our oceans are changing, especially in the 
Mid-Atlantic, in ways that we will not really understand for many years 
to come. It may be impossible to predict the long term effects of the 
pending changes on any particular species.
    I believe the most pressing examples are;
1. Increasing Ocean Temperatures:
    Whether this is caused by mankind or not is really not an issue in 
the discussion of flexibility. The fact is that fishermen and 
scientists are telling us that the ocean temperatures are rising and we 
are seeing the northerly movement of certain species as they apparently 
search for cooler water temperatures. What effect this relocation will 
have on the status of any particular stock is unclear. Adding to the 
uncertainty are other, less obvious, potential changes such as the 
timing of plankton blooms and juvenile production which currently 
coincide to some extent. Because many juvenile species rely on plankton 
as their first forage, the ability of juvenile fish to survive and 
stocks to flourish may be negatively effected if rising temperatures 
separate these two occurrences.
2. Ocean Acidification:
    While global warming may ignite some vigorous debates, it is much 
more difficult to deny mankind's responsibility for the increase in 
carbon dioxide in the atmosphere and the resulting increase in ocean 
acidification. Although there are some studies underway, we are just 
beginning to analyze what effect it will have on any particular 
species' spawning, recruitment, maturity or even the abundance of the 
species they rely on for forage.
3. Ecosystem Management Strategies:
    Most experts will agree that not all species can be at their peak 
at the same time. It is generally accepted that as we move into 
ecosystem management, we will be forced to decide which particular 
species are favored over others and then maintained at their peak 
abundance. As we begin to manage under an ecosystem model, what will we 
learn about species interactions and how will our potential management 
of those interactions affect our ability to set mandates and schedules 
for the growth of an individual stock? The only thing we can really be 
sure of is that the fish and other sea life will not always follow our 
schedules.
4. Protected Species:
    As we take measures to further protect mammals such as dolphins and 
whales, and numerous species of sharks such as great whites, how will 
we calculate the effect of their increasing abundance on a particular 
species we are trying to manage? The average dolphin weighs around 450 
lbs. and consumes 20 to 40 lbs. of forage a day. A 200 ton blue whale 
consumes 4 to 6 tons of forage a day. A great white shark may weigh up 
to 5,000 lbs. and consume 150 to 500 lbs. per day. If you can think of 
the ocean as an aquarium, how much confidence can you have in your 
projections of stock growth for other species when you are increasing 
the number of large predators?
5. Species Not Managed:
    For example, there has been a noticeable increase in the number of 
skates or rays in recent years. Some scientist tell me that the bycatch 
reduction steps we are taking to avoid taking protected species in nets 
and other gears also allow skates to escape. These and other un-managed 
species may compete with and feed upon the species we are trying to 
rebuild.
6. Invasive Species:
    Unfortunately, my home State of Virginia has two prime examples of 
the damage invasive and transplanted species can cause. Snakeheads and 
Mississippi catfish are having a substantial negative effect on the 
natural balance in our tidal rivers. These catfish are surprising even 
the experts with their ability to thrive in brackish waters where they 
devour crabs, small flounder and other native species. I would expect 
that they also consume a substantial portion of the herring and other 
species that inhabit our tidal rivers during their spawning migrations. 
How can our projections for any particular species account for these 
relatively new competitors and any others introduced during a fixed 
rebuilding time frame?
7. Natural Cycles of Fish Stocks:
    Last fall we witnessed a huge increase in the number of small red 
drum in the Chesapeake Bay, on Virginia's eastern shore and throughout 
much of the mid-Atlantic. This is great if red drum happens to be the 
species you are trying to rebuild, but if such a species rebuilds 
faster than expected and competes with or consumes other species we are 
trying to rebuild, how do we account for that without flexibility in 
our plans?
8. Offshore Energy:
    The Bureau of Ocean Energy Management is projecting the 
installation of 20 gigawatts of wind turbines by 2020 and 54 gigawatts 
by 2030. At 7 megawatts per turbine, that's 1,400 turbines by 2020 and 
7,700 by 2030. Add to that oil and gas platforms, liquified natural gas 
terminals, piping, cabling, construction and support traffic and we are 
talking about significant physical changes in the ocean environment. We 
do not yet have the experience to know:
    Which species will benefit and which will suffer?
    Will there be an increase in top level predators?
    Will the electrical fields generated by submerged power lines 
affect spawning or migration?
    How will the changes in wind flows affect the turning of the water 
at different depths and what effect will that have on our fish stocks?
    In the near future, more than ever before, it appears that there 
will be far too many variables for us to make finite, long term 
projections about what will or will not happen to any particular 
species.
    My testimony thus far has illustrated that the ocean and the marine 
resources within are extremely variable and influenced by many more 
uncontrollable factors than just fishing pressure. It is unrealistic to 
assume that fish stocks can be rebuilt or maintained without 
acknowledging these factors. Language included in the 1996 
reauthorization of MSA mandated very strict adherence to rebuilding 
timeframes and did not give fishery managers the ability to account for 
biological and environmental variable that may impact the speed at 
which a stock can rebuild. The scenario played out in the summer 
flounder fishery which was under a 10-year rebuilding timeframe. 
Tremendous progress had been made and the stock had reached historic 
levels of abundance. The rate of increase slowed during the final years 
of the rebuilding plan and the lack of flexibility forced managers to 
set fishing quotas so low that it was unlikely that directed fishing 
for summer flounder would be possible. In the final hours of the 
reauthorization, Congress allowed a 3-year extension to the summer 
flounder rebuilding timeframe which allowed the fishermen to retain 
reasonable access to the fishery. Ultimately the summer flounder stock 
was rebuilt on schedule and the rebuilding timeframe extension did not 
have any negative impact on the stock. This successful example 
illustrates that limited flexibility is a useful tool that should be 
afforded to all federally managed species.
    This extension was a success from the scientific perspective as 
well. This ``buffer'' not only kept people working but provided time 
for the science to improve. The original target stock size for this 
fishery set in 1996 was 338 million pounds of total stock biomass. The 
numerous benchmark assessments performed over this 13 year period 
resulted in a determination that the stock could only support a 
population of 132.4 million pounds of spawning stock biomass, which 
equates to about 143 million pounds of total stock biomass. That is 42 
percent of the original stock target. As we witnessed, the science is 
improving, but it is irresponsible to assume that it is accurate enough 
to justify the socioeconomic damage that can be inflicted through 
mandatory deadlines.
    In closing, I urge the members of the committee to incorporate 
limited flexibility in rebuilding fish stocks when deemed appropriate 
and when not a detriment to the overall conservation of the stock in 
question. Experience has shown that management flexibility can have 
both a positive impact on the fishing community and rebuilding 
objectives. In addition, the Committee needs to acknowledge that the 
limitations of recreational data collection programs and the failure of 
NOAA to fully implement section 401(g) of the 2006 reauthorization make 
it impossible to apply annual catch limits and accountability measures 
on the recreational sector in a fair and responsible manner. Currently, 
the recreational fishing community is being disadvantaged due to this 
inconsistent enforcement of MSA. I believe that H.R. 6350 the 
Transparent and Science-based Fishery Management Act of 2012 is a very 
good starting point as the Committee undertakes MSA reauthorization in 
the 2013 Congress.
    Thank your for this opportunity and the time and effort you and 
your staff have dedicated to protecting our resources and the citizens 
that rely upon them. If I can be of further assistance, please do not 
hesitate to contact me through the RFA.
                                 ______
                                 
    The Chairman. And I will recognize now Dr. John Bruno, 
professor of the Department of Biology at University of North 
Carolina.
    You are recognized for 5 minutes.

  STATEMENT OF JOHN F. BRUNO, PH.D., PROFESSOR, DEPARTMENT OF 
      BIOLOGY, UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL

    Dr. Bruno. Chairman Hastings, Ranking Member DeFazio, my 
name is John Bruno. I am a marine community ecologist and 
professor at the University of North Carolina at Chapel Hill. I 
appreciate the invitation to talk with you today about fishing 
and how it affects and is affected by the health of our oceans, 
and I thought I would offer a somewhat broader perspective.
    As you heard in other hearings and from other panelists and 
probably read in the recent National Research Council report, 
the Magnuson-Stevens Act is working and is helping to rebuild 
our highly depleted fisheries. It is an exaggeration to declare 
that overfishing has ended in America, but we are moving in the 
right direction. Yet the changes ahead of us present an even 
bigger challenge. Let's not squander the sacrifices that got us 
here by ignoring these growing problems.
    First, the loss of coastal habitats, including salt 
marshes, seagrass beds, and mangroves is profoundly affecting 
fisheries. Many fish depend on these habitats as nurseries and 
as adult feeding grounds, yet they are disappearing faster than 
rain forests. In North Carolina, we lost over 90 percent of our 
oyster reefs, and this has had a big impact on our fishes, like 
our flounder and our red drum.
    Second, we have learned that ocean warming due to 
greenhouse gas emissions is having a huge impact on fisheries. 
Ocean warming is depressing fish populations by killing their 
living habitats, like corral reefs in places like Hawaii and 
Puerto Rico and the Northern Mariana Islands, and is also 
causing fish to shift their geographic ranges to higher 
latitudes by nearly 200 miles per decade, so that is almost 20 
miles a year.
    Fisheries' productivity hot spots are moving, and fish 
composition is changing. We will be catching very different 
fish off Gloucester in 50 years than what we are catching there 
today. Ocean acidification will also challenge or outright 
destroy many fisheries, such as some of our most productive 
shellfish.
    Third, the dependence of most fisheries management on the 
theoretical concept of maximum sustainable yield is the 
underlying cause of overfishing, not the solution to it. 
Estimates of MSY are usually based on oceanographic conditions 
that don't even exist anymore. Restoring fish populations to 
MSY does not restore ecological function or maximize profits 
and is a highly risky strategy in a changing world. MSY also 
ignores critical interactions among species, which is a 
fundamental reason it has caused so many unanticipated 
problems. In short, maintaining fish populations at roughly 
one-third their natural density, which is what MSY prescribes 
and is also the current threshold for overfished, undercuts the 
social, ecological, and economic value of fish.
    To secure our hard-won gains, we need to invest in 
strategies that will stabilize fish populations for the long 
term. Critically, we need to ensure that we conserve very large 
females, the ones that produce the most and the healthiest 
offspring. Fully restoring fish populations in natural 
population structure would maximize profit, greatly reduce the 
effort and risk that goes into commercial fishing. It would 
improve opportunities for recreational fishermen. They would be 
catching more and much larger fish, and it would buy us 
insurance against warming and acidifying oceans.
    I think the MSA has done enormous good and should be 
reauthorized, but it is time to move beyond MSY and start 
managing fish based on their real value and in a whole 
ecosystem context. Climate change, habitat loss, and other 
factors that influence fish populations need to be considered 
explicitly in the Magnuson-Stevens Act. And fisheries 
management must recognize that the oceans are changing. We 
should be mitigating this change directly, tackling it head on 
and also building the resilience of our fishing communities and 
our marine ecosystems to it. Thank you very much.
    The Chairman. Thank you very much, Dr. Bruno.
    [The prepared statement of Dr. Bruno follows:]

  Statement of John F. Bruno, PhD, Professor, Department of Biology, 
            The University of North Carolina at Chapel Hill

    Chairman Hastings and Ranking Member DeFazio,
    My name is John Bruno and I am a marine community ecologist and 
Professor of Biology at The University of North Carolina at Chapel 
Hill.
    I appreciate the invitation to talk with you today about fishing 
and how it affects and is affected by the heath of our oceans and I 
thought I'd offer a somewhat broader perspective.
    As you have heard in other hearings and from other panelists and 
probably read in the recent report from the National Research Council, 
the Magnuson-Stevens Act is working and is helping to rebuild our 
highly depleted fish stocks. It is an exaggeration to declare that 
overfishing has ended in America, but we are moving in the right 
direction. Yet the changes ahead of us present an even bigger 
challenge. Let's not squander the sacrifices that got us here by 
ignoring these growing problems.
    First, the loss of coastal habitats including salt marshes, 
seagrass beds, and mangroves is profoundly affecting fisheries. Many 
fish depend on these habitats as nurseries and as adult feeding grounds 
yet they are disappearing faster than rain forests. In North Carolina 
we've lost over 90 percent of our oyster reefs and much of our coastal 
marshland. This has greatly impacted our fish like our flounder and red 
drum.
    Second, we've learned that ocean warming due to greenhouse gas 
emissions is having a huge impact on fisheries. Ocean warming is 
depressing fish populations by killing their living habitats like coral 
reefs. It is also causing fishes to shift their geographic ranges to 
higher latitudes by nearly 200 miles per decade.\1\ Fisheries 
productivity hot spots are also moving and fish composition is 
changing. We'll be catching different fish off Gloucester in 50 years 
than we are catching today. Ocean acidification will also challenge or 
outright destroy many fisheries, such as some of our most productive 
shellfish.
---------------------------------------------------------------------------
    \1\ Burrows, M. T. et al. 2011. The pace of shifting climate in 
marine and terrestrial ecosystems. Science 334:652-655. Poloczanska, 
E.S. et al. 2013. Global imprint of climate change on marine life. 
Nature Climate Change doi:10.1038/nclimate1958. Download PDFs here. The 
mean rate of expansion of the leading range edges for all marine 
species for which data is available is 72 km/decade (<plus-minus>14 
SEM). For bony fishes this value was 278 km/decade (<plus-minus>77 
SEM).
---------------------------------------------------------------------------
    Third, the dependence of most fisheries management on the 
theoretical concept of Maximum Sustainable Yield is the underlying 
cause of overfishing, not the solution to it. Estimates of MSY are 
usually based on oceanographic conditions that don't even exist 
anymore. Restoring fish populations to MSY does not restore ecological 
function or maximize profits and is a highly risky strategy in a 
changing world. MSY also ignores critical interactions among species, 
which is a fundamental reason it has caused so many unanticipated 
problems.
    To secure our hard-won gains, we need to invest in strategies that 
will stabilize fish populations for the long-term. Critically, we need 
to ensure that we conserve very large females--the ones who produce the 
most and healthiest offspring. Fully restoring fish populations, and 
natural population structure, would maximize profit and greatly reduce 
the effort and risk that goes into commercial fishing, it would improve 
opportunities for recreational fisherman--they'd be catching more and 
much larger fish--and it would buy us insurance against warming and 
acidifying oceans.
    In short maintaining fish populations at roughly one third their 
natural density--which is what MSY prescribes and is also the current 
threshold for ``overfished''--undercuts the social, ecological, and 
economic value of fish. Our fisheries would be more profitable, more 
sustainable, and more resilient at higher biomass levels.
    I think the MSA has done enormous good and should be reauthorized. 
But it is time to move beyond MSY and start managing fish based on 
their real value and in a whole ecosystem context. Climate change, 
habitat loss, and other factors that influence fish populations need to 
be considered explicitly in the Magnuson-Stevens Act. And fisheries 
management must recognize that the oceans are changing: we should be 
mitigating this change and also building the resilience of our coastal 
communities and marine ecosystems to it.
    Thank you,
                                 ______
                                 
    The Chairman. And our last panelist is Mr. Chris Dorsett, 
director of the Ecosystem Conservation Programs and the Ocean 
Conservancy, you are recognized for 5 minutes.

 STATEMENT OF CHRIS DORSETT, DIRECTOR, ECOSYSTEM CONSERVATION 
                  PROGRAMS, OCEAN CONSERVANCY

    Mr. Dorsett. Chairman Hastings, Ranking Member DeFazio, and 
members of the House Natural Resources Committee, thank you for 
the invitation to testify in front of you today.
    My name is Chris Dorsett, and I am the director of 
Ecosystem Conservation Programs for Ocean Conservancy. I have 
worked on fishery science and policy issues for almost two 
decades starting as a fishery observer in the Gulf of Mexico 
and more recently directing Ocean Conservancy's sustainable 
fisheries' work. My testimony today will focus on the current 
performance of the MSA in rebuilding U.S. fisheries, describe 
the essential elements that make this management program 
successful, and provide recommendations for continued progress 
in securing sustainable fisheries and healthy fishing 
communities.
    Over the past decade, significant and historic progress has 
been made in ending overfishing and rebuilding overfished 
populations in the United States. Our Nation has witnessed 
record rebuilding of overfished fisheries for the past 2 years, 
and the rate of overfishing is now at an all-time low. I 
brought a graphic to show the rebuilding over the past or since 
2001 that shows species by region that have been rebuilt and 
the record progress in 2011 and 2012.
    This progress, important from both ecological and economic 
standpoints, resulted from the rebuilding requirements of the 
MSA, the work of fishery managers in implementing the law, and 
the efforts of fishermen and fishery stakeholders. Last week, 
the NAS report came to the same conclusion in finding 
demonstrated success in identifying and rebuilding overfished 
stocks and positive long-term net economic benefits.
    Key to the success is the MSA. The MSA provides the 
framework for these achievements containing as central 
attributes for successful recovery of overfished species as 
identified by a recent assessment of global rebuilding 
programs. These include well-defined objectives, finite time 
scales, credible, consistent, and transparent scientific 
monitoring of progress, predefined rules for triggering 
corrective management action, and substantial measurable 
reductions in fishing mortality at the onset of the plan.
    In addition, the MSA already provides the flexibility to 
incorporate socioeconomic concerns. Thanks to the MSA, 
rebuilding and fishery depletion are becoming more and more a 
problem of the past.
    When analyzing the performance of the MSA, it is important 
to consider the state of fisheries and fisheries management 
before the rebuilding provisions were added. As noted by the 
NAS report, repeated delays and the lack of accountability led 
to continued overfishing and fishery collapse which prompted 
Congress, in a bipartisan manner, to institute the rebuilding 
requirements in 1996 and to strengthen them in 2006.
    The MSA addresses many of these faults, and as a result, 
our fisheries are on the road to recovery. While this progress 
is encouraging, challenges remain. Not all rebuilding plans 
have thus far been effective, and a host of stressors impacting 
the marine environment and our fisheries require a management 
approach evolves to ensure long-term success. As Congress moves 
forward with a reauthorization of the MSA, I would like to 
highlight three recommendations.
    First, an ounce of prevention is worth a pound of cure. 
Once fish stocks are depleted, options are limited and economic 
pain is almost inevitable. The best option for both fish and 
fishermen is to avoid depleting populations in the first place. 
Strengthening the current system of annual catch limits, 
accountability measures, and rebuilding requirements with the 
addition of a key finding in the NAS report calling for the 
more widespread use of harvest control rules to take correction 
action sooner when stocks are starting to head in the wrong 
direction, rather than waiting until stocks are officially 
classified as overfished, can help ensure we avoid depleted 
fisheries and associated negative environmental, social, and 
economic consequences.
    Second, long-term success requires broadening our 
perspective. Fish don't live in a vacuum, and fishery 
scientists and managers can't afford to look at these fisheries 
in isolation.
    We, therefore, need the MSA to support an ecosystem-based 
approach to fisheries management to ensure our Nation can meet 
the challenges of the future.
    Finally, we must be disciplined and constantly tracking our 
progress. The MSA currently requires a review of rebuilding 
plans every 2 years, but the regularity of revised stock 
assessment varies widely from region to region. Failure to 
adequately track our progress is both risky for fish stocks and 
unfair to fishermen.
    In summary, our Nation has made significant and historic 
progress in restoring overfished fisheries and addressing 
overfishing. This progress means healthier ocean ecosystems, 
more prosperous fishing communities, more fresh and local 
seafood for consumers and enhanced fishing opportunities for 
marine anglers. Continued success in restoring and maintaining 
U.S. fisheries at healthy and sustainable levels requires 
strengthening the MSA by transitioning to an ecosystem-based 
approach to management that ensures we are best equipped to 
meet the challenges of the future. Thank you.
    The Chairman. Thank you, Mr. Dorsett.
    [The prepared statement of Mr. Dorsett follows:]

Statement of Chris Dorsett, Director, Ecosystem Conservation Programs, 
                           Ocean Conservancy

Introduction
    Over the past decade, significant progress has been made in ending 
overfishing and rebuilding overfished populations in the United 
States.\1\ This progress, important from both ecological and economic 
standpoints, resulted from the rebuilding requirements of the Magnuson-
Stevens Fishery Conservation and Management Act (MSA), the work of 
fishery managers in implementing the law, and the efforts of fishery 
stakeholders. The MSA provides an adaptable framework that includes the 
essential elements for success found in a global analysis of rebuilding 
program performance while providing flexibility for incorporating 
social and economic needs. The rebuilding provisions of the MSA are 
showing signs of success in achieving the goal of returning fisheries 
to levels that support healthy and sustainable fish populations and 
fishing communities.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service, 2012 Report to Congress, 
Status of U.S. Fisheries (May 2013).
---------------------------------------------------------------------------
    The recent report from the National Academy of Sciences, Evaluating 
the Effectiveness of Fish Stock Rebuilding Plans in the United States 
(NAS Report), came to a similar conclusion finding ``demonstrated 
successes in identifying and rebuilding overfished stocks.''\2\ For 
stocks that were placed under a rebuilding plan, fishing mortality has 
generally been reduced, and stock biomass has generally increased. The 
long-term net economic benefits of rebuilding have also proved 
generally positive.\3\ The report highlights the challenges and 
complexities of trying to evaluate science, and make decisions about 
catch limits and other management measures. In the face of those 
challenges, the report underscores the historic progress that has been 
achieved under the current law in ending overfishing and rebuilding 
fish populations.
---------------------------------------------------------------------------
    \2\ National Academy of Sciences, Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States, (Sept. 2013) at 81 
(hereinafter NAS Report).
    \3\ NAS Report at 10.
---------------------------------------------------------------------------
Overview and Analysis of the Rebuilding Requirements of the MSA
    While rebuilding was mentioned in the original 1976 Act, it was the 
1996 Sustainable Fisheries Act (SFA) amendments, supported by a 
bipartisan group of Congressional members, that developed provisions to 
ensure rebuilding success and established specific mandates for 
rebuilding overfished populations. These changes were driven, in part, 
by the significant depletion of key groundfish species in New England. 
To address this issue, major revisions that now form the basis of the 
federal rebuilding program include:
        <bullet>  An explicit requirement to rebuild overfished 
        species;\4\
---------------------------------------------------------------------------
    \4\ 16 U.S.C. Sec. 1853(a)(1), (10).
---------------------------------------------------------------------------
        <bullet>  Secretarial identification of overfished species and 
        official notification to the Regional Fishery Management 
        Councils (RFMCs);\5\
---------------------------------------------------------------------------
    \5\ Id. Sec. 1854(e)(1), (2).
---------------------------------------------------------------------------
        <bullet>  A time limit for RFMCs to develop and implement a 
        rebuilding plan once notified;\6\
---------------------------------------------------------------------------
    \6\ Id. Sec. 1854(e)(3) (modified in the 2006 MSRA amendments).
---------------------------------------------------------------------------
        <bullet>  A requirement that populations are rebuilt in a short 
        a time as possible but not to exceed 10 years, with limited 
        exceptions;\7\ and
---------------------------------------------------------------------------
    \7\ Id. Sec. 1854(e)(4).
---------------------------------------------------------------------------
        <bullet>  A requirement that conservation and management 
        measures (including rebuilding) take into account the 
        importance of fishery resources to fishing communities and, to 
        the extent practicable, minimize adverse economic impacts;\8\
---------------------------------------------------------------------------
    \8\ Id. Sec. 1851(a)(8).
---------------------------------------------------------------------------
    The law, as interpreted by the courts, includes the essential 
attributes for restoring overfished populations as identified by a 
recent assessment of global rebuilding programs. These include (in 
part):
        1.  Well defined objectives;
        2.  Finite time scales;
        3.  Rebuilding plan established in an open and transparent 
        process;
        4.  Credible, consistent and transparent scientific monitoring 
        of progress;
        5.  Simple and easily understood metrics of status and success;
        6.  Predefined rules for triggering corrective management 
        action; and
        7.  Substantial, measurable reductions in fishing mortality at 
        the onset of the plan.\9\
---------------------------------------------------------------------------
    \9\ Murawski, S.A. 2010. Rebuilding depleted fish stocks: the good, 
the bad, and, mostly, the ugly. ICES Journal of Marine Science, 
67:1830-1840.
---------------------------------------------------------------------------
    In recognizing the demonstrated success in identifying and 
rebuilding overfished stocks, the NAS Report concludes that:
        The strong legal and prescriptive nature of rebuilding forces 
        difficult decisions to be made, ensures a relatively high level 
        of tractability, and can help prevent protracted debate over 
        whether and how stocks should be rebuilt.\10\
---------------------------------------------------------------------------
    \10\ NAS Report at 185.
---------------------------------------------------------------------------
    While the NAS Report describes ``inefficiencies'' of this 
management framework, it is important to remember why these provisions 
were enacted and strengthened by Congress. Repeated delays and weak 
action are precisely what prompted Congress to institute the rebuilding 
requirements in 1996, and to tighten them in 2006. As noted by the NAS 
Report in citing a 1993 paper,
        U.S. fisheries management was problematic because of 
        ``continued overfishing of some stocks; lack of coordination 
        between councils and the NOAA/National Marine Fisheries Service 
        in setting research agendas; conflicts among users; the 
        vulnerability of the fishery management process to delays and 
        political influence; lack of accountability; inconsistency in 
        state and federal management measures; and adoption of 
        unenforceable management measures.''\11\
---------------------------------------------------------------------------
    \11\ Id. at 24 (citing Parsons 1993).
---------------------------------------------------------------------------
    Since then, as the NAS Report and National Oceanic and Atmospheric 
Administration (NOAA) Status of the Stocks reports have found, the 
track record of rebuilding in the U.S. has been positive with record 
rebuilding of overfished populations over the past 2 years and 
overfishing at an all-time low.\12\ Due to the MSA's rebuilding 
mandate, rebuilding is more and more a problem of the past, as the 
annual catch limit (ACL) and rebuilding system continues to work to 
prevent overfishing and depletion.
---------------------------------------------------------------------------
    \12\ National Marine Fisheries Service, 2012 Report to Congress, 
Status of U.S. Fisheries (May 2013).
---------------------------------------------------------------------------
    To address these challenges and ensure the long-term health for our 
ocean, the prosperity of our nation's fishing industries and associated 
businesses, and the opportunities for world-class recreational fishing, 
we offer a number of recommendations described in further detail below: 
First, build on the successful legal framework provided by the MSA by 
ensuring the proper application of ACLs and accountability provisions 
to avoid the need for rebuilding programs in the first place. Second, 
set criteria for when a population is considered overfished in a manner 
that avoids significantly depleted populations and lengthy rebuilding 
timelines. Third, use management procedure and management strategy 
evaluation (known as MSE) to improve management. Fourth, take an 
ecosystem approach to rebuilding. Finally, implement a monitoring, 
observation and research program for our nation's large marine 
ecosystems to provide additional information for successful management.
Benefits of the MSA Rebuilding Requirements
    There are significant economic, social and ecological reasons for 
fully restoring overfished populations. From an economic standpoint, 
while a full accounting of increased profitability for commercial and 
recreational fisheries does not exist, rebuilding is estimated to at 
least triple the net economic value of many U.S. fisheries.\13\ NMFS 
estimates that rebuilding U.S. stocks would increase the current ex-
vessel value by an estimated $2.2 billion (54 percent) annually, from 
$4.1 billion to $6.3 billion annually. Rebuilding would generate an 
additional $31 billion in sales and support an additional 500,000 
jobs.\14\ From an ecological standpoint, benefits of rebuilding include 
helping to restore ecosystem structure, function and resilience. These 
improvements ensure continued production of ecosystem goods and 
services beyond just fisheries benefits. As described below, the 
ecosystem benefits of rebuilding could be increased if a broader view 
of rebuilding is adopted.
---------------------------------------------------------------------------
    \13\ Ussif Rashid Sumaila, et al. ``Fish Economics: The Benefits of 
Rebuilding U.S. Ocean Fish Populations,'' Fisheries Economics Research 
Unit, October 2005.
    \14\ Testimony of Steven A. Murawski, Ph.D. Director, Scientific 
Programs and Chief Science Advisor, National Marine Fisheries Service, 
on Implementation of the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act before the House Subcommittee on Insular 
Affairs, Oceans, and Wildlife, Washington, D.C. (October 27, 2009).
---------------------------------------------------------------------------
Unprecedented Progress in Restoring U.S. Fish Populations
    The MSA rebuilding requirements are achieving the stated goals of 
recovery for the benefit of the environment and coastal economies. In 
recent years, unprecedented progress has been made in ending 
overfishing and rebuilding overfished species. According to the recent 
NAS Report, of the 85 stocks declared overfished since 1997, 42 are no 
longer classified as overfished: 31 have been designated as rebuilt, 
and 11 are rebuilding.\15\ Furthermore, a recent evaluation of all 44 
stocks subject to rebuilding plans to comply with the 1996 Sustainable 
Fishery Act amendments and with sufficient information to assess 
progress under the plans found that 64 percent had been rebuilt or had 
made significant rebuilding progress (defined as achieving at least 50 
percent of the rebuilding target and at least a 25 percent increase in 
abundance) since implementation of the rebuilding plan.\16\
---------------------------------------------------------------------------
    \15\ NAS Report at 59.
    \16\ Natural Resources Defense Council (NRDC), Bringing Back the 
Fish: An Evaluation of U.S. Fisheries Rebuilding Under the Magnuson-
Stevens Fishery Conservation and Management Act (2013).
---------------------------------------------------------------------------
    Attachment 1 shows the decline in the percentage of managed stocks 
subject to overfishing and in an overfished condition from 1997-2011. 
Rebuilding success stories include Atlantic sea scallops in New 
England, bluefish in the Mid-Atlantic; lingcod in the Pacific and blue 
king crab in the North Pacific. The addition of science-based ACLs and 
accountability measures to the law in 2007 \17\ strengthens the 
management framework to achieve not only continued success in 
rebuilding overfished species but also significant safeguards against 
future fishing-related depletion.
---------------------------------------------------------------------------
    \17\ 16 U.S.C. Sec. 1853(a)(15).
---------------------------------------------------------------------------
Avoiding the Perils of Depleted Fish Populations
    The MSA rebuilding framework is essential to the health of our 
ocean and the economic and social well-being of our nation's coastal 
communities. Aside from the obvious loss of yield and accompanying 
socio-economic benefits that cannot be realized from a depleted 
population, maintaining fish populations at low abundance levels poses 
significant risks, in particular to fishery stability. Fishing 
generally alters the age and size structure of a population by removing 
the older, larger individuals from the population.\18\ Depleted 
populations are often made up predominantly of younger fish with 
population dynamics dominated by recruitment variability that is 
largely influenced by environmental factors. This leads to greater 
fluctuations in biomass and fishery yield, instability and 
unpredictability in the fishery.\19\ Increased variability combined 
with low population size is a factor in increased extinction risk.\20\
---------------------------------------------------------------------------
    \18\ Berkeley, S.A., et al. 2004. Fisheries sustainability via 
protection of age structure and spatial distribution of fish 
populations. Fisheries 29:23-32.
    \19\ Hsieh, C,. et al. 2006. Fishing elevates variability in the 
abundance of exploited species. Nature 443:859-862; Shelton, A.O. and 
Mangel, M. 2011. Fluctuations of fish populations and the magnifying 
effects of fishing. Proceedings of the National Academy of Sciences 
108:7075-7080; and Brunel, T and GerJan, J. 2013. Is age structure a 
relevant criterion for the health of fish stocks? ICES Journal of 
Marine Science 70:270-283. See also, NAS Report at 133.
    \20\ Johst, K and Wissel, C. 1997. Extinction risk in a temporally 
correlated fluctuating environment. Theoretical Population Biology 52: 
91-100. See also, NAS Report at 133.
---------------------------------------------------------------------------
    An additional peril of delayed rebuilding is that the likelihood of 
fishing-induced regime shifts increases when key populations are highly 
depleted. A regime shift in marine ecosystems occurs when ecological 
systems and the services they provide are transformed from one stable 
state to an alternative state. Examples of this can be found in several 
North Atlantic large marine ecosystems where trophic cascades due to 
fishing-induced changes in top predator abundance (most notably cod) 
have led to an increased abundance of lower trophic species.\21\ The 
best way to prevent such sudden and catastrophic ecosystem changes is 
to maintain ecosystem resilience by maintaining large, stable 
populations and maintaining biodiversity.\22\
---------------------------------------------------------------------------
    \21\ See, for example, Frank, K.T., et al. 2005. Trophic cascades 
in a formerly cod-dominated ecosystem. Science 308(5728)1621-1623; and 
Osterblom, H., et al. 2007. Human-induced trophic cascades and the 
ecological regime shifts in the Baltic Sea. Ecosystems 10:877-889.
    \22\ Folke, C,. et al. 2004. Regime shifts, resilience, and 
biodiversity in ecosystem management. Annual Review of Ecology, 
Evolution, and Systematics 35:557-581; Scheffer, M., et al. 2001 
Catastrophic shifts in ecosystems. Nature 413:591-596.
---------------------------------------------------------------------------
Ample Flexibility To Incorporate Social and Economic Considerations
    A popular criticism of the MSA is that it provides little 
flexibility to managers for incorporating socio-economic concerns into 
rebuilding programs. A key part of this criticism is aimed at the 
selection of a ten year rebuilding limit (with limited exceptions) 
which is considered by some to be arbitrary. U.S. Ocean Fish Recovery: 
Staying the Course published in Science in 2005 found that the 10 year 
limit is reasonable and beneficial. It noted that the drafters of the 
1996 SFA amendments to the MSA balanced the advice of population 
dynamics experts that many depleted marine organisms were capable of 
rebuilding to target levels within about 5 years in the absence of 
fishing, socio-economic concerns and the desire for successful 
rebuilding and sustainable fisheries in deciding upon a 10 year 
limit.\23\ The article notes that ``[t]his optimizing balance was 
deliberate and compassionate, not arbitrary.''\24\
---------------------------------------------------------------------------
    \23\ Safina et. al., Science, Vol 309, at 707 (July 29, 2005).
    \24\ Id.
---------------------------------------------------------------------------
    The other key part of the criticism is that this 10 year rebuilding 
limit does not allow for adequate incorporate of socio-economic 
concerns. In reviewing rebuilding plans from 1997-2011, the NAS Report 
found that the 10 year limit on rebuilding determined the target year 
for 31 of the 70 stocks for which rebuilding plans with a defined 
timeframe were implemented. Thus, the MSA and NS1 guidelines provide 
ample flexibility to incorporate socio-economic concerns.\25\
---------------------------------------------------------------------------
    \25\ NAS Report at 81.
---------------------------------------------------------------------------
    In March 2013, Ocean Conservancy analyzed rebuilding timelines of 
the 65 stocks currently subject to rebuilding plans which were included 
in the 2011 Status of Stocks Report to Congress ``Fish Stocks in 
Rebuilding Plans'' trend analysis in order to determine what level of 
flexibility is afforded to the regional fishery management councils 
(RFMCs) and National Marine Fisheries Service (NMFS).\26\ Overall, our 
analysis (Attachment 2) shows that the RFMCs and NMFS have interpreted 
and applied the MSA's rebuilding requirements with ample flexibility in 
establishing target rebuilding dates upon which to base annual catch 
limits. In only 1 of the 19 rebuilding plans in our analysis for which 
T<INF>MIN</INF> information was available did the T<INF>MIN</INF> 
estimate actually come close to the 10-year rebuilding limit (Pribilof 
Island blue king crab managed by the North Pacific Fishery Management 
Council (NPFMC)).\27\ In five of the nine stocks to which the 10-year 
rule applied, RFMCs set target rebuilding timelines at the maximum 
legally permissible limit, even though shorter rebuilding timelines 
were possible.
---------------------------------------------------------------------------
    \26\ NMFS, Fish Stocks in Rebuilding Plans: A Trend Analysis 
(2011), available at http://www.nmfs.noaa.gov/sfa/statusoffisheries/
2011/RTC/2011_RTC_TrendAnalysis.pdf. (We analyzed all stocks reviewed 
by NMFS in the analysis except those 1) that have been rebuilt, 2) for 
which a formal rebuilding program had not been submitted under the MSA 
(Atlantic salmon), 3) for which a rebuilding plan was not required 
(South Atlantic pink shrimp), 4) that did not have reliable estimates 
of biomass and/or fishing mortality (all Caribbean and Western Pacific 
complexes and species identified as overfished), and 5) that are highly 
migratory species. We also did not include West Coast salmon rebuilding 
plans. For the remaining thirty-seven plans, we requested 
T<INF>MIN</INF> (the rebuilding timeframe in the absence of all 
fishing), T<INF>MAX</INF> (the maximum amount of time allowable for 
rebuilding under the protocol set forth in the national standard 
guidelines) and T<INF>TARGET</INF> (the target date chosen for 
rebuilding) information from NMFS and the RFMCs in order to assess the 
amount of flexibility used in setting rebuilding targets.)
    \27\ As noted in the NAS Report at pg. 131, it appears that regimes 
in the Bering Sea and Gulf of Alaska have shifted to a state less 
conducive for crab productivity. As such, even in the absence of 
fishing mortality for over a decade, the population has not recovered.
---------------------------------------------------------------------------
    In summary, the drafters of the 10 year rebuilding requirement of 
the MSA carefully considered the tradeoffs associated with action 
forcing provisions to restore the health of U.S. fisheries and the need 
to consider important socio-economic concerns in rebuilding programs. 
Our analysis shows that the RFMCs and NMFS have utilized the 
flexibility of the law and NS1 guidelines in setting recovery dates for 
overfished species.
Future Considerations and Recommendations
    While the overall rebuilding trend is positive, challenges remain. 
The NAS Report found that poor performance for some stocks could be 
attributed to the combined effects of delays in implementing rebuilding 
plans and difficulties implementing reduced target fishing 
mortalities.\28\ In other cases, the failure of rebuilding plans to end 
overfishing has been due to difficulties to reduce overall fishing 
mortality when a species is caught as bycatch of a different 
fishery.\29\ To address these challenges and to deliver on the 
sustainable fishery goals of the MSA, we recommend that any future 
changes to the law, national or regional policies either build upon or 
improve implementation of the current legal framework for successful 
rebuilding as described below.
---------------------------------------------------------------------------
    \28\ NAS Report at 69.
    \29\ Id. at 71.
---------------------------------------------------------------------------
    The NAS Report makes a strong case that the best option is to avoid 
depleting populations in the first place and calls for taking 
corrective action sooner--when stocks are heading in the wrong 
direction--rather than waiting until they are officially classified as 
``overfished.'' Once fish stocks are depleted there are limited options 
for minimizing the reductions in fishing necessary to rebuild the 
population.
    The addition of requirements for setting science-based ACLs and 
accountability measures (AMs) \30\ in the MSA in 2006 has profoundly 
impacted rebuilding success and the future need for rebuilding plans in 
a positive way. With ACLs and AMs now in place for all managed species, 
NMFS recently declared that the United States has turned the corner on 
ending overfishing.\31\ A review of the past NOAA Status of the Stocks 
reports shows that indeed RFMCs with a history of science-based catch 
limits that are monitored closely against actual catch and bycatch have 
fewer species classified as subject to overfishing. These new 
management requirements, if implemented properly, should end the serial 
depletion of fisheries by preventing overfishing and by achieving 
established management targets, thus negating the need for rebuilding.
---------------------------------------------------------------------------
    \30\ 16 U.S.C. Sec. 1853(a)(15).
    \31\ NOAA Press Release, ``U.S. `Turning a Corner' in Ending 
Overfishing (March 8, 2011), available at http://www.noaanews.noaa.gov/
stories2011/20110308_endingoverfishing.html.
---------------------------------------------------------------------------
Importance of Proper Catch Accounting and Monitoring of Stock Recovery
    One important aspect of success is ensuring that catch accounts for 
all types of mortality--both directed landing and bycatch mortality--
given the significant role that bycatch mortality can play in 
overfishing. As interpreted by the NS1 Guidelines, ACLs and AMs must 
account for ``the total quantity of fish . . . taken in commercial, 
recreational, subsistence, tribal, and other fisheries . . . as well as 
mortality of fish that are discarded.'' \32\ The MSA provision 
requiring a standardized bycatch reporting methodology to assess the 
amount and type of bycatch occurring in the fishery \33\ is also a 
critical component of long-term success. For those RFMCs lacking an 
adequate methodology, factoring management uncertainty into the catch-
setting process becomes especially important.
---------------------------------------------------------------------------
    \32\ 50 C.F.R. Sec. 600.310(f)(2)(i) (defining ``catch'') (emphasis 
added); Oceana, Inc. v. Locke, 831 F. Supp. 2d 95, 115-16 (``Since the 
`catch' limited by [annual catch limits] includes both fish that are 
retained (landed) and bycatch that are discarded at sea, see 50 CFR 
Sec. 600.310(f)(2)(i), the [annual catch limits for the stocks at 
issue] may be exceeded by accumulation of bycatch alone.'').
    \33\ 16 U.S.C. Sec. 1853(a)(11).
---------------------------------------------------------------------------
    Another important aspect of success is carefully tracking progress 
in preventing overfishing and recovery of overfished species. The 
review requirements of the law and NS1 Guidelines, which focused on 
assessing adequate progress and incorporating new information into 
rebuilding trajectories,\34\ are important provisions that must be 
fully embraced in the regions to ensure rebuilding success. As noted by 
the NAS Report, the MSA requires review of the progress of rebuilding 
plans every 2 years but the frequency of updated, qualitative stock 
assessments varies widely both within and among regions. The report 
concludes that more frequent assessments might lead to more frequent 
but less extreme changes in rebuilding plans and closer adherence to 
fishery management providing greater long term stability for fishing 
communities.\35\ Furthermore, more frequent stock assessments can help 
better refine estimates of long term biomass associated with management 
benchmarks like maximum sustainable yield to ensure recovery is 
achieved.
---------------------------------------------------------------------------
    \34\ Id. at Sec. 1854(e)(7); 50 CFR Part 600.310(j)(3)(ii).
    \35\ NAS Report at 5.
---------------------------------------------------------------------------
    Recommendations: Better implementation of the MSA focused on 
revising processes for setting annual catch limits and accountability 
measures consistent with the ``one in four rule'' contained in the NS1 
Guidelines as needed; ensuring that annual catch limits adequately 
address bycatch; establishing adequate standardized bycatch reporting 
methodologies; and ensuring that Secretary of Commerce review of 
rebuilding plans is conducted to assess progress, incorporate new 
information, and guide plan modifications.
Proper Setting of Criteria for When a Population is Overfished
    Minimum Stock Size Threshold (MSST) is a key benchmark used by 
RFMCs to determine when a fish population is overfished and requires a 
rebuilding plan. The Technical Guidance on the Use of Precautionary 
Approaches to Implementing National Standard 1 of the Magnuson-Stevens 
Fishery Conservation and Management Act (Technical Guidance) offers a 
number of suggestions for setting MSST correctly. In order to avoid 
perceived conflicts with the MSA's 10-year rebuilding limit, MSST must 
be set in a manner that best ensures a short rebuilding timeline. This 
kind of thinking is already incorporated into the existing Technical 
Guidance in the recommendation that natural mortality be taken into 
account when setting MSST.\36\ Following this recommendation means that 
species with low natural mortality rates, or that exhibit evidence of 
depensatory natural mortality (such as cod, haddock and Alaskan walleye 
Pollock),\37\ which generally take longer to recover from an overfished 
status, will have MSSTs set closer to the biomass level at MSY 
(B<INF>MSY</INF>) than species with higher resilience.
---------------------------------------------------------------------------
    \36\ Restrepo, V., et al. 1998. Technical Guidance on the Use of 
Precautionary Approaches to Implementing National Standard 1 of the 
Magnuson-Stevens Fishery Conservation and Management Act. NOAA 
Technical Memorandum NMFS-F/SPO-40.
    \37\ Keith, D.M. and Hutchings, J.A., 2012. Population dynamics of 
marine fishes at low abundance. Canadian Journal of Fisheries and 
Aquatic Sciences 69:1150-1163.
---------------------------------------------------------------------------
    In cases where the acceptable biological catch (ABC) is set such 
that fishing mortality declines when biomass falls below 
B<INF>MSY</INF>, it is somewhat less critical to properly define MSST, 
as those management procedures, in theory, are self-correcting. 
However, not every region employs such a control rule. We therefore 
support the finding of the NAS Report related to better use of harvest 
control rules to promptly but gradually reduce fishing mortality rates 
once a population falls below MSY based thresholds in order to prevent 
populations from becoming overfished and in need of a rebuilding 
plan.\38\
---------------------------------------------------------------------------
    \38\ NAS Report at 2 and 5.
---------------------------------------------------------------------------
    Recommendation: Better implementation of the MSA via use of 
existing information like life history, catch and bycatch to set MSST 
at a level that will avoid lengthy rebuilding timelines. For species 
with low resilience or in cases where information is lacking, set MSST 
close to MSY to rebuild more quickly and buffer against uncertainty. 
Furthermore, more widespread use of harvest control rules that require 
prompt but gradual reductions in fishing mortality rates to avoid fish 
populations from becoming overfished and in need of rebuilding plans.
Rebuilding Directly to Biomass at Optimum Yield
    Optimum yield (OY), as defined by the MSA, is the maximum 
sustainable yield (MSY) as reduced by economic, social, and ecological 
factors.\39\ This means the biomass at optimum yield levels 
(B<INF>OY</INF>) is greater than B<INF>MSY</INF> to incorporate 
important social, ecological or economic considerations. These 
considerations include desired management targets (for example, a focus 
on larger fish as opposed to maximizing total pounds landed for 
recreational fisheries) and ecosystem health and resiliency (managing 
population levels above those at MSY to best fulfill roles in the 
ecosystem). There is currently an inconsistency in MSA objectives with 
regard to fish population levels, depending on whether or not stocks 
are in an overfished condition. For the management of stocks that are 
not overfished the goal is OY, which occurs at B<INF>OY,</INF> and is 
greater than B<INF>MSY</INF>.\40\ However, the goal for overfished 
stocks is to rebuild to B<INF>MSY</INF>.\41\ Thus, MSY is treated as 
both a limit and a target, depending on whether or not a stock is 
overfished. Given that the goal of NS1 is to achieve optimum yield on a 
continuing basis, the goal of a rebuilding plan should also be to 
rebuild directly to a population level supporting OY, as opposed to 
rebuilding to B<INF>MSY</INF> and then having to take subsequent 
management action to achieve B<INF>OY</INF>.
---------------------------------------------------------------------------
    \39\ 16 U.S.C. Sec. 1802(33)(B).
    \40\ National Standard One, 16 U.S.C. Sec. 1851(a)(1) 
(``Conservation and management measures shall prevent overfishing while 
achieving, on a continuing basis, the optimum yield from each fishery 
for the United States fishing industry.'').
    \41\ 16 U.S.C. Sec. 1802(33)(C).
---------------------------------------------------------------------------
    Recommendation: Amend the MSA to specify that the rebuilding 
biomass target is the biomass at optimum yield, where OY occurs at some 
level below MSY and consequently at a biomass level above 
B<INF>MSY</INF>.
Use of Management Strategy Evaluation/Management Procedure Approach
    We strongly agree with the recommendation of the NAS Report to 
advance the use of management strategy evaluation (MSE) to entertain a 
broader spectrum of ecosystem dynamics and possible outcomes than is 
typically considered in single-species rebuilding projections.\42\ The 
``traditional'' approach to managing fisheries consists of evaluating 
the status of the resource via the stock assessment process. 
Scientists' advice to managers about current stock status and allowable 
future catches, including rebuilding trajectories, is usually based on 
a ``best'' model run, chosen to be the most likely representation of 
reality from a number of possible configurations of one or more model 
families. There are a number of problems with this approach that can 
lead to poor performance of the fishery management system and failed 
rebuilding plans. First is the variability in catch level advice that 
can result from one assessment to the next due to the addition of new 
data, change of modeling environment or change of model configuration. 
These types of assessment changes can also lead to significant changes 
in rebuilding targets which can throw off rebuilding progress. Second 
is an inability to properly evaluate long-term trade-offs among 
alternative rebuilding strategies, including proper consideration of 
risk, which directly impacts rebuilding success. Third is the political 
haggling that arises over setting management benchmarks such as ABC 
that provide the upper limit for ACLs. In the absence of a proper risk 
policy that determines acceptable risk of overfishing in light of all 
the proper trade-offs, RFMCs have the ability to reject their 
scientific advisers' ABC recommendations on the basis that they would 
like a different risk level.\43\
---------------------------------------------------------------------------
    \42\ NAS Report at 138.
    \43\ An example for this can be found in the current Gulf of Mexico 
ABC Control Rule which gives the Council the ability to set risk on an 
ad hoc basis: ``The indicated default risk of exceeding overfishing 
limit for Tier 2, or default acceptable biological catch buffer levels 
for Tier 3a and 3b, are to be used unless specified otherwise by the 
Council on a stock by stock basis.'' GMFMC. 2011. Final Generic Annual 
Catch Limits/Accountability Measures Amendment for the Gulf of Mexico 
Fishery Management Council's Red Drum, Reef Fish, Shrimp, Coral and 
Coral Reefs, Fishery Management Plans.
---------------------------------------------------------------------------
    Management strategy evaluation (MSE) or the management procedure 
(MP) approach present alternative ways to manage a fishery.\44\ MSE and 
MP are able to deal with the above issues inherent in the 
``traditional'' approach and therefore have the potential to result in 
increased success of rebuilding plans. These methods employ catch 
control rules that specify how ABC is calculated from available data on 
an annual basis, but unlike the traditional approach, these catch 
control rules are thoroughly evaluated against alternative options via 
simulation testing before they are implemented. The simulations 
determine which of the alternative catch control rules perform best in 
terms of achieving management goals (such as rebuilding by 
T<INF>TARGET</INF> with a certain probability) while avoiding 
undesirable outcomes (such as falling below a minimum biomass threshold 
or exceeding some pre-specified socio-economic limit reference point). 
Candidate control rules or rebuilding strategies are tested against 
factors like observation error, model misspecification, management 
uncertainty, and environmental variability. Where the MSE/MP approach 
has been applied successfully, there has been a more thorough 
evaluation of risk, less inter-annual catch variability, and less 
scientific and management debate about catch limits. MSE and MP also 
allow evaluation of simpler ABC-setting methods that are not 
necessarily model-based, which can save time and resources in the long-
run. Although these methods may take time to develop initially, the 
benefits of implementing the resulting more robust management and 
rebuilding strategy generally outweigh the cost of the initial 
investment in the long run.
---------------------------------------------------------------------------
    \44\ Butterworth, D. 2007. Why a management procedure approach? 
Some positives and negatives. ICES Journal of Marine Science 64:613-
617.
---------------------------------------------------------------------------
    Recommendation: NMFS, RFMCs and Scientific and Statistical 
Committees (SSCs) should make better use of MSE and MP in making 
management decisions, including specification of biological reference 
points and evaluation of alternative rebuilding strategies against 
management goals in rebuilding plans.
Taking an Ecosystem Approach to Rebuilding
    In a world of increasing environmental variability, we face greater 
uncertainty today about how fish populations and ecosystems respond to 
human activities, including rebuilding measures. In addition, fishing 
itself has broad ecosystem impacts that can compromise the health of 
natural populations, the fishery that depends on them, and the services 
ecosystems provide. Fishery models that rely on the single-species 
theory of fishing, and do not take into account ecosystem factors when 
trying to explain trends in population biomass and dynamics, may 
predict stock recovery rates that are much higher than subsequently 
observed in the fishery. The classic example of this phenomenon is 
Atlantic cod.\45\ Similarly, rebuilding strategies that focus solely on 
attaining single-species fishing mortality and biomass goals fail to 
recognize the importance of rebuilding ecosystem structure, diversity, 
and processes which are crucial to maintaining or rebuilding resilience 
of ecosystems and the coastal communities that rely on revenue from 
fish stocks and ecosystem services.\46\
---------------------------------------------------------------------------
    \45\ Murawski, S.A., et al. 2001. Impacts of demographic variation 
in spawning characteristics on reference points for fishery management. 
ICES Journal of Marine Science 58:1002-1014 and Murawski, SA. 2010. 
Rebuilding depleted fish stocks: the good, the bad, and, mostly, the 
ugly. ICES Journal of Marine Science 67:1830-1840.
    \46\ Pitcher, TJ and Pauly, D. 1998. Rebuilding ecosystems, not 
sustainability, as the proper goal of fisheries management. In: 
Reinventing Fisheries Management (ed T Pitcher, D Pauly, and P Hart). 
Chapman & Hall Fish and Fisheries Series. p 311-325.
---------------------------------------------------------------------------
    An ecosystem based approach that accounts for the uncertainty of 
changing environmental conditions and the broader impacts of fishing 
will be critical to rebuilding success for U.S. fisheries. This 
approach will likely require the development of new rebuilding metrics 
and management reference points that go beyond the traditional biomass 
and fishing mortality thresholds and address other factors vital to 
proper fisheries management such as population demographics, ecosystem 
characteristics and services, and socio-economics. One reference point 
that should be further evaluated is fishery selectivity pattern, which 
determines population age and size structure on the single-stock scale 
and community properties such as the size-spectrum slope on an 
ecosystem level.\47\
---------------------------------------------------------------------------
    \47\ Brunel, T and GerJan, J. 2013. Is age structure a relevant 
criterion for the health of fish stocks? ICES Journal of Marine Science 
70:270-283; and Garcia, SM, et al. 2012. Reconsidering the consequences 
of selective fisheries. Science 335:1045-1047.
---------------------------------------------------------------------------
    Recommendation: The MSA should be strengthened in a manner that 
supports an ecosystem based approach to management, including 
rebuilding overfished species. This includes improving the law by 
better incorporating ecosystem considerations into management through 
the development of fishery ecosystem plans and strengthening current 
implementation of the rebuilding requirements of the law to include 
aspects of ecosystem rebuilding and resiliency to changing 
environmental conditions such as restoring population demography, 
habitat, ecosystem structure and diversity, and coastal communities.
Establish Monitoring, Observation and Research Programs for our 
        Nation's Large Marine Ecosystems
    Given the significant stressors facing our nation's large marine 
ecosystems and the longstanding call to transition fisheries to an 
ecosystem-based management approach, the RFMCs and NMFS can greatly 
benefit from reliable and timely information on existing and changing 
environmental conditions in order to manage fisheries sustainably, 
including recovery under rebuilding plans. Investments in regional 
monitoring, observation and research programs for each of the nation's 
large marine ecosystems (LMEs) can help provide fishery managers and 
the public with information necessary to make better informed 
decisions. The resulting data can also help ensure that other uses of 
marine resources are compatible with fishing, fisheries management, and 
the community benefits that come from resilient ecosystems and robust 
fish populations.
    Recommendation: Establish monitoring, observation and research 
programs for our nation's large marine ecosystems to provide additional 
information for management.
Response to the NAS Reports Treatment of the Mixed Stock Exception
    The NAS Report suggests that greater use of the ``mixed stock 
exception'' could reduce the impact of rebuilding on the catch of 
healthy fish stocks. It proposes that the operational feasibility of 
the mixed stock exception could be modified to expand the range of 
situations to which it can be applied, subject to assurances that the 
less productive species are not driven to unacceptably low levels. 
Unfortunately, while the Report seems to imply that a greater level of 
risk is appropriate, it provides no additional guidance as to what 
constitutes adequate ``assurances'' or ``unacceptably low levels'' 
beyond what is currently in the NS1 Guidelines. As the report 
acknowledges, stocks at depleted levels are at risk for increased 
variability and are more susceptible to environmental changes, which 
could negatively impact future rebuilding efforts.\48\ Furthermore, the 
report fails explain how RMFCs should go about choosing one stock over 
another when conflicts inevitably arise. In this regard, the NAS Report 
falls short of addressing the problem with operationalizing the mixed 
stock exception to date: that it would allow overfishing to continue. 
Allowing overfishing on any stock violates both the spirit and the 
letter of the MSA by permitting overfishing on a stock within a stock 
complex in order to achieve optimum yield for another stock. We have 
made substantial progress toward ending overfishing and rebuilding U.S. 
fish stocks. Allowing overfishing on some stocks is shortsighted and 
could undo the long-term progress we are making. Finally, one species 
viewed as limiting the catch of healthier populations by one fishery or 
group of fishermen could be of significant value to another fishery.
---------------------------------------------------------------------------
    \48\ NAS Report at 133.
---------------------------------------------------------------------------
Conclusion
    Over the past decade, significant progress has been made in ending 
overfishing and rebuilding overfished populations in the United States. 
While the NAS Report highlights the challenges and complexities of 
trying to evaluate science, and make decisions about catch limits and 
other management measures, it underscores the historic progress that 
has been achieved under the current law in ending overfishing and 
rebuilding fish populations. For stocks that were placed under a 
rebuilding plan, fishing mortality has generally been reduced, and 
stock biomass has generally increased. Moving forward, the NAS Report 
is the latest report to highlight the need to move to a management 
system that does not look at fish stocks in a vacuum, but takes into 
account the rest of the ecosystem in which they live and the impacts of 
changing environmental conditions. Building upon the successful 
rebuilding approaches of the MSA will ensure healthy oceans and fishing 
communities for present and future generations.
[GRAPHIC] [TIFF OMITTED] T2948.005

.eps[GRAPHIC] [TIFF OMITTED] T2948.006

.eps[GRAPHIC] [TIFF OMITTED] T2948.007

                                 .eps__
                                 
    The Chairman. I thank all of you for your testimony.
    I will now recognize myself for questioning as we start, 
and I want to ask all of you essentially the same questions I 
asked the first panel, and we will start with Dr. Hilborn and 
move that way.
    Do you believe that the current Magnuson-Stevens Act works?
    Dr. Hilborn, start with you, yes or no?
    Dr. Hilborn. Yes, with reservation.
    The Chairman. Of course.
    Mr. Moore.
    Mr. Moore. For the most part, yes.
    The Chairman. OK. Mr. Giacalone.
    Mr. Giacalone. Yes, definitely with reservations, as Dr. 
Hilborn said needs to be----
    The Chairman. We will explore those reservations, I am 
sure.
    Mr. Deem?
    Mr. Deem. Yes, I do, but it needs some fine tuning based on 
the things we are learning as we go.
    The Chairman. OK.
    Dr. Bruno?
    Dr. Bruno. Yes.
    The Chairman. OK.
    Mr. Dorsett?
    Mr. Dorsett. When it comes to overfishing and rebuilding, 
yes.
    The Chairman. OK. Well, we got a ``yes'' with reservation, 
so now let me ask another question that follows maybe that 
reservation that we are talking about.
    Do you support then a change in the Magnuson-Stevens Act to 
allow the councils to have more flexibility in rebuilding the 
fisheries?
    Yes or no, and we will start with Dr. Hilborn.
    Dr. Hilborn. Yes, if there were strategic constraints, as 
Dr. Sullivan mentioned.
    Mr. Moore. Yes, if properly written.
    The Chairman. Very good.
    Mr. Giacalone?
    Mr. Giacalone. Yes. I think it is one of the core benefits 
of the Magnuson-Stevens Act is the regional council process 
because of the localized knowledge, so absolutely yes.
    The Chairman. Mr. Deem?
    Mr. Deem. Yes, as long as we can track the growth of this 
particular stock.
    The Chairman. Good. Dr. Bruno?
    Dr. Bruno. Yes.
    The Chairman. Good. Mr. Dorsett?
    Mr. Dorsett. No, because I am not sure what ``flexibility'' 
means exactly in this case.
    Mr. Tierney. Don't exactly know what now?
    Mr. Dorsett. Because I don't know what ``flexibility'' 
means in this case.
    The Chairman. OK. Well, talking about the reservations that 
some of you made and they maybe individual, and I just 
mentioned one of those reservations. Do you believe that some 
changes then, with specifically flexibility, can be done 
without harming the overall Magnuson-Stevens Act?
    Dr. Hilborn?
    Dr. Hilborn. Definitely.
    The Chairman. Mr. Moore?
    Mr. Moore. Yes.
    The Chairman. Good.
    Mr. Giacalone?
    Mr. Giacalone. Yes, definitely.
    The Chairman. Mr. Deem?
    Mr. Deem. Without a doubt. It sets up a great framework for 
success in fisheries management, and I think we need to 
continue with it.
    The Chairman. Dr. Bruno?
    Dr. Bruno. Yes. Flexibility could improve it, could also 
gut it. It depends on how it is done.
    The Chairman. And Mr. Dorsett?
    Mr. Dorsett. And for that reason, I would say no.
    The Chairman. OK. Well, we are getting a consensus here. 
Specifically on the rebuilding of stocks, because that has been 
kind of a common theme throughout virtually all the testimony 
that we have had and the hearings we have had, do you believe 
that Congress should make modifications to the rebuilding 
provisions of the Magnuson-Stevens Act? And again, yes or no.
    We will start with Dr. Hilborn.
    Dr. Hilborn. Yes.
    The Chairman. OK.
    Mr. Moore?
    Mr. Moore. Yes, as I laid out in my testimony.
    The Chairman. Yes, you did.
    Mr. Giacalone?
    Mr. Giacalone. Yes, I think they should be expanded to 
include other alternatives.
    The Chairman. OK.
    Mr. Deem?
    Mr. Deem. Yes.
    The Chairman. OK.
    Dr. Bruno?
    Dr. Bruno. Yes.
    The Chairman. And Mr. Dorsett?
    Mr. Dorsett. I would say if we are going to enhance them 
with more tools in the toolbox to address things like changing 
environment, et cetera.
    The Chairman. Boy, if we get six yeses here, this should be 
an easy part of it then.
    Well, thank you very much. Again, I just wanted to ask that 
question kind of for the record. I understand there are 
reservations, and it was pointed out. I know Mr. Moore put that 
in his testimony and we appreciate that part.
    So, with that, let me recognize the Ranking Member, Mr. 
DeFazio.
    Mr. DeFazio. Mr. Chairman, I defer to Mr. Pallone.
    The Chairman. OK. We will do Mr. Pallone first.
    Mr. Pallone. Thank you, Mr. Chairman.
    In addition to the rest of the panel, I wanted to welcome 
Jeff Deem from the RFA. Do you know that I work a lot with Jim 
Donofrio, who is the Executive Director of the RFA in reforming 
Magnuson-Stevens. So I am glad to see that you are represented 
here today.
    I wanted to ask a question of Mr. Deem, but then if anyone 
else wants to answer it, they can. The NRC report discussed 
today finds that when data is insufficient to perform 
analytical stock assessments or to establish important 
reference points with sufficient confidence that alternative 
paradigms should be considered, so I wanted to ask if you would 
discuss what types of tools or alternative paradigms can be 
provided to fishery managers that will allow them to 
accommodate for specific uncertainty but also considering the 
social and economic effects of rebuilding?
    Mr. Deem. Well, that is an interesting question. What we 
have now is we have to go by what the science and statistics 
committee tells us, so in order to increase their ability to 
give us good answers, I think we need to allow them to have 
more flexibility to do intake field data from fishermen and 
people that participate in the fishery.
    At the moment, a lot of that is suspect and it has to be 
weighed, and it always should be weighed, of course, but it 
doesn't carry the weight that the science does. And the other 
problem, of course, is that we take or we are asked to take the 
science as absolute, and we know, as hard as they try, that it 
is not always accurate; it is not always the correct stock 
size, and we need a balance. We need to be allowed to balance 
the two together. Thank you.
    Mr. Pallone. Thank you. Would anyone else--I mean, you 
don't have to. Anybody else want to answer the question?
    Go ahead.
    Mr. Moore. Thank you, Mr. Pallone. I am not sure I could 
give you a specific means of addressing rebuilding if you don't 
have the data, but I think it is obvious that in a lot of 
cases, we don't have data, as Mr. Deem pointed out. We need 
more of it, and when we don't have the data, while we should 
act cautiously, that doesn't mean we should do nothing. Either 
don't do rebuilding, or in the worst case, from our standpoint, 
don't allow any fishing.
    You need to have some ability to deal with what you have 
and move forward in a cautious but positive manner to allow 
harvest up to a reasonable point, as recommended by your 
scientists.
    Mr. Pallone. OK. Anybody else want to take a stab at it?
    Go ahead.
    Mr. Giacalone. Data-poor stocks that have no directed 
fishery on them, the SSC should be offered an opportunity to 
come up with alternative ways to set those catch advisers than 
forcing the science centers and SSCs to come up with some 
scientific methodology that shows that there is a biomass 
target, and we have had, in our fisheries, we have three or 
four nontarget species that most people don't even see and now 
rebuilding plans on them, so we question, without assessments, 
how the Magnuson-Stevens Act is sort of forcing those issues to 
occur, because as we march along in the 10 years, they are 
going to bear root into problems for us.
    Mr. Pallone. OK. I see another hand up.
    Mr. Dorsett. I was really curious about that particular 
recommendation in this rebuilding report, and the reason is, is 
because in the case of species without formal stock 
assessments, they are primarily of unknown status, and 
therefore, they don't have a rebuilding plan associated with 
them. I think the current system of having annual catch limits 
and accountability measures then as a safety net for those 
fisheries helps prevent serial depletion so we don't find out 
when it is too late and the science catches up to the reality 
on the water for these species that we are in a situation of 
significant depletion, so I think the current safety net is an 
incredibly important attribute in the management system that 
can help ensure sustainable fisheries in the future.
    Mr. Pallone. All right. That is all I have, if no one else 
wants to answer, I will leave it alone.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman and recognize the 
gentleman from Louisiana, Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Dr. Hilborn, excellent, excellent presentation, an 
excellent 3-D view of really what happens from a data 
standpoint, but I am curious, you may have mentioned this but I 
didn't pick up on it. Is there a point after which when you 
rebuild a stock that the rebuilding slows down?
    Given the fact that there is no fishing or limited fishing, 
you rebuild the stock, and it is naturally regrowing, does it 
begin to slow down at some point because of limitation of 
habitat and access to food nutrition for the fish?
    Dr. Hilborn. Yes, definitely. I mean, any population in the 
absence of exploitation will generally increase and fluctuate 
often wildly about some average level. They can't grow forever. 
The empirical data shows very clearly that they grow much 
faster with much higher probability as the population is 
smaller and as the fishing pressure is lower, so----
    Dr. Fleming. Right.
    Dr. Hilborn [continuing]. The data really support some very 
basic ecological theory about what is called density dependent 
population growth rate.
    Dr. Fleming. Right. So, obviously, if you are excessively 
cautious or overly conservative, that you could actually see a 
slowing of the rebuilding beyond a certain point, so it seems 
to me, if your goal is maximum production over time, whether it 
is for nutritional or economic purposes, I really like the idea 
of a sweet point, that is where there is an equilibrium between 
the fishing pressure and the exploitation where you get maximum 
yield, and so in order to achieve that, it seems to me that you 
need excellent survey data that stays current and you need 
local flexibility because, obviously, that is going to vary 
from one place to another. Would you agree with that, sir, or 
have anything to add to it?
    Dr. Hilborn. Well, they certainly vary from one ecosystem 
to another and we have moved beyond thinking about this single 
species one at a time to incorporating more of the ecosystem 
interactions, although the single species theory definitely 
gets you a long way there, and it depends on what you want. 
There is an economic sweet spot that maximizes profits, and 
that is different from what would be a biomass yield sweet 
spot.
    Dr. Fleming. Sure.
    Dr. Hilborn. But those do exist, and to a great extent, the 
targets that scientists, both at NOAA and elsewhere, they try 
to estimate where those are. But I emphasize this, is that we--
what is the traditional target for yield that the fishing rate 
maximizes long-term maximum yield has been interpreted as a 
limit, that is, you shall never exceed that, and many of my 
colleagues in the science community somehow believe that if you 
just go a little bit above that level, which we often called 
FMSY, that something terrible happens. In fact, the only thing 
that happens is your long-term average yield is a little bit 
lower, and in fact, the risks in terms of yield are very 
symmetric, and underfishing a little bit poses the same yield 
risks as overfishing a little bit.
    Dr. Fleming. So it doesn't collapse the system if you 
overshoot a little bit. In other words, there is no long-range 
value to being overly conservative, that you always--once you 
note that you have overfished a bit, you can always slow down 
the pressure and let it revive itself, rebuild itself.
    Dr. Hilborn. Well, the key is reducing the fishing 
pressure, and make no mistake, 20 years ago, we had many stocks 
that were fished three or four times too hard, and NOAA has 
done excellent and the council has done an excellent job of 
reducing that, but being 20 or 30 percent over that level 
doesn't pose a long-term risk at all. We do want to get it down 
there to that level and probably, on average, below it for a 
bunch of other reasons.
    Dr. Fleming. All right. Thank you. And again, I would just 
comment before I go to my next question, the key to that 
obviously is not to be excessively conservative and to make 
sure we do plenty of good stock assessment surveys, which we 
are not doing. That is a big problem. We need to fix that.
    Mr. Moore, can you comment on the current mandatory role of 
SSCs under Magnuson.
    Mr. Moore. Thank you, Congressman. In our council, the 
Pacific Council, the SSC provides the basic overfishing level 
and they allow acceptable biological catch, and within those 
parameters, the council then decides how much you are going to 
be able to harvest, keeping in mind all the rebuilding 
requirements, so forth and so on. The SSC at our council works 
very well. They meet at the same time the council does, they 
provide us with good information. The biggest problem we have, 
quite frankly, is finding enough people to be able to serve on 
the SSC and take the time to do the work that is necessary.
    Dr. Fleming. All right. Thank you. My time is up. I yield 
back.
    The Chairman. I thank the gentleman and recognize the 
Ranking Member, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I raised briefly in my opening remarks something I would 
like people to reflect on, which is when we reach a critical 
level, we impose a recovery plan, but obviously, there should 
be some way to anticipate that we are on the way to that. I 
mean, I realize there are annual fluctuations. We have the 
decade of oscillation in the Pacific, things that might lead to 
that, but are we doing a good job of avoidance? Because it 
seems to me, I mean, we are having a discussion about what 
could we put more flexibility in recovery plans, I think you 
are hearing a lot that people want to do that, but can we avoid 
having more recovery plans and are we doing a good enough 
management job to make more subtle adjustments to avoid the 
necessity of reaching those points? Anybody who can explain 
that, yes. Yes, go right ahead.
    Mr. Moore.
    Well, OK, we go one right.
    Dr. Hilborn. I mean, increasingly our councils are 
accepting formalized harvest strategies that specify the 
exploitation rate as a function of stock size, and as the stock 
size starts to drop below the target, those exploitation rates 
go down well below the level that would produce maximum 
sustained yield and if we can actually effectively implement 
those harvest strategies, then getting into the depleted state 
would be unusual and would largely be caused by environmental 
changes rather than fishing.
    But, what you find, for instance in New England, the last 
with 10 years, is the science has been so volatile, our 
understanding that we thought was good, the next time a stock 
assessment comes around, we are fishing too hard, and that is a 
problem we face with the environmental change, and I don't 
think we are going to ever be able to prevent some stocks from 
getting depleted due to interaction between environmental 
change and imprecise science.
    The Chairman. OK. Mr. Moore?
    Mr. Moore. Thank you, Mr. DeFazio.
    In the Pacific Council, we actually have control rules, we 
have procedures in place if we see stocks declining or too much 
fishing occurring on a particular stock, so forth and so on, 
that we put those in place to try to prevent a stock being 
declared over fished.
    The biggest problem we have is that by the time we get the 
data and can put it in place on a lot of these things, it is 
too late.
    I cited in my testimony, right now, the council is getting 
ready for the 2016----
    Mr. DeFazio. Five-year-old data essentially.
    Mr. Moore. Yes.
    Mr. DeFazio. I read that.
    Mr. Moore. It is kind of hard to drive forward looking in 
your rear view mirror.
    Mr. DeFazio. Right. So go ahead. Pull that mike over closer 
because I am really having a hard time----
    Mr. Dorsett. Sorry. Just to reiterate one of my 
recommendations about an ounce of prevention is worth a pound 
of cure, the current system of annual catch limits and 
accountability measures and requirements to end overfishing is 
a significant safety net against this stock depletion and the 
need for rebuilding plan, and the councils like the Pacific 
have things like the 40-10 control rule that essentially is 
predefined ways to stop the bleeding, but that is not why it is 
spread across councils, and so that was my recommendation about 
making that more widespread and also a recommendation of the 
NAS report.
    I would also mention, too, this issue of environmental 
variability and swings in populations, this gets to, in my 
view, Dr. Bruno's testimony about where we set our management 
targets and thresholds because if you set them at low levels in 
terms of population size relative to historic abundance, those 
swings are going to be more significant in terms of dropping 
below criteria for what we deem as overfished.
    Mr. DeFazio. OK. Then the other quick question, if anybody 
has any ideas on how we are going to increase cooperative 
research, how are we going to get the better data. I mean, 
everybody has identified data as a problem. Yes? Go ahead if 
you have a quick----
    Dr. Hilborn. Yes, as it happens, I just attended a meeting 
with environmental tent staff on that subject yesterday, and I 
think there is no question that given how many fish stocks we 
have and the limited resources that the only way we are going 
to get better data for many, many stocks is by cooperative 
research with the recreational and the commercial sectors, and 
I don't have time to go into it, but there are a lot of 
impediments to that right now, and----
    Mr. DeFazio. Are those impediments we could deal with?
    Dr. Hilborn. Yes, some of them are legislative.
    Mr. DeFazio. OK. So if you would provide some 
recommendations in those areas, that would be of interest.
    Dr. Hilborn. OK. I can work with staff on that.
    Mr. DeFazio. That would be great. OK, anybody else quick on 
that? All right?
    Dr. Bruno. In many areas of marine ecology, citizen science 
has really stepped up to fill any kind of void. So in my--
especially coral reef scientists--a lot of this data comes from 
surveys being done by sports enthusiasts rather than 
scientists.
    Mr. DeFazio. OK. Thank you, thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Costa from California.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I think I am going to confine my questions to Dr. Hilborn 
and Mr. Moore because my familiarity and my issues deal mostly 
with the West Coast.
    The issue of sustainability, and I know under Magnuson-
Stevens, it has changed in what is optimal, and I think we have 
spent a lot of discussion, at least I have heard, on whether or 
not we have it right in terms of the allowance for both 
commercial and sports fishing. I would like to explore to what 
degree you think in terms of the population levels other 
multiple stress factors come into play. I am talking about 
specifically discharges of tertiary treatment facilities like 
ammonia that impact areas where smolt and other native species 
are trying to sustain themselves, predatory species, diversions 
without fish screens. I mean, we talked a lot about wetlands 
and other things that impact the ability to maintain the 
propagation of these fish populations, but to what degree do 
you think these other stress factors come into play on the 
sustainability?
    Mr. Moore. Congressman, I think there is a difference in 
what sort of stress factors are out there that affect 
anadromous species, such as salmon, versus ocean species. The 
species in the Pacific Council area that have been designated 
as overfished are all ocean species, and while there certainly 
is a problem with fishing pressure that had occurred in the 
past, which has now been pretty well taken care of, there are 
significant problems just with environmental factors that are 
out there, that are not human caused in regard to salmon.
    Mr. Costa. Right. And how good is the science? Because 
whether we are talking about anadromous fish or whether we are 
talking about marine fisheries that aren't dependent upon the 
other impacts, I mean, obviously the science gets better, but 
we learn more, right?
    Mr. Moore. Yes, sir. And if I could just answer the second 
half of that question regarding anadromous fish, some of the 
issues that you mentioned there.
    Mr. Costa. Right.
    Mr. Moore. I think things like fish screens in some of the 
irrigation districts and around the dams, water flows 
calculated at the right time of year, all of those sorts of 
things certainly have a positive impact on anadromous species, 
and to the extent that we don't do those things, it is 
obviously going to have a negative impact.
    Mr. Costa. Yes.
    Dr. Hilborn. In general, the impact of anthropogenic 
impacts on fish, other than exploitation, is the greatest in 
freshwater, then estuaries, and as you get to the continental 
shelves by far the least. Now, in the West Coast, we have 
reasonably few species that are dependent upon near shore 
habitats whereas in the gulf or the East Coast, those habitats 
are really critical for far more species in their life history, 
but estuaries have been and the freshwater systems have been 
enormously transformed by diversions and all those things, and 
I would----
    Mr. Costa. Well, I mean, San Francisco Bay is an example.
    Dr. Hilborn. It is a totally different place.
    Mr. Costa. Right. A third of it has been infilled.
    Dr. Hilborn. Yes. And the species composition, it is 
basically completely exotic species. I grew up in the Bay Area, 
so I am familiar with that, but I think the science is actually 
quite good. We understand that.
    Mr. Costa. But the ability to turn the clock back, I mean, 
we are not going to return a third of the Bay back into 
wetlands.
    Dr. Hilborn. No, that is right, and we just have to accept 
to some extent that we have made changes that are irreversible, 
and we are going to have to accept that we are----
    Mr. Costa. On that point, in terms of science, because my 
time is running out, and I heard you all opine about the 
impacts of climate change, I read a couple months ago where 
Peter Moyle, who is fairly well known on the West Coast as a 
biologist, thinks that, in 80 years, with snow packs moving 
further north in the West Coast, changes in water temperature, 
that the sustainability and the impacts to a lot of native 
species may be irreversible or impossible to maintain. Do you 
concur?
    Dr. Hilborn. Yes, I think that is true for salmon, and I 
know salmon pretty well, that places that are--a lot of 
California----
    Mr. Costa. So they will go farther north?
    Dr. Hilborn. Yes.
    Mr. Costa. So no matter what we try to do as the climate 
continues to change, and we know it has been changing for 
millions of years, how much we are impacting it I think is the 
key question. Then it begs the question, what should our best 
strategy be?
    Dr. Hilborn. That is a difficult question.
    The Chairman. The time of the gentleman has expired.
    The gentleman from Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and this is a subject I 
am quite interested in.
    Mr. Moore, I am glad to see you, Mr. Rod Moore. He used to 
sit right here on--he has gone on to bigger and better things, 
I hope.
    In your testimony, you briefly mentioned the sustainable 
certification process from the Marine Stewardship Council. How 
does this certification process work, and what costs are 
involved?
    Mr. Moore. Mr. Young, the decision by somebody to go with 
Marine Stewardship Council certification, I will say MSC for 
short, is really an economic one. For example, we find that to 
be able to sell fish in Europe, you have to have MSC 
certification. That is changing now, but for many years, that 
was what had to be done. So it was sort of, in some ways, an 
economic blackmail. You had to do it. Does it make for better 
fisheries management? I don't know about that. Is it costly? 
Yes, it is certainly costly.
    Mr. Young. Who pays for that?
    Mr. Moore. The industry pays for it, sir.
    Mr. Young. OK. And it is based in Britain?
    Mr. Moore. The MSC headquarters is in Great Britain. There 
are offices in the United States I know.
    Mr. Young. OK. Doctor--both of you--the reason for my 
interest is Wal-Mart, the famous Wal-Mart, the Chinese company.
    Mr. Moore. Oh, yes, sir. I would point to the Park Service, 
too, sir.
    Mr. Young. Oh, yes, the Park Service, that is a really 
outstanding American group right now. They really like to take 
care of people. But they are saying our salmon is 
unsustainable. Now, that is B-elbows. Now, this blackmail, now 
why don't we have our own accreditation group because I do 
believe the council, our North Pacific Council can certify 
whether it is sustainable or not?
    Mr. Moore. Mr. Chairman, Mr. Young, there are some of us in 
the industry who have been exploring with NMFS the concept of 
defining sustainability in the Magnuson-Stevens Act and 
stipulating that if you are a U.S. vessel and you catch fish 
under the terms that are defined in the Act, whether it is 
under Federal FMP or a State, a comparable State plan, then, by 
definition, you are sustainable----
    Mr. Young. What you are saying is we can in this Act, Mr. 
Chairman, I want to--the idea that I have a bunch of Brits 
making money off the industry telling me that my Alaskan salmon 
are not sustainable and Wal-Mart doesn't sell it, is dead wrong 
when it is sustainable and has been sustainable. Best fishery 
in the whole country. And so I am suggesting, Mr. Chairman, if 
the idea again, they can have their limey beans, I don't care, 
but for God sakes let us define what is sustainable and not 
sustainable. That should be the American way. And then Wal-Mart 
can say, we are not going to use Alaskan salmon, but they can't 
hang it on the fact that we are not going to sell 
nonsustainable fish by an agency outside.
    Doctor, have you any comments? You are from Washington. 
Your outfit is affected by this.
    Dr. Hilborn. I spend most of the summer in Bristol Bay, and 
let me tell you, I have heard a lot about it this year.
    Mr. Young. What is your suggestion?
    Dr. Hilborn. Well, I think that--I mean, clearly, Alaska's 
salmon are sustainably managed, but Marine Stewardship Council 
certification is about more than sustainability. It has a whole 
lot more.
    Mr. Young. Like what?
    Dr. Hilborn. Oh, impacts on the environment, compliance 
with legal frameworks. It is much more than just 
sustainability, and the alternatives sometimes have different 
levels of standard, and the MSC standard has actually crept 
higher and higher in the time I have been doing various work 
for the MSC, and what is really happening is MSC has more or 
less established a monopoly in the European markets, as Rod 
said, and in fact through some NGO's in the U.S., and the 
Alaska salmon industry is basically trying to break that 
monopoly by getting other certification schemes accepted at the 
same standard as MSC, and it is really a political battle, it 
is not really a scientific or a sustainability battle.
    Mr. Young. I thank you both. One of the things, again, Mr. 
Chairman, this is an issue we have to address. It is dead wrong 
what is happening here, and I am deeply offended by Wal-Mart, 
the Chinese-owned company. Now Sam doesn't like that, but the 
fact is you look at everything on their shelves, a lot of it 
is, in fact, produced overseas, and to have them now not buy an 
American product is about as un-American, Mr. Sam, as you can 
get, and if you are in the audience, you better be listening to 
me because this is dead wrong and un-American action by a 
corporate structure that doesn't pay their workers the 
appropriate salaries and, in fact, appeases to those that are 
in a poorer class by saying we are not buying American, we are 
going to buy Russian crab? Mr. Chairman, think about that a 
moment. I know my time is up, but Mr. Wal-Mart, you better 
start listening.
    The Chairman. I have a feeling that this will get to Wal-
Mart somehow.
    Mr. Young. And, by the way, they do contribute to my 
campaign or used to.
    The Chairman. The chair recognizes the gentlelady from 
Guam, Mrs. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I would 
just like to make a statement first before my questions. The 
MSA rebuilding requirements established in 1996 and 2006 have 
been responsible for the recovery of 33 depleted stocks. 
Science-based management and rebuilding timelines have helped 
in overfishing in the U.S. and has made the U.S. a global 
leader in fisheries management. So now is the time to build 
upon it. The majority of stocks in the western Pacific have no 
stock assessments, including Guam.
    Now, my first question is for you, Dr. Hilborn. In your 
testimony, you suggest that we focus on Federal management of 
fish stocks that are important to the Nation's food, jobs, and 
income, and not subject the hundreds of small stocks to the 
same process. I am very concerned with your statement. I do not 
agree on restricting resources and management to lucrative 
fisheries. The ocean and the resources are important to the 
people of Guam. Fishing is an important part of preserving our 
history and our culture. As such, we need Federal resources 
allocated to fisheries management, so my question is, if we 
stop supporting and monitoring these small stocks, how will we 
keep our subsistence fisheries healthy?
    Dr. Hilborn. Well, I am not suggesting we don't monitor 
them, and in fact, I think we do need to apply more science to 
those stocks, but if we take the current Magnuson-Stevens 
approach in mixed stock fisheries and include, say, on the West 
Coast where we have literally a hundred species, what you would 
find is we would end up the only way to not overfish anything 
by Magnuson-Stevens definitions would be to close the fisheries 
because you are going to always have one choke species or two 
choke species. Now these may--even the current choke species 
are not significant contributors to jobs or employment. These 
are generally very, very small stocks. So if our objective was 
to produce food or jobs, those stocks could remain overfished, 
without any loss in jobs or food, and as we expand the breadth 
of the number of species in the Act, and there are literally a 
thousand species out there, you are going to find with the 
current way we implement the Act that it would get more and 
more restrictive, and we would have less and less ability to 
harvest the large abundant stocks of the ocean. But we should 
do more science, but I don't think Congress is going to pay for 
a double or a triple or a quadruple of our science budget, and 
we have to find other mechanisms, and I would suggest that 
cooperative management--there is actually pretty--I am working 
on some Guam stuff, there is some pretty good data out there. 
It is just nobody has had the time to really go through it.
    Ms. Bordallo. Thank you.
    Mr. Dorsett, in his testimony, Dr. Hilborn stated that the 
regional councils have done a good job of solving the problem 
of fisheries bycatch. However, many fisheries still discard 
significant amounts of catch at sea and have trouble catching 
target species without harming weaker stocks. So, in your 
opinion, are our bycatch problems solved, and if so, then why 
do so many fishermen complain about choke stock? If not, what 
can we do to make fisheries more selective?
    Mr. Dorsett. Thank you for your question. I would say that 
the bycatch problem has not been solved in U.S. fisheries, and 
indeed, the NAS report found that one of the problems still 
contributing to the failure to end overfishing is incidental 
catch of that particular species.
    In terms of addressing the bycatch issue, I think we need 
to look at the law and strengthen it in appropriate ways that 
will essentially create clear objectives for what we want to 
see in terms of the bycatch problem. I think from that, you 
will find that fishermen will find ways to fish very 
selectively and innovate. This past year with the Pew 
Environment Group we published a report on the MSAs of the 
success of the Magnuson-Stevens Act which looked at the history 
of the law from 1976 until now, and in it, we profiled the 
number of fishermen that have been real innovators in the field 
in things like bycatch reduction. And in my experience, for 
example, working on West Coast fisheries, there was a lot of 
innovations in terms of decisionmaking tools, science, and by 
fishermen to avoid those species, so I think we can do a lot 
more, and with the ingenuity of fishermen a lot more can be 
done.
    Finally, I would say that even though there has been a 
requirement for a standardized bycatch reporting methodology in 
the law since 1996, in many regions, that system is severely 
lacking, so we don't even have, I think, a real good handle on 
the extent of the bycatch problem.
    Ms. Bordallo. Thank you. Thank you.
    I have one further question, real quick question. Dr. 
Bruno----
    Mr. Young [presiding]. You just use all the time you want, 
Sweetheart.
    Ms. Bordallo. Well, thank you. Thank you, Mr. Young. That 
is the nicest thing I have heard since I have been in Congress.
    Mr. Young. Well, we will talk about that later.
    Ms. Bordallo. Dr. Bruno, fishermen sometimes complain that 
fish that could be legally caught but are not are wasted fish 
or left on the table. In terms of long-run fisheries' 
productivity, profitability, and stability, is this the right 
way to think about things? Are there positive effects to 
allowing some fish to grow larger or live longer than the 
minimum allowable for harvest?
    Dr. Bruno. Yes, Congresswoman, absolutely. I mean, they are 
essentially the seed stock of the fish that are going to be 
caught tomorrow, are they going to produce babies to get caught 
in the next generation? So it is critical to keep them out 
there, letting them get bigger and older is fundamental. So 
fish, unlike people, become more reproductive, far more 
reproductively successful the older they get and the fatter 
they get, so the best thing for the fishery, it would stabilize 
it, it would make it more economically profitable to have a lot 
of big, big old fat fish out there.
    Ms. Bordallo. Thank you, and I yield back my endless time 
limit.
    Mr. Young. Thank you, my dear.
    Mr. Garcia.
    Mr. Garcia. I wanted to ask a general question. Fishermen 
sort of bring this up, which is the division of the councils, 
right? I, as you can imagine, I am from Florida, and I 
represent the Florida Keys, which sort of is that area where 
you are divided between two councils, and I get a lot of 
reaction from my fishermen about that, that is this division 
the most efficient way to look at this? And so I know, at the 
risk of losing all my time with that first question, I just 
want to get your quick response on that from those of you who 
care to have an opinion.
    I will start with you, just volunteer, go right ahead.
    Mr. Deem. All right, sir, I appreciate that. We have 
liaisons to the different councils. I am on the Mid-Atlantic--
we have liaisons to the North Atlantic and to the South 
Atlantic, and I think it works pretty well. There are species 
that each of us manage, and we work together on some; we joint 
manage some. I think your fishermen can relax that it is a 
pretty well laid out situation.
    Mr. Garcia. OK.
    Mr. Dorsett. Having spent most of my time with councils in 
the Gulf Council, I am aware of this particular issue, and it 
really, the bottom line is there needs to be good cooperation 
among the councils, and I would say, for example, on warming 
ocean temperatures leading to differences in stock 
distributions up and down the East Coast, this issue is 
becoming more and more important, so we need to determine if we 
have the right governance structure in place to accommodate 
these shifts in stocks and ensure we have good coordination 
between the regional fishery management councils.
    Mr. Garcia. OK. Well, Mr. Dorsett, let me follow up with 
that. So a recent national research council report identified 
potential changes that could be made in fisheries management in 
response to rebuilding requirements. I have heard from 
fishermen in my district who have asked for additional 
flexibility in rebuilding timelines and actual catch limits. In 
your opinion, does the Magnuson-Stevens Act have that 
flexibility necessary to help fishing communities, while also 
ensuring timely rebuilding of stocks that we depend on?
    Mr. Dorsett. Yes, I believe it does. If you look at the 
report as well as the statistics that Sam provided in his 
testimony from the National Marine Fisheries Service and the 
analysis we have done, there is ample flexibility to consider 
socioeconomic concerns. Over half of rebuilding plans are over 
the 10-year limit because that has some limited exceptions to 
it. One of the most contentious rebuilding programs in the 
Southeast region is red snapper. That is a 32-year rebuilding 
program that incorporates socioeconomic concerns. It has been 
successful. It has been successful because of strong mandates 
in terms of ending overfishing and rebuilding that population, 
and so I think it does provide ample flexibility and include 
action-forcing mechanisms to ensure we return fisheries to 
healthy levels.
    Mr. Garcia. All right. So, finally, and I will end with 
this, you know, I don't have to say it, but maybe some of my 
fishermen are watching. Obviously, Florida Keys commercial 
fishing industry represents the largest commercial seaport in 
the State of Florida. In order to protect our environment and 
support our economy, I am interested in what more you think can 
be done to ensure the regularized standardized stock 
assessments nationwide. Are there any plans that you could 
suggest that could make such assessments more thorough and 
consistent, for example through the use of new technologies or 
electronic monitoring, you know?
    Last, before I got here, but I was running, there was the 
yellowtail incorrect assessment, and fortunately, everyone 
responded adequately, and government looked at it again, and 
the assessment was remade, but how can we avoid this? Because 
people's lives are sort of on the line here, too, or 
livelihoods.
    Mr. Dorsett. Sure. You know, monitoring program potential 
to provide the information, to help assess the population 
status of fisheries and inform management, I think this panel 
here has recommended a number of ways we could look at, 
including cooperative research, better use of technology to get 
this information in the most cost-effective manner possible. 
Then we have to address the issue we have in the Southeast 
region, and we have one science center supporting three 
regional fishery management councils with a lot of stocks, and 
so we need to ensure there is also adequate resources in order 
to assess those species. One of the things that is a 
recommendation of ours in terms of how we invest oil spill 
penalties money from the BP Deepwater Horizon oil disaster is 
to look at ways we can make investments in our fisheries, 
including fishery science monitoring programs to not only track 
the impacts of the BP disaster but also inform management and 
address these data deficiencies.
    Mr. Garcia. Mr. Chairman, I know you are not going to be as 
generous with the time as the gentlelady, but I just want to 
thank all of you for what you are doing and the fact that we 
are working together, and if there is probably any area where I 
think that both the recreational, commercial, and sports 
industry are working together, I think it is in this area, and 
I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Young. I thank the gentleman. I am going to thank the 
witnesses.
    I do appreciate the gentlemen, your work, you will be 
addressing some of the issues in this legislation coming up. We 
won't see any massive changes, I don't believe, but there will 
be some adjustments to the Magnuson-Stevens Act, and glad to 
have you aboard, and I want to say that the members of the 
Committee may ask you additional questions for the record, and 
if they do so, please respond in writing, and again thank you. 
With that, no further questions, this Committee hearing is 
adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    The NRDC report entitled ``Bringing Back the Fish: An 
Evaluation of U.S. Fisheries Rebuilding Under the Magnuson-
Stevens Fishery Conservation and Management Act'' has been 
retained in the Committee's official files. It can be found at: 
http://www.nrdc.org/oceans/files/rebuilding-fisheries-
report.pdf.

                                 <all>

</pre></body></html>
